<html>
<title> - MILITARY IMPLICATIONS OF NATO ENLARGEMENT AND POST-CONFLICT IRAQ</title>
<body><pre>[Senate Hearing 108-526]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-526
 
    MILITARY IMPLICATIONS OF NATO ENLARGEMENT AND POST-CONFLICT IRAQ

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2003

                               __________

         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
94-843 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

    Military Implications of NATO Enlargement and Post-Conflict Iraq

                             april 10, 2003

                                                                   Page

Wolfowitz, Hon. Paul D., Deputy Secretary of Defense.............     5
Pace, Gen. Peter, USMC, Vice Chairman, Joint Chiefs of Staff.....    17
Jones, Gen. James L., USMC, Supreme Allied Commander, Europe and 
  Commander, United States European Command......................    20

                                 (iii)


    MILITARY IMPLICATIONS OF NATO ENLARGEMENT AND POST-CONFLICT IRAQ

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:25 a.m. in 
room SD-106, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Roberts, Allard, Sessions, Collins, Levin, Byrd, Akaka, E. 
Benjamin Nelson, Bayh, Clinton, and Pryor.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Mary Alice A. Hayward, professional 
staff member; Gregory T. Kiley, professional staff member; 
Patricia L. Lewis, professional staff member; and Lynn F. 
Rusten, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; and Peter K. Levine, minority 
counsel.
    Staff assistants present: Michael N. Berger, Andrew Kent, 
and Jennifer Key.
    Committee members' assistants present: James Beauchamp, 
assistant to Senator Roberts; Jayson Roehl, assistant to 
Senator Allard; James P. Dohoney, Jr., assistant to Senator 
Collins; D'Arcy Grisier, assistant to Senator Ensign; James W. 
Irwin, assistant to Senator Chambliss; Aleix Jarvis, assistant 
to Senator Graham; Henry J. Steenstra, assistant to Senator 
Dole; Russell J. Thomasson, assistant to Senator Cornyn; 
Christine Evans, Barry Gene (B.G.) Wright, and Erik Raven, 
assistants to Senator Byrd; Richard Kessler, assistant to 
Senator Akaka; Peter A. Contostavlos, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator E. Benjamin Nelson; 
Rashid Hallaway, assistant to Senator Bayh; Andrew Shapiro, 
assistant to Senator Clinton; and Terri Glaze, assistant to 
Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets today to receive the 
testimony on two important subjects: the North Atlantic Treaty 
Organization (NATO) enlargement and the post-conflict Iraq. We 
welcome our witnesses: Deputy Secretary of Defense Paul 
Wolfowitz; General Peter Pace, Vice Chairman of the Joint 
Chiefs; and General James Jones, the Supreme Allied Commander, 
Europe, and Commander of the U.S. European Command.
    We commend you, General Jones, for the award you received 
last night from a very prestigious organization, the Eisenhower 
Award. It is very much deserved. We thank you for making the 
trip back to join this committee and give us your views on 
these extremely important subjects.
    On March 27, the committee received testimony from Under 
Secretary of State Marc Grossman and Under Secretary of Defense 
Douglas Feith on the future of NATO. The information received 
at that hearing will provide a basis for our discussions today.
    On March 26, 2003, representatives of the NATO member 
countries signed the protocols of accession that, once 
ratified, would permit Bulgaria, Estonia, Latvia, Lithuania, 
Romania, Slovakia, and Slovenia to join NATO. The Senate will 
soon be asked to fulfill its constitutional duty to provide 
advice and consent to these protocols to the North Atlantic 
Treaty.
    Today's hearing on the military implications of NATO 
enlargement is a key element of this committee's contribution 
to the upcoming Senate consideration of these protocols. NATO 
is first and foremost a military alliance. Its enlargement by 
seven additional nations, the largest enlargement in alliance 
history, would have dramatic implications for NATO's ability to 
function as an effective military organization.
    During today's hearing the committee will examine a number 
of key questions, including: Will these seven nations enhance 
the military effectiveness of the alliance? How would their 
entry into NATO affect the capabilities gap that is a current 
challenge to NATO, an example being the airlift? Should NATO 
consider changing its operating procedures so that it is not in 
all cases bound to act by consensus? Is there any thinking 
along the lines of a Security Council decisionmaking body 
within NATO somewhat like they operate in the United Nations 
(U.N.)? Does NATO need a suspension mechanism for decisions for 
nations that fail to uphold NATO's basic charter principles? 
What organizational military changes, if any, will NATO 
consider in order to continue to be an effective alliance?
    The committee looks forward to hearing the views of our 
witnesses on all these matters and any other issues you 
consider relevant to the military implications of this proposed 
round of NATO enlargement.
    With respect to post-conflict Iraq, in January of this year 
President Bush designated the Department of Defense as the 
agency of the U.S. Government to coordinate the inter-agency 
and international activities during the post-conflict phase of 
our involvement in Iraq. Therefore, it is appropriate that this 
committee conduct an oversight hearing on the responsibilities 
and authorities of the Department of Defense.
    From the very initiation of consideration of this conflict 
and throughout its operation, President Bush has said it is an 
operation to liberate and free the people of Iraq from the 
regime of Saddam Hussein. Clearly, securing the peace is as 
important as prevailing in the conflict phase of the ongoing 
war in Iraq. There has been much discussion in recent days 
about the desire of some to internationalize the post-conflict 
phase by giving the United Nations a central role. Clearly, the 
U.N. should be involved. The U.N. can play a significant role 
in these humanitarian and reconstruction activities where it 
has substantial expertise, such as the Oil for Food program, 
provision of food aid through the World Food Program, and the 
resettlement of refugees and other displaced persons.
    But, as Secretary Powell said, the United Nations would be 
a partner, and I respectfully add, not a managing partner, for 
that role of the management most properly falls to the 
coalition of the willing that conducted these operations. This 
coalition bravely fought the war. They are in the process now 
of liberating Iraq and have borne the sacrifices and also have 
extensively planned and organized themselves for the 
stabilization and reconstruction phases that lie ahead. The 
coalition partners can and will manage the near-term activities 
until a functioning interim representative Iraqi authority can 
assume responsibilities.
    We look forward to receiving testimony on who will be 
conducting the principal U.S. official responsibilities in Iraq 
for post-conflict activities, what will be the chain of 
command, how this effort will evolve during this period of 
time, and what will be the requirements placed on U.S. military 
forces both in terms of quantity and duration in post-conflict 
Iraq.
    Finally, this appearance serves as General Jones' first 
posture hearing as Commander of U.S. European Command. We 
welcome your insight, General Jones, on developments in your 
area of responsibility (AOR) as well as your assessment of the 
2004 defense budget request. General Jones, you graciously 
accepted the invitation to visit with Senator Levin and myself 
as well as Senator Roberts and Senator Rockefeller when we came 
through London on the way home from the AOR of Central Command 
(CENTCOM). You shared with us some ideas about possible changes 
in the size and structure of U.S. forces in Europe. Perhaps you 
can add that as a part of your testimony today.
    We welcome our witnesses and we look forward to 
participating with you in the success thus far that we have 
achieved in the Iraq campaign and with NATO enlargement.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me first join 
you in welcoming our witnesses: Deputy Secretary of Defense 
Paul Wolfowitz; Vice Chairman of the Joint Chiefs of Staff 
General Peter Pace; and NATO's Supreme Allied Commander, 
Europe, General Jim Jones. General Jones is here for the first 
time in his new capacity, so we give him a special welcome.
    The enlargement of the North Atlantic Treaty Organization 
is a major development with great military and political 
implications. A significant aspect of any enlargement to the 
United States, of course, is that it will represent a 
commitment by us to treat an armed attack on any of the seven 
additional nations, like the existing member nations, as an 
attack on the United States.
    In 1997 at the time of the Senate's consideration of the 
enlargement of NATO to include Poland, Hungary, and the Czech 
Republic, it was decided that the security of those Central 
European nations was important enough to make such a 
commitment. We are faced with a similar decision today relative 
to the candidates for admission into NATO.
    One topic of discussion in 1997 was the reaction of Russia 
to the enlargement of NATO to include former members of the 
Warsaw Pact. Such enlargement was not intended to be 
threatening and, appropriately, it was not perceived as a 
threat by Russia, which wanted to establish a constructive 
relationship with the United States and the other members of 
NATO. As a matter of fact, Russia's decision on that matter was 
so clear that its position relative to NATO membership for the 
former Soviet Republics--Latvia, Lithuania, and Estonia--is not 
even an issue today in looking at these new candidates for 
membership.
    Our task now is made easier by NATO's decision in April 
1999 to launch the Membership Action Plan to assist countries 
that wished to join the alliance in their preparations for 
membership. The Membership Action Plan, which covers political, 
economic, defense, resource, security, and legal aspects of 
NATO membership, enabled the applicant nations, as well as the 
existing members of the alliance, to track their progress, 
including most importantly the future members' commitment to 
the fundamental principles of the NATO alliance--democracy, 
individual liberty, and the rule of law. We are assisted in 
that regard by a report from the President containing an 
analysis of the progress of each aspirant nation.
    Our hearing on March 27, which the chairman referred to, on 
the future of NATO with the Under Secretaries of State and 
Defense, was a valuable backdrop to today's hearing. As a 
result of that hearing, Under Secretary of State for Political 
Affairs Marc Grossman has raised with the U.S. Ambassador to 
NATO Nick Burns two issues that I have consistently raised and 
raised again at that hearing--namely whether given the 
continuing growth of the alliance, there is an increasing need 
of a process to suspend the membership of a nation that was no 
longer committed to the fundamental values of the alliance and 
whether, in the aftermath of the dispute over whether to plan 
for the defense of Turkey, the requirement for consensus needed 
to be reconsidered. Secretary Grossman has subsequently advised 
us that Ambassador Burns has agreed to raise that issue at the 
North Atlantic Council.
    The second issue of this morning's hearing has to do with 
post-conflict Iraq. There was no doubt in the mind of this 
committee about the outcome of the military campaign against 
Saddam Hussein. The coalition of American, British, and 
Australian servicemen and women has performed with 
extraordinary courage, valor, and professionalism, as we knew 
they would. There are still military challenges ahead of us in 
Iraq, but military history has clearly been made already and 
has been made dramatically.
    Relative to the post-Saddam reconstruction challenge, 
President Bush and Prime Minister Blair said the following in a 
joint statement last Tuesday: ``As the coalition proceeds with 
the reconstruction of Iraq, it will work with its allies, other 
bilateral donors, and with the United Nations and other 
international institutions. The United Nations has a vital role 
to play in the reconstruction of Iraq. We welcome the efforts 
of U.N. agencies and nongovernmental organizations in providing 
immediate assistance to the people of Iraq. As we stated in the 
Azores, we plan to seek the adoption of new United Nations 
Security Council resolutions that would affirm Iraq's 
territorial integrity, ensure rapid delivery of humanitarian 
relief, and endorse an appropriate post-conflict administration 
for Iraq.''
    The joint statement also included the following statement: 
``The Iraqi Interim Authority will be broad-based and fully 
representative, with members from all of Iraq's ethnic groups, 
regions, and diaspora. The Interim Authority will be 
established first and foremost by the Iraqi people, with the 
help of the members of the coalition and working with the 
Secretary General of the United Nations.''
    I welcome President Bush and Prime Minister Blair's 
statement that they will seek an U.N. Security Council 
endorsement of an appropriate post-conflict administration for 
Iraq. Such involvement of the world community in the selection 
of the interim Iraqi government is important to demonstrate, 
particularly to Muslim nations, that the interim government 
will be selected by the Iraqi people and will not be just 
picked by the coalition that was engaged in removing Iraq's 
tyrant. The involvement of the world community, acting through 
the United Nations, will add significant credibility to and 
confidence in the interim Iraqi government and give the lie to 
those who propagandize that the removal of Saddam was motivated 
by a desire to dominate Iraq or control its resources.
    I look forward to the testimony of our witnesses. Thank you 
very much.
    Chairman Warner. Thank you, Senator Levin.
    Today's record, we will admit to it such communications as 
we may receive from Ambassador Burns regarding the points 
raised in the course of this hearing.
    Secretary Wolfowitz, we welcome you.

   STATEMENT OF HON. PAUL D. WOLFOWITZ, DEPUTY SECRETARY OF 
                            DEFENSE

    Secretary Wolfowitz. Thank you, Mr. Chairman. I will give 
an abbreviated version of my statement and submit the entire 
statement for the record.
    Chairman Warner. All the statements of all witnesses in 
their entirety will be placed in the record.
    Secretary Wolfowitz. I think it is particularly fitting at 
a crucial stage in another war to defend freedom that we are 
here to take stock of an alliance that has been integral to the 
preservation of peace and the protection of democracy for more 
than half a century now. I can personally claim to have had 
some involvement in U.S.-NATO affairs for 30 of those 50 years. 
As I think back on that history, I am struck that at almost 
every point in NATO's history there have been doubters and 
naysayers, some who say that NATO has outlived its usefulness, 
and some who suggest that it is not even useful at all.
    I remember in the summer of 1990 being privileged to attend 
what was NATO's first post-Cold War summit. It was held in 
London and the host was Prime Minister Thatcher. She opened the 
meeting with remarks that were clearly intended to be ironic, 
saying that ``Europe stands at the dawn of a new era, as 
promising in its own way as 1919 or 1945.'' She clearly meant 
that promise can sometimes encounter harsh reality, but I doubt 
if even the Prime Minister thought that just a month later we 
would be confronting an Iraqi invasion of Kuwait.
    The world is a world full of promise, but it is also a 
dangerous and uncertain place. I am struck at how regularly 
NATO has gainsayed the doubters. Whether we go back to the mid-
1970s when some people in this country said we should not have 
any troops in Europe any longer, NATO stuck it out. I think it 
contributed substantially to the peaceful end of the Soviet 
empire.
    In the early 1980s, when people said NATO would not be able 
to stand up to the test of deploying intermediate range nuclear 
forces in Europe or that if it did stand up to the test it 
would not be capable of negotiating an arms control arrangement 
with the Soviet Union, NATO was able to do both.
    When the Berlin Wall came down, I remember President George 
Herbert Walker Bush being asked at a press conference, why did 
we need NATO any longer now that the threat had gone away, and 
his answer was: ``There is still a threat and it is called 
uncertainty.'' Some people thought that was not a very 
threatening threat, but I think in fact the history of the 
1990s demonstrated once again that there are dangers in Europe 
and NATO has been an extraordinarily successful instrument for 
addressing those dangers, most significantly in the Balkans.
    Indeed, I think NATO demonstrated impressively its 
capability in the Balkans, and I recall in many of those 
debates some echoes that one hears more strongly today, that 
American leadership in NATO was heavy-handed, that we were 
pushing and bullying the Europeans, and we would be fracturing 
the alliance or, alternatively, from the other end that we 
would be following NATO into some kind of Balkan quagmire where 
thousands of Americans would be killed. I think neither of 
those great fears have been realized and instead I think we can 
point proudly to a NATO mission that has saved lives and helped 
to stabilize an important part of the newly free Europe.
    If I could just make one more example, which is the 
enlargement that you referred to, the first round of 
enlargement when Poland, the Czech Republic, and Hungary were 
brought into NATO, and some people feared, and I think not 
without some reason, that this would be building a wall down 
the center of Europe that would be excluding Russia. I think 
experience has demonstrated that, instead of building a wall, 
we have built a bridge across Europe, a bridge on which Russia 
has been able to move closer to Europe, both in security terms 
but also in political terms.
    Now at the beginning of the 21st century, NATO continues to 
be the central instrument for solidifying peace in Europe and 
drawing nations on both sides of the Atlantic closer together. 
In response to the extraordinary new threat posed by 
international terrorism, NATO for the first time in its history 
invoked article 5, calling on all members to defend the country 
that was attacked, and the country was the United States. No 
one would have predicted that.
    NATO sent NATO Airborne Warning and Control System (AWACS) 
aircraft here to this country to help defend America's skies 
and NATO is supporting the deployment of German and Dutch 
forces in their newly assumed leadership role in the 
International Security Assistance Force in Afghanistan. Few 
would have predicted that NATO or NATO countries would be doing 
anything in a country as far away and as remote as Afghanistan, 
but it is.
    It is against that background that I think we address this 
issue of a second round of enlargement, against the background 
of certain fundamental constants: that NATO is and will remain 
the anchor of the U.S. security relationship with Europe; that 
NATO is and will remain the central framework, not only for 
trans-Atlantic military cooperation, but also for the West's 
mobilization of its comprehensive collective power to defend 
our common interests; and of course, Europe remains essential 
to the forward presence of American forces.
    It is with those constants in mind that President Bush has 
forcefully supported a round of NATO enlargement, one that will 
extend NATO from the Baltic to the Black Sea. As I mentioned, 
the last round of enlargement did not, as some naysayers 
feared, build a new wall down the middle of Europe. Instead, 
NATO has built bridges across the continent, providing 
incentives for countries to reform their political systems, to 
strengthen their relationships with their neighbors, and to 
bring their military forces under civilian control.
    A historically significant political development of this 
past decade is the bridge that has been extended to Russia, 
encouraging democratic Russia to have a closer relationship 
with NATO and indeed with all of Europe. The enlargement of 
NATO continues the vision of a Europe that is secure, 
undivided, and free, and work is under way to enlarge the 
alliance further.
    My colleague at the State Department, Under Secretary Marc 
Grossman, noted in his testimony here a couple of weeks ago 
that the addition of these seven countries is about the future 
of NATO. I could not agree more. As we look to the future of 
NATO, we might see its further enlargement in terms of two 
imperatives, moral and strategic. The moral imperative calls us 
to help new democracies formerly subjected to the yoke of 
tyranny consolidate and secure their own freedom and 
sovereignty.
    The strategic imperative suggests that a united Europe of 
common values will help avoid the major wars that continent 
experienced in the 19th and 20th centuries. A united Europe 
will be a better partner to the United States in dealing with 
world affairs. A united Europe will provide a context of 
security that can encourage reform in the Ukraine and Russia. A 
Europe so united is revitalized by nations who have recently 
thrown off the yoke of authoritarianism and have a fresh 
commitment the freedom and democracy through NATO's 
responsibilities.
    Further enlargement of NATO remains based on sound reform 
of any aspiring nation, including military reform of national 
strategy, secure communications systems, upgrading facilities 
to NATO standards, improved training, logistical support, 
personnel, and military spending at a minimum level of 2 
percent of gross domestic product.
    Mr. Chairman, you also asked us to address in this hearing 
the future of post-Saddam Iraq. I think this is the appropriate 
place to pay tribute to the extraordinary young men and women, 
and indeed a few older men and women who are their commanders, 
for a heroic, professional, humane, and truly brilliant 
performance, and also to pay credit to their predecessors who 
have stood on the lonely lines in Germany and the Cold War, who 
shed blood in Korea and in Vietnam, who helped to bring about 
the peaceful end of the Soviet empire, and who have contributed 
so much to securing and advancing that freedom which we know 
the greatest generation fought to restore in World War II.
    The debt that this country owes to its fighting men and 
women, the gratitude we owe to them and to their families, is 
really immeasurable, and this is a day to comment on it 
particularly.
    Chairman Warner. We thank you for those remarks, Mr. 
Secretary. We very much share your sentiments.
    Secretary Wolfowitz. It is great to be surrounded by 
marines.
    I would like to quote two paragraphs from a statement 
Secretary Rumsfeld made yesterday in commenting on those 
spectacular scenes of the toppling of statues of another 
tyrant. The Secretary said: ``The scenes of free Iraqis 
celebrating in the streets, riding American tanks, tearing down 
the statues of Saddam Hussein in the center of Baghdad are 
breathtaking. Watching them, one cannot help but think of the 
fall of the Berlin Wall and the collapse of the Iron Curtain. 
We are seeing history unfold events that will shape the course 
of a country, the fate of a people, and potentially the future 
of a region. ``Saddam Hussein is now taking his rightful place 
alongside Hitler, Stalin, Lenin and Ceaucescu in the pantheon 
of failed, brutal dictators, and the Iraqi people are on their 
way to freedom.''
    The Secretary went on to say: ``The General who led our war 
of liberation, George Washington, once said''--and I am now 
quoting General Washington: `` `My anxious recollection, my 
sympathetic feeling, and my best wishes are irresistibly 
excited whensoever in any country I see an oppressed nation 
unfurl the banners of freedom.' As we watch Iraqis today unfurl 
the banners of freedom, all Americans share in their joy and 
celebrate with them.''
    That quotation from Washington, Mr. Chairman, made me think 
that if someone had asked George Washington on the eve of the 
battle of Yorktown or even after the end of it what his plans 
were for post-King George America, he probably would have been 
guessing in the dark.
    I think it is worth emphasizing that by definition a 
democratic process is not one that can be done according to a 
blueprint. It is not one that can be dictated by outsiders. Our 
goal in Iraq is a democratic Iraq that truly represents the 
wishes of the people of Iraq, with leaders who are chosen, not 
by us or by any outsiders, but by the Iraqi people. That means 
we can set up some parameters for a process, but we cannot 
write a blueprint.
    I think, considering all of that, we have come pretty far 
in laying out some of those key building blocks, and I would 
like to just sketch them for you here this morning. Let me 
start with the responsibilities of the international community, 
including the United States and our coalition partners. To help 
Iraq take its place among peace-seeking nations, the 
international community has a responsibility to ensure that 
that democratic vision becomes a reality. The coalition is 
committed to working with international institutions, including 
most importantly the United Nations. We welcome support from 
U.N. agencies and from nongovernmental organizations in 
providing immediate humanitarian assistance to the Iraqi 
people. The larger role of the U.N. will be determined in 
coordination with the Iraqi people themselves, with other 
members of the coalition, with the Secretary General, and other 
members of the United Nations.
    Based on the lessons of previous conflicts, we have learned 
that postwar reconstruction requires the close coordination of 
military and civilian efforts. Progress toward rebuilding, or 
in this case to some extent building, because there was a lot 
of palaces but not much else that this tyrant built, naturally 
promotes security. But if local business people and foreign 
investors do not feel secure, economic reconstruction will be 
hindered. A secure environment is key to enabling a democratic 
political process to proceed. So establishing security through 
law and order is a fundamental necessity.
    For the first time in decades, the wealth of Iraq will be 
devoted to the welfare of its people, not to palaces or armies 
or instruments of repression. Economic development will require 
the protection of Iraq's natural resources and infrastructure. 
Much has been achieved already by what I would call a brilliant 
military plan, but additional efforts are under way to protect 
Iraq's oil fields in the north and to preserve all of them as a 
national asset and to restore oil production as quickly as 
possible to provide the Iraqi people with their primary source 
of revenue.
    But let me emphasize that decisions regarding the long-term 
development of Iraq's oil resources and its economy will be the 
responsibility of a stable Iraqi government. The United States 
is dedicated to ensuring that Iraq's oil resources will remain 
under Iraqi control, for the use of the Iraqi people. All of 
Iraq's resources belong to Iraq's people.
    One of the greatest responsibilities of the coalition will 
be to help Iraqis create a new government, if I could 
paraphrase Abraham Lincoln, a government of the Iraqi people, 
by the Iraqi people, and for the Iraqi people. Let me say we 
have three elements in achieving that effort.
    As part of it, there is the Office of Reconstruction and 
Humanitarian Assistance (ORHA). The purpose of this office in 
the first phase as coalition forces gain control over all of 
Iraq will be to oversee the delivery of humanitarian assistance 
and initial efforts to resume the provision of essential 
services to the Iraqi people. That office will be the key, for 
example, to meeting basic needs like medical care, water, 
electrical services, and making sure that the Iraqi civil 
servants who administer those programs get paid.
    The ORHA, if I can use an acronym, is not a provisional 
government for Iraq. Let me repeat: It is not a government for 
Iraq. The ORHA is the multinational coalition effort, including 
representatives from a range of U.S. governmental agencies, 
including the Defense Department, the State Department, USAID, 
and advisers from outside the government including some very 
distinguished former government servants.
    Jay Garner, who will head ORHA, will report to General 
Tommy Franks, who will receive his instructions from the 
President through the Secretary of Defense and General Franks. 
As soon as basic services are running once again, their 
administration would be turned over as soon as feasible to the 
Iraqi Interim Authority, which I will describe in just a 
minute. Over time ORHA will assume increasingly an advisory 
role.
    I would like to make one note about Jay Garner, whom I 
first met in a helicopter flying over northern Iraq in July 
1991, the same time I first met General Jones, who was 
commanding a Marine battalion in the north at the time. General 
Garner has many remarkable qualifications for this task, but 
perhaps none as important as the leading role that he played in 
Operation Provide Comfort in 1991 in assisting the people of 
northern Iraq to establish a governing authority in the 
territory under their control. That process enabled coalition 
forces to withdraw completely--I underscore, completely--
without any peacekeepers behind, 6 months after Operation 
Provide Comfort had created a sanctuary in the north for free 
Iraqis. It is in my opinion one of the more remarkable 
achievements of the use of our military to advance a political 
and economic agenda for people.
    Chairman Warner. Mr. Secretary, it would be helpful if you 
would place in the record subsequent to the hearing a very 
detailed biographical sketch of the General, what he has done 
since he left active duty until he was asked to come onto this 
role. A number of us tried to reach him before he departed and 
we were not able to do so. My colleague and I reviewed the 
possibility of going over there to see him, but at this point 
in time it just was not convenient for either my colleague or 
myself and other members of this committee or the General.
    Secretary Wolfowitz. We will provide that for the record, 
Mr. Chairman.
    [The information referred to follows:]

    Lieutenant General (Retired) Jay M. Garner assumed the duties as 
the President of SY Technology, Inc. on September 1, 1997. His last 
assignment was with the United States Army where he served as the 
Assistant Vice Chief of Staff of the Army (AVCSA).
    Jay Garner was born in Arcadia, Florida on April 15, 1938. He 
graduated from Florida State University with a Bachelor's Degree in 
History. He obtained a Masters Degree in Public Administration from 
Shippensburg University in Pennsylvania. His military service began 
with the Florida Army National Guard. He continued his service to this 
Nation as an enlisted marine and in 1962 was commissioned a Second 
Lieutenant in the United States Army.
    General Garner served as Commanding General of the U.S. Army Space 
and Strategic Defense Command (USASSDC), headquartered in Arlington, 
Virginia. He also served as the Assistant Deputy Chief of Staff for 
Force Development, Office of the Deputy Chief of Staff for Operations 
and Plans, Washington, DC; Deputy Commanding General, V Corps Frankfurt 
Germany; Commanding General, Joint Task Force Bravo-Operation Provide 
Comfort Northern Iraq; and Deputy Commanding General, U.S. Army Air 
Defense School. He commanded at Brigade and Battalion level in VII 
Corps in Europe. He served two tours in Vietnam, 1967-1968, 1971-1972.
    His awards include the Distinguished Service Medal with oak leaf 
cluster, the Defense Superior Service Medal with oak leaf cluster, the 
Legion of Merit with five oak leaf clusters, the Bronze Star Medal, the 
Meritorious Service Medal with oak leaf cluster, the Air Medal, the 
Joint Services Commendation Medal, the Army Commendation Medal, the 
Combat Infantryman Badge, the Parachutist Badge, and the Army General 
Staff Identification Badge.
    He has served as a member of the Army Science Board in 1998-1999 
and was appointed by Congress as a member of the Commission to Assess 
United States National Security Space Management and Organization in 
2000-2001. He is currently serving on the USSTRATCOM Strategic Advisory 
Board.
    Following the acquisition of Coleman Research Corporation by L-3 
Communications, also the parent company of SY Technology, Garner 
assumed the presidency of Coleman Research Corporation on May 1, 2002. 
SY Technology and Coleman Research Corporation are in the process of 
merging under Garner's leadership.
    Jay and his wife, the former Connie Kreigh, have one daughter, Lori 
Gibson, and two granddaughters, Courtney and Brittany.

    Secretary Wolfowitz. The second element of a post-Saddam 
Iraq will be something to be called the Iraqi Interim 
Authority. That authority should assume increasingly greater 
responsibility over time for the administration of Iraq. The 
Iraqi Interim Authority will draw from all of Iraq's religious 
and ethnic groups, to include both Iraqis from currently 
outside the country and those inside. It will provide a way for 
Iraqis to begin immediately to direct the political and 
economic reconstruction of their country.
    The authority would include not only members of the free 
Iraqi groups that fought Saddam's tyranny and the independents 
among the expatriate community, but will also draw from local 
leaders who have already begun to participate with the 
coalition in the liberation of Iraq. As people throughout the 
country become free to express their views--and it is 
happening, obviously, at a spectacular pace--more and more 
people will emerge from within Iraq who can become a part of 
that leadership.
    The Interim Authority's most important responsibility will 
be to set in motion a process leading to the creation of a new 
Iraqi government, for example, by setting up local elections or 
drafting a new constitution. This is a process that foreigners 
cannot direct. It must be a process owned by Iraqis. Our task 
is to create the conditions, including the security conditions, 
in which Iraqis can formulate a process and pick their leaders 
freely. An Interim Authority would be a bridge from the initial 
administration of basic services by the coalition to an 
eventual government that represents the Iraqi people.
    In the final phase, an Iraqi government would assume 
sovereignty on the basis of elections in accordance with a new 
constitution. Our intention is to leave Iraq in the hands of 
Iraqis themselves as soon as we can. As President Bush has 
said, ``The United States intends to stay in Iraq as long as 
necessary, but not 1 day more.''
    That the people of Iraq want a voice in their own 
government there can be no doubt. The Ayatollah Ali Sistani, 
who was under house arrest since 1988, is now free from 
Saddam's tyranny, recently issued what is perhaps history's 
first pro-American fatwa. He advised believers ``not to hinder 
the forces of liberation and help bring this war against the 
tyrant to a successful end for the Iraqi people.'' Sistani, 
referring to recent events, was reported to have quoted the 
Prophet Mohammed, saying, ``There is good in what happens,'' 
and added himself: ``Our people need freedom even more than 
air. Iraq has suffered and it deserves better government.''
    Mr. Chairman, this administration, as well as our whole 
country, is committed to helping Iraqis achieve that better 
government, a government that represents all ethnic and 
religious groups. We look forward to working with you and 
Members of Congress to meet both the challenges that face the 
trans-Atlantic community and the people of Iraq.
    Thank you.
    [The prepared statement of Secretary Wolfowitz follows:]

               Prepared Statement by Hon. Paul Wolfowitz

    Mr. Chairman and members of the committee: America has long enjoyed 
the strong leadership and bipartisan support of this committee. Your 
example consistently demonstrates that America's security concerns 
transcend party or politics. On behalf of the men and women who serve 
our country so faithfully and so well, we are indeed grateful for your 
support. I appreciate the opportunity to discuss with you today the 
Defense Department's perspective on the future of both NATO and Iraq.
    During this war to defend freedom, it is fitting that we take stock 
of an alliance that has been integral to the preservation of peace and 
the promotion and protection of democracy. I would add a word here 
about brave Americans and their coalition partners who, this very 
moment, are doing their part to protect freedom; they are fighting a 
very fierce fight against a vicious regime to free us from an enormous 
threat. From Baghdad and Kabul to the Persian Gulf and the 
Mediterranean, whether on the ground, in the air, or on the sea, they 
are performing their missions with incredible courage and skill, and we 
are enormously proud of them. Our thoughts and prayers are with the 
families of those who are missing, have been taken prisoner or have 
made the ultimate sacrifice to protect the freedoms that we treasure as 
Americans.

                        NEW SECURITY ENVIRONMENT

    In the summer of 1990, I was privileged to attend NATO's first 
post-Cold War Summit, which was hosted by then-Prime Minister Margaret 
Thatcher. That was a time when many people questioned the relevance of 
NATO since the Berlin Wall had been torn down. In opening that historic 
conference in London, the British Prime Minister, in a tone suggesting 
she was quite conscious of the irony, began with an observation that 
Europe was standing at the dawn of a new era, as promising in its own 
way as 1919 and 1945. Clearly, Mrs. Thatcher's reference to earlier 
post-war eras was intended not only to underscore the promise of the 
moment, but also to underscore the uncertainty of the future and the 
danger of believing that--simply because a particular threat that had 
loomed so large for so long was gone--every other conceivable threat 
had disappeared, too.
    NATO's doubters existed on both sides of the Atlantic. In President 
George H.W. Bush's first press conference after the Wall came down, he 
was asked, what need was there for NATO now that the threat had 
disappeared? Many people at the time discounted President Bush's answer 
that a threat did remain, and that threat was ``uncertainty.''
    The intervening years have demonstrated both the promise and the 
dangers of the post-Cold War era and the continuing relevance of NATO 
to realize the one and avoid the other--as well as the wisdom of Prime 
Minister Thatcher's and former-President Bush's assessments about 
continuing threats to our security. Indeed, barely a month after the 
London NATO summit, Iraq attacked Kuwait, and we found ourselves facing 
the first major conflict of the new post-Cold War era. During the 
1990s, NATO not only welcomed three new members, but became the 
instrument of ending ethnic aggression and genocide in the Balkans and 
leading that troubled region closer to a just and lasting peace--an 
important effort that has enjoyed bipartisan support here at home.
    Now, at the beginning of the 21st century, NATO continues to be the 
central instrument for solidifying peace in Europe and drawing nations 
on both sides of the Atlantic closer together. In response to the 
extraordinary new threat posed by international terrorism, NATO can 
certainly claim its own historic contributions--such as its invocation 
of Article V to defend the United States after September 11, the 
commitment of NATO AWACS to defend America's skies, as well as its 
recent support for Germany and The Netherlands in their leadership of 
the International Security Assistance Force in Afghanistan. In the 
latter case especially, we see a mission that brings NATO's support 
well outside its traditional geographic domain.
    Despite those initial doubts about NATO's relevance, in fact, an 
impressive consensus has developed in this country about the importance 
of America's commitment to Europe. Arguably there has been less 
disagreement about the importance of NATO during this past decade than 
during the entire period of the Cold War. This strong bipartisan 
support among Americans for an alliance that has been the foundation of 
stability in Europe for over half a century is testimony to the 
strength of what is perhaps the most successful alliance in history. 
That NATO has endured and grown in membership and missions is also a 
reflection of the ability to adapt and adjust to a new security 
environment in which the confluence of terrorist networks and states 
that sponsor terrorism with weapons of mass destruction poses today's 
most lethal and urgent threat. President Bush gave voice to this fact 
in Berlin when he said plainly, ``Those who despise human freedom will 
attack it on every continent.'' NATO recognizes this fact today. NATO 
has shown that an alliance based on the same core values has more 
staying power than any previous alliance built purely on a narrow 
coincidence of interests. I am confident that will be the case for the 
next 50 years.

                      NATO'S FUNDAMENTAL CONSTANTS

    For more than half a century, a dedication to protecting freedom 
and democracy, human rights and the rule of law has bound NATO 
together. For that reason, NATO is and will remain the anchor of the 
U.S. security relationship with Europe.
    Indeed, as we have waged the global war against terrorism, we have 
been reaping the benefits of more than 50 years of joint planning, 
training and operations in the NATO framework. That will continue. NATO 
is and will remain the central framework, not only for transatlantic 
military cooperation, but also for the West's mobilization of its 
comprehensive collective power to defend its interests.
    Through NATO, the West combines the strengths of its military, 
intelligence, economic, political and cultural assets. Of course, 
Europe remains essential to the forward presence of U.S. military 
forces. But beyond its purely military role, one of NATO's most 
important effects--one that Americans and Europeans may sometimes take 
for granted--is the critical role that this alliance has played in 
bringing peace to a continent that has had such a troubled past. That 
Europe's future looks so peaceful and promising is due in no small part 
to the stability that NATO has brought to European security.

                            NATO ENLARGEMENT

    It is with these constants in mind that President Bush has 
forcefully advocated a round of NATO enlargement, one that stretches 
from the Baltic to the Black Sea. Indeed, after the end of the Cold 
War, NATO has served as a beacon for democracies emerging in Central 
and Eastern Europe--inspiring them to move forward with confidence to 
build free institutions and representative self-government. 
Contradicting the gloomy predictions heard at the time, the last round 
of NATO enlargement in which Poland, Hungary and the Czech Republic 
entered the alliance's ranks did not dilute NATO's effectiveness. 
Instead, these new members have been active force contributors to NATO 
operations such as KFOR and SFOR, as well as in the war against 
terrorism.
    In fact, in a move that took some political courage, Hungary 
volunteered to host a training camp for free Iraqi forces--who are now 
on the ground in Iraq. Poland has joined with the United States to form 
a Defense Transformation Group and is one of four coalition partners 
with troops on the ground in Iraq. The Czechs have deployed a chemical/
biological weapons defense unit into Kuwait. All three nations have 
consistently stood with the United States at the North Atlantic 
Council--in important issues such as missile defense, NATO's role and 
contribution to ISAF, and, most recently, Article 4 support to Turkey.
    Indeed the last round of NATO enlargement did not, as some 
naysayers feared, build a new wall down the middle of Europe. Instead, 
NATO enlargement has built bridges across the continent, providing 
incentives for countries to reform their political systems, strengthen 
their relationships with their neighbors and bring their military 
forces under civilian control. Ukraine, for example, has been an active 
participant in the Partnership for Peace and welcomed Poland's 
accession as an enhancement to its own security. Ukraine has publicly 
asserted its own desire to join NATO.
    An historically significant political development of this past 
decade is the bridge that has been extended to Russia--encouraging a 
democratic Russia to have a closer relationship with NATO. NATO 
enlargement, instead of isolating Russia, has been the catalyst for the 
joint NATO-Russia Council, which stood up last May. Also, Russia has 
been a partner in the global war against terrorism. Relations between 
Poland and Russia have markedly improved since Poland's entry into 
NATO, rolling back literally centuries of suspicion. For Russia to 
completely cross the bridge that NATO is building, a long journey 
remains. But, the journey has, nevertheless, begun.
    The enlargement of NATO continues the vision of a Europe that is 
secure, undivided and free, and work is underway to enlarge the 
alliance further. My colleague at the State Department, Under Secretary 
Marc Grossman, noted in his testimony here a couple weeks ago that the 
addition of these seven countries is about the future of NATO. I 
couldn't agree more. The recent signing of the accession protocols for 
the NATO aspirants--Bulgaria, Estonia, Latvia, Lithuania, Romania, 
Slovakia, and Slovenia--was another step in achieving the vision of a 
Europe whole and free. These seven countries have already been de facto 
allies--participating in NATO's Balkan missions, in Operation Enduring 
Freedom and the Kabul peacekeeping force. Several have deployed troops 
to the Iraq theater.
    As we look to the future of NATO, we might see its further 
enlargement in terms of two imperatives: moral and strategic. The moral 
imperative calls us to help new democracies, formerly subjected to the 
yoke of tyranny, consolidate and secure their own freedom and 
sovereignty. The strategic imperatives suggest that a united Europe of 
common values will help avoid the major wars as experienced in the 20th 
century. A united Europe will be a better partner to the United States 
in dealing with world affairs. A united Europe will provide a context 
of security that will encourage reform in Ukraine and Russia. A Europe 
so united is revitalized by nations who've recently thrown off the yoke 
of authoritarianism by their fresh commitment to freedom and democracy 
through NATO's responsibilities. Further enlargement of NATO remains 
based on sound reform of any aspiring nation--including military 
reforms of national strategy, secure communications systems, upgrading 
airfields and ports to NATO standards, improved training, logistical 
support, personnel, and military spending at a minimum level of 2 
percent of gross domestic product.

                PRAGUE SUMMIT'S TRANSFORMATIONAL AGENDA

    NATO's future rests not only on enlargement, but also on its 
ability to take military action quickly and efficiently. One of NATO's 
biggest challenges is to address gaps in military capabilities. During 
last November's Prague summit, NATO's leaders made important and far-
reaching decisions to continue alliance efforts to adjust to the 
changes in Europe's strategic landscape and the global security 
environment. The Prague summit not only extended membership to seven 
Central European democracies, but also featured a new focused 
capabilities initiative and a streamlined command structure.

NATO Response Force
    Also out of the Prague summit came a decision to establish a NATO 
Response Force (NRF), which promises to provide the alliance the 
ability to quickly deploy a force that is capable of executing the full 
range of missions NATO may be called upon to carry out. If the NRF is 
implemented according to the standards that the U.S. has proposed, the 
NRF will be lethal, technically superior to any envisioned threat, and 
readily deployable on short notice. The goal for initial operational 
capability for training is October 2004, with full operational 
capability proposed by October 2006. The NRF, we expect, will become 
the focal point of NATO transformation efforts to meet new threats 
facing the alliance.

Prague Capabilities Commitment
    In Prague, the heads of state and government also approved the 
Prague Capabilities Commitment, in which the allies promised to address 
long-standing shortfalls in areas such as communications, strategic 
lift, nuclear, biological and chemical defense equipment, and 
precision-guided munitions. In short, the European allies agreed to 
pool their resources, spend smarter, and pursue specialization. Allied 
contributions to NRF rotations must possess the critical capabilities 
targeted by the Prague Capabilities Commitment if the NRF is to evolve 
beyond a concept.

Streamlined Command Structure
    In Prague, the heads of state and government also approved the 
broad outline of a streamlined NATO command structure, which will 
reduce operational commands from 23 to 16 commands to ensure a more 
efficient use of financial and manpower resources. It will also provide 
NATO commanders with more mobile, joint and interoperable 
headquarters--critical to 21st century military operations. The 
establishment of a new functional command, Allied Command 
Transformation in Norfolk, Virginia, will provide a new vehicle to 
drive military transformation across the alliance.

Recent Division in NATO
    France's recent efforts to block steps to enhance Turkey's security 
against attack from Iraq was regrettable and, in fact, blocked 
initiatives important to the greater alliance. It did raise the issue 
about NATO's decisionmaking process and its ability to honor its 
obligation to member countries. I would add that the Statement of the 
Vilnius 10 and the letter of eight European leaders expressed support 
for the U.S. with regard to Iraq. Clearly, the majority of NATO's 
members value the alliances and security that NATO provides. If the 
goal of the leadership of France--or any other member--is to weaken 
NATO, the rest of the alliance needs to resist attempts at hobbling or 
dissolving an organization that has done so much for the peace of 
Europe and the world.

Turkey
    I would like to say a few words about Turkey, a staunch NATO ally 
through 40 years of Cold War, a stabilizing force in Central and 
Eastern Europe, and supporter of peacekeeping efforts in Bosnia, Kosovo 
and Afghanistan. Turkey is the country in the Muslim world with the 
longest experience of democracy. It is a model that we hope other 
countries can emulate, and we have a great stake in Turkey's future.
    There is no question that we were disappointed by the failure of 
the Turkish Parliament to achieve the absolute majority required to 
approve the transit of Turkey by American ground troops (although a 
majority of members voting were in favor). We believe that decision ran 
counter, not only to our interests, but to the interests of Turkey as 
well. In the wake of Secretary Powell's recent trip to Turkey, there 
are indications that Turkey wants to work with us to restore and 
reinforce the strategic partnership. We will continue to find ways to 
work with Turkey during this conflict, recognizing its serious concerns 
about the territorial integrity of Iraq. We expect Turkey will be an 
important partner in the future as a majority Muslim country and the 
only democratic neighbor of the new democracy that we hope will emerge 
in Iraq.

                           IRAQ: POST SADDAM

U.S. Coalition Objectives
    In a press conference earlier this week, Secretary Rumsfeld assured 
the Iraqi people that life without Saddam is no longer a distant 
dream--it will soon be their reality. He said, we are going to great 
lengths to prepare a smooth transition from Saddam's tyranny to a new 
Iraqi government, a government chosen by Iraqis themselves.
    Consistent with the goal to leave Iraq in the hands of Iraqis as 
soon as possible, we will work to achieve the following objectives:

        <bullet> The United States continues working to liberate Iraq 
        and its people--we have no desire to occupy Iraq or control its 
        economic resources;
        <bullet> We will help Iraqis build an Iraq that is whole, free, 
        and at peace with itself and its neighbors;
        <bullet> We will help destroy the structures that maintained 
        Saddam's tyranny and eliminate the Baathist influence from 
        Iraq's government, military and security services;
        <bullet> We will help eliminate Iraq's chemical and biological 
        weapons and its nuclear weapons programs. This is a complex, 
        but necessary, task, one that will require a military presence 
        into the post-conflict period;
        <bullet> We will help Iraqis eliminate Iraq's terrorist 
        infrastructure--its training camps and support for terror; and
        <bullet> We will help make it possible for the Iraqi people to 
        begin to rebuild Iraq's economic and political systems so that 
        Iraq will become prosperous and free.

    Many specific ways of achieving these goals are being worked out 
now. But many can only be fully developed once Saddam's regime has been 
removed, and we can freely assess the state of Iraq's natural resources 
and infrastructure.
    We envision a free Iraq in which some 24 million Iraqis have a 
means of determining their own destiny in a system based on the rule of 
law and individual liberty. We are committed to working with Iraqis to 
achieve our vision of an Iraq that seeks to live peacefully with its 
neighbors, and no longer poses a danger to the world at large with 
weapons of mass destruction and through support or sympathy for 
terrorists. We will work with those who fought against Saddam's tyranny 
from northern Iraq and abroad and those who suffered under this tyranny 
in Iraq. Such an Iraq would be a friend to the United States and to the 
international community of nations.

            RESPONSIBILITIES OF THE INTERNATIONAL COMMUNITY

International support
    To help Iraq take its place among peace-seeking nations, the 
international community has a responsibility to ensure this vision 
becomes reality. The coalition is committed to working with 
international institutions, including the United Nations. We welcome 
support from U.N. specialized agencies and non-governmental 
organizations in providing immediate assistance to the Iraqi people. 
The precise role of the U.N. will be determined through coordination 
with the Iraqi people themselves, coalition members and U.N. officials.
    Based on the lessons of previous conflicts, we have learned that 
post-war reconstruction requires a close coordination of military and 
civilian efforts. Progress toward rebuilding naturally promotes 
security. But, if local business people and foreign investors do not 
feel secure, economic reconstruction will be hindered. A secure 
environment is key to enabling a democratic political process to 
proceed. So, establishing security through law and order is a 
fundamental necessity.
    For the first time in decades, the wealth of Iraq will be devoted 
to the welfare of its people, not to palaces and armies and instruments 
of repression. Economic development will require the protection of 
Iraq's natural resources and infrastructure. Much has been achieved 
already but additional efforts are underway to protect Iraq's oil 
fields and preserve them as a national asset, and to restore oil 
production as quickly as possible to provide the Iraqi people with 
their primary source of revenue. While the coalition will be involved 
at the outset, the goal is to have production and marketing 
responsibility in the hands of a stable Iraqi authority as soon as 
possible. Iraqis themselves and Iraqi organizations will be involved 
from the beginning. Decisions regarding the long-term development of 
Iraq's oil resources and its economy will be the responsibility of a 
stable Iraqi government. The United States is dedicated to ensuring 
that Iraq's oil resources remain under Iraqi control. All of Iraq's oil 
belongs to all of Iraq's people.

                      BUILDING AN IRAQI GOVERNMENT

    One of the greatest responsibilities of the coalition will be to 
help Iraqis create a new government, to paraphrase Abraham Lincoln, of 
the Iraqi people, by the Iraqi people and for the Iraqi people. The 
coalition countries and the international community as a whole will 
have a role to play, but that role is to enable the Iraqi people to 
take control of their own destiny as soon as possible. Establishing a 
permanent government for Iraq would basically involve three phases, the 
first two of which will very likely overlap.
Office of Reconstruction and Humanitarian Assistance
    In the first phase, as coalition forces gain control over Iraq, the 
Office of Reconstruction and Humanitarian Assistance will oversee the 
delivery of humanitarian assistance and the initial efforts to resume 
the provision of services to the Iraqi people. It will be key, for 
example, to meeting basic needs like medical care, water, electrical 
services, and making sure Iraqi civil servants who administer those 
programs get paid. The ORHA is not a provisional government for Iraq. 
The ORHA is a multi-national, coalition effort, including 
representatives from a range of U.S. Government agencies, including the 
Defense Department, the State Department, the Justice Department, USAID 
and advisors outside the government. Jay Garner, who will head the 
ORHA, will report to CENTCOM Commander, General Tommy Franks; he will 
receive his instructions from the President through the Secretary of 
Defense and General Franks. As soon as basic services are running once 
again, their administration would be turned over as soon as feasible to 
the Iraqi Interim Authority. Over time, ORHA will fulfill more of an 
advisory role. Among Jay Garner's many remarkable qualifications for 
this task is the leading role he played in 1991 in assisting the people 
of northern Iraq to establish a governing authority in the territory 
under their control. That process enabled the complete withdrawal of 
coalition forces just 6 months after Operation Provide Comfort created 
a sanctuary in Northern Iraq free of Saddam Hussein's control.
Iraqi Interim Authority
    The second element of a post-Saddam Iraq will be an Iraqi Interim 
Authority (IIA), which will assume increasingly greater responsibility 
for the administration of Iraq. The IIA will draw from all of Iraq's 
religious and ethnic groups--to include Iraqis currently inside and 
outside Iraq--and will provide a way for Iraqis to begin immediately to 
direct the economic and political reconstruction of their country. The 
authority would include not only the members of the free Iraqi groups 
that have fought Saddam's tyranny and the independents among the 
expatriate community, but will also draw from local leaders who have 
already begun to participate with the coalition in the liberation of 
Iraq. As people throughout the country become free to express their 
views, more and more people will emerge from within Iraq who can be a 
part of this leadership.
    Over time, the IIA would take control of an increasing number of 
administrative functions. But the Interim Authority's most important 
responsibility will be to set in motion the process leading to the 
creation of a new Iraqi government, for example, by setting up local 
elections and drafting a new constitution. This is a process that 
foreigners cannot direct; it must be a process owned by Iraqis. Our 
task is to create the conditions, including the security conditions, in 
which they can formulate a process and then pick their leaders freely. 
An Interim Authority would be a bridge from the initial administration 
of basic services to an eventual government that represents the Iraqi 
people.

Iraqi government
    In the final phase, an Iraqi government would assume sovereignty on 
the basis of elections in accordance with a new constitution. Our 
intention is to leave Iraq in the hands of Iraqis themselves as soon as 
we can. As President Bush has said, the United States intends to stay 
in Iraq as long as necessary, but not a day more.
    That the people of Iraq want a voice in their own government, let 
there be no doubt. The Ayatollah Ali Sistani, under house arrest since 
1988, and now freed from Saddam's tyranny, recently issued what may be 
history's first pro-U.S. fatwa. He advised believers ``not to hinder 
the forces of liberation, and help bring this war against the tyrant to 
a successful end for the Iraqi people.'' Sistani, referring to recent 
events, was reported to have quoted the prophet Muhammed, saying: 
``There is good in what happens,'' adding further: ``Our people need 
freedom more than air [to breathe]. Iraq has suffered, and it deserves 
better government.''
    This administration is committed to helping Iraqis achieve that 
better government, a government that represents all ethnic and 
religious groups. To achieve this, the U.S. looks forward to working 
with the Iraqis themselves and international community.
    Whether we're talking about the future of NATO or the future of 
Iraq, it is clear that the security of the United States and free 
peoples around the globe rests on collective cooperation. We look 
forward to doing our part to work with the Members of Congress to meet 
the challenges that face the trans-Atlantic community and the people of 
Iraq. Thank you.

    Chairman Warner. Thank you very much, Mr. Secretary.
    General Pace.

STATEMENT OF GEN. PETER PACE, USMC, VICE CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Pace. Mr. Chairman, thank you. Sir, in the interest 
of saving as much time as possible for your questions, in 
addition to my written testimony I would simply like to offer a 
very sincere ``thank you'' to you and all the members of this 
committee from all of us in uniform for the strong, sustained, 
and bipartisan support that has enabled us to recruit, train, 
and equip the magnificent young men and women who are doing our 
country's missions right now in Afghanistan and Iraq. This 
committee and the Senate has had enormous sway and influence on 
the quality of that force, sir, and we thank you.
    [The prepared statement of General Pace follows:]

              Prepared Statement by Gen. Peter Pace, USMC

    Mr. Chairman, members of the committee: Thank you for the 
opportunity to meet with you here today to discuss the U.S. military's 
role in NATO enlargement and post-war Iraq. I'd like to first thank you 
for the continued bipartisan support that you give to the men and women 
of our Armed Forces. That support is appreciated, and it is critical to 
our operational success.
    NATO continues to prove its relevance today while members and 
aspirants alike transform to be relevant in the future. Recently, the 
alliance provided support for Turkey and sent the correct message to 
Iraq--NATO will defend its members. NATO also continues to support the 
war on terrorism. The alliance is conducting counter-terror operations 
in the Mediterranean, escorting unarmed ships through the Strait of 
Gibraltar, conducting maritime intercept operations off the Horn of 
Africa, and relieving the United States in a number of areas with 
critical support. NATO's military capabilities will be enhanced with 
the addition of the seven invited countries.

                              NEW MEMBERS

    At the Prague summit, NATO invited Bulgaria, Estonia, Latvia, 
Lithuania, Romania, Slovakia, and Slovenia to join the alliance because 
each of these nations has demonstrated the ability to make a 
contribution to the alliance. They have made a firm commitment to the 
basic principles and values set out in the North Atlantic Treaty, and 
to the stability and security of the North Atlantic area. The accession 
of each of these nations will enhance NATO's military effectiveness.
    Already these nations exhibit ``member-like'' behavior and 
demonstrate their readiness to accept the responsibility of membership. 
Each is providing military forces to operations in the Balkans. All 
seven are providing forces, capabilities, or assets in support of the 
ongoing operations in Afghanistan and to the U.S.-led coalition in 
Iraq. For example, Bulgaria provides basing for U.S. aircraft in 
support of operations in Afghanistan and Iraq and has a nuclear, 
biological, and chemical (NBC) detection unit deployed as part of the 
coalition forces in Iraq. Estonia deployed an explosive, ordnance, and 
disposal team to Afghanistan in support of the International Security 
Assistance Force (ISAF). Two Latvian medical teams have deployed to 
Afghanistan to support ISAF. A Lithuanian Special Operations Force unit 
is deployed in Afghanistan to support Operation Enduring Freedom and a 
medical team is deployed with ISAF. Romania deployed--and transported 
with its own airlift--an infantry battalion and a military police 
platoon to Afghanistan. It also deployed an NBC unit to Iraq, and is 
providing basing for U.S. forces in support of both operations. 
Slovakia deployed an engineer unit to Kabul and an NBC unit to support 
the war in Iraq. Slovenia donated three battalions worth of arms and 
ammunition to the Afghan National Army Training Project. By their 
military contributions to these ongoing operations, each of these 
nations has demonstrated an immediate relevance and a capacity to bring 
special capabilities that are in great demand. Yet these nations 
contribute more than just forces and capabilities; they also provide 
access to critical infrastructure that is of great military value to 
the alliance and the United States.
    While they continue to develop special capabilities, they also 
continue to restructure and to modernize their armed forces. 
Participation in the Membership Action Plan (MAP) and in NATO's 
Partnership for Peace (PfP) programs over the years has enabled these 
countries to make significant strides in reforming their armed forces, 
making them more capable, more deployable, and more interoperable. The 
reforms underway are significant and will take several years to 
complete.
    The 1999 round of NATO enlargement, which resulted in the accession 
of the Czech Republic, Hungary, and Poland, taught us many lessons. 
First, we learned that a larger alliance is still able to achieve 
consensus on issues of critical importance to its members. Second, new 
members bring energy, enthusiasm and a strong desire to demonstrate 
their willingness to share the responsibilities of membership. Third, 
we have learned that new members are eager to share with invitees and 
aspirants their own experiences in defense reform and in preparing 
their militaries to join NATO. Finally, we were reminded that real 
defense reform and development of a truly professional force is a long-
term process.

                            NEW CAPABILITIES

    As it grows larger in membership, NATO must also grow militarily 
more relevant to 21st century threats. The alliance has begun to make 
significant progress under the banner of ``New Capabilities.'' At the 
Prague summit, Heads of State and Government made a commitment to a new 
concept for the alliance, to create a NATO Response Force that is 
rapidly deployable and capable of expeditionary operations. They also 
agreed to streamline an inefficient and unnecessarily large command 
structure, and to make real improvements in the military capabilities 
of member nations through what is called the Prague Capabilities 
Commitment.
    The current NATO command structure has 31 headquarters or other 
entities distributed on both sides of the Atlantic Ocean. In its 
current form, the command structure is inefficient, regionally focused, 
and not suited for today's challenges. In June, however, we expect 
allied defense ministers to approve a much improved command structure.
    The new NATO command structure will be considerably leaner, having 
shed 14 headquarters. This will enable the alliance to realize 
personnel savings and to fully man the headquarters that remain.
    Important portions of the new command structure will be deployable 
and built for joint operations--another significant change for NATO. 
The alliance has the opportunity to break out of its Cold War structure 
and create a capability to conduct operations wherever and whenever 
needed.
    The proposed Allied Command for Transformation based in Norfolk, 
Virginia will be responsible for the training of NATO staffs and 
deployable headquarters, for common military education, doctrine, and 
force planning for the alliance, and for documenting lessons learned 
from operations.
    The NATO Response Force is well on its way to becoming a reality. 
It will be a truly joint combined force that can execute the range of 
alliance missions from humanitarian assistance to combat operations. It 
will be a rotational force that consists of land, air, and maritime 
forces that have trained and exercised together.
    This initiative will not only give NATO a credible and rapidly 
responsive force, it will serve as a vehicle for alliance 
transformation. Nations will be responsible for ensuring that the 
elements they contribute to each rotation of the NATO Response Force 
have been the focus of their capabilities improvement efforts and 
resources. Over time, the number of these more capable and experienced 
units will increase, leading to an overall improvement in alliance 
military capabilities. This force is scheduled to have an initial 
operational capability by October 2004, and to achieve full operational 
capability by October 2006.
    The Prague Capabilities Commitment (PCC) rounds out the ``new 
capabilities'' initiative by seeking specific, short-term, focused 
military procurement by Allies. Heads of State and Government agreed on 
these capabilities as essential to fielding a force that will prevail 
in modern combat or stability operations. Nations committed to specific 
measures and timelines to fix capability shortfalls in four priority 
areas: transporting and sustaining allied forces; connecting allied 
forces; fielding more modern combat elements; and nuclear, biological, 
and chemical (NBC) and missile defense. All agreed to implement all 
aspects of the PCC as quickly as possible. For the PCC to succeed, 
allies will have to make the financial commitment to obtain required 
military capabilities.
    The military changes NATO has undergone since 1991 have been 
substantial, but the changes in 2003 and 2004 will be more significant 
and executed in a much shorter period of time. The alliance is making 
the effort to become more relevant to the new security environment. 
NATO continues to serve as an important part of U.S. military strategy 
to protect and defend our trans-Atlantic interests.

                             POST-WAR IRAQ

    Although difficult tasks remain, the coalition's continued military 
success demonstrates that the liberation of Iraq is at hand. My focus 
today is on what we envision the military's responsibilities to be in 
post-war Iraq.
    Our primary military tasks in post-war Iraq are security and 
stabilization. The establishment of a secure environment will enable 
the provision of humanitarian assistance, preservation and repair of 
key infrastructure, elimination of WMD, and restoration of civil 
services and representative government.
    Essential post-war stabilization tasks cover a broad range of 
issues, touching on virtually every sector of the Iraqi economy and 
system of governance. Since we do not know at this moment the exact 
condition of the country after the termination of hostilities, we do 
not know exactly what military forces will be required, nor for how 
long they will be required. However, we are planning across the range 
of conditions, whether the country stabilizes quickly and the security 
environment is relatively benign, or in the worst case, where the 
situation is more chaotic and there are more tasks requiring the use of 
coalition forces.
    As a secure environment is established, we will assist in the 
process of rapid transition to Iraqi control. The Office of 
Reconstruction and Humanitarian Assistance (ORHA), under the command of 
General Franks, the Commander of U.S. Central Command, includes staff 
from all relevant U.S. departments and agencies. The ORHA has already 
moved to Kuwait, and is working in close partnership with international 
institutions, including the U.N. and our coalition partners. It will 
deploy to Iraq as soon as possible to coordinate the post-war effort.
    The coalition military forces have demonstrated speed, flexibility, 
and precision throughout this war. They stand ready to provide a secure 
and stable environment for post-conflict activities, allowing the 
people of Iraq the opportunity to make their own decisions regarding 
their future. Thank you.

    Chairman Warner. We thank you, General, for the leadership 
that General Myers, yourself, other members of the Joint Staff, 
and right on down to General Franks' Central Command and his 
staff for their extraordinary planning and execution of what 
appears to be an operation that will succeed in the goals as 
laid down by the President, the Prime Minister of Great 
Britain, and other coalition partners. Thank you, sir.
    General Jones.

    STATEMENT OF GEN. JAMES L. JONES, USMC, SUPREME ALLIED 
COMMANDER, EUROPE AND COMMANDER, UNITED STATES EUROPEAN COMMAND

    General Jones. Thank you, Mr. Chairman. It is a great honor 
and a pleasure to be here at this witness table with the Deputy 
Secretary and my lifelong friend in the United States Marine 
Corps, now the Vice Chairman, General Peter Pace.
    Chairman Warner. It is a remarkable coincidence that both 
positions are filled by Marines. But being a former Marine, I 
take due note of that.
    Senator Roberts. I think it is divine intervention, Mr. 
Chairman.
    Senator Inhofe. I would observe that I am flanked by two 
Marines, too.
    Chairman Warner. General Jones.
    General Jones. Thank you, sir.
    Mr. Chairman, as you pointed out, I have the privilege of 
wearing two unique but complementary hats, first, as the Allied 
Commander in Europe and, second, as the Commander of U.S. 
Forces in Europe. I would like to just make a few comments 
about each one of those.
    It seems to me that the most recent gathering of our 
world's leaders to discuss NATO at Prague revealed a solid 
political support for the viability of this most important 
organization, indeed a very unique organization, on the face of 
the planet today. This political support was expressed by 
having the members unanimously agree to expand by 7 new 
nations, growing from 19 to 26 countries.
    It also signaled a political support for the vitality and 
the contribution that NATO can make in the 21st century, 
although while recognizing the tremendous record of achievement 
that it made in the 20th century. NATO is going from being a 
defensive alliance arrayed against a very clearly defined 
enemy, an enemy that is becoming a friend and has become a 
friend, to a more focused alliance hinged on the military 
capability of engagement both in a regional context and, to 
witness the current discussions going on in Brussels, perhaps 
even in a global context, ranging from the Balkans all the way 
to Afghanistan.
    From a military perspective, it is an alliance that is in 
transition as it changes from being defensive in nature to 
adopting a more flexible, more useful, more capable, and, yes, 
more credible and more efficient force. The instrument of that 
military transformation in NATO in my judgment is called the 
NATO Response Force. The NATO Response Force in its full 
potential is generating a lot of excitement in not only the 
military circles in Europe, but also the political leadership 
circles. I believe that it is quite possible that within a very 
short period of time that the NATO Response Force will become a 
transformational capability that will finally take the Cold War 
force that NATO is and has been, composed of 2.3 million people 
under arms with a vast array of legacy systems that are in dire 
need of transformation and modernization, to become a more 
capable force that will be more useful to respond to the array 
of asymmetric threats that not only face the United States, but 
face all freedom-loving people who comprise the alliance.
    I should also signal, although he is not represented here 
at the table, the role of Admiral Giambastiani as the impending 
Commander of Allied Command for Transformation, which is the 
new title replacing the Supreme Allied Commander Atlantic 
(SACLANT). As the operational commander, I will shortly assume 
the responsibility for the SACLANT's previous operational 
commitments. In his role as the Allied Commander for 
Transformation, he will be the engine for transformation of 
military cultures and concepts that will take us into the 21st 
century.
    So in my opinion, this is an exciting time to be in NATO, 
as NATO redefines itself, as it expands, as it becomes more 
useful in terms of being able to respond to those challenges it 
faces--whether it be in the Balkans, in Afghanistan, in the 
Mediterranean with the highly successful operation involving 
the Standing Naval Forces, the deployment of NATO AWACS, 
theater missile defense, and NBC capabilities recently to the 
defense of Turkey--were all indications of the vast array of 
challenges and capabilities that NATO must have in the future. 
It is truly an exciting place to be assigned.
    With regard to the European Command, the Unified Command 
Plan of 2002 added 16 percent more land mass and 28 percent 
more sea space to the responsibilities of the European 
commander. It is an active area of responsibility, comprised of 
93 countries, 46 million square miles of land and water. It too 
has seen its success in the history of the 20th century in 
bringing about with our allies the demise of the Soviet Union 
and the transformation of the European land mass, and now we 
are looking at how we can support the alliance by looking at 
our basing strategy, which sees 84 percent of our bases 
centered in three different countries, to see how best we can 
support the new responsibilities and the new focus of attention 
that we must bring to bear on areas of our theater that are 
causing increasing concerns and will be of increased concern to 
our Nation and to our alliance in the future.
    New threats to the region are manifest by the asymmetric 
threats portrayed by extreme fundamentalism, crime, 
narcotrafficking, terrorism, creeping instabilities, and 
increased concern not only to our east and southeast, but to 
the south, and notably the increasing threats that we face from 
the Magreb and sub-Saharan Africa.
    We will need to have new basing models. Mr. Chairman, the 
Armed Forces of the United States were reduced between 35 and 
40 percent following Operation Desert Shield and Operation 
Desert Storm, and we used the energy that we cultivated from 
that reduction to project into the very capable and awesome 
force that we were able to bring to bear, not only on the field 
of battle but on the field of engagement, which is equally 
important during the intervening years between wars.
    The new basing models of the U.S.-European Command will be 
flexible and agile. They will be able to do more with the same 
amount that we have. They will recognize the new realities of 
the NATO alliance itself as it expands and acquires new 
members. They will be based on not only permanently based 
forces, but also rotational forces that can come into our area 
and make an immediate impact.
    As an example of this, I would submit that the U.S. forces 
currently stationed in Bosnia-Herzegovina are 100 percent 
National Guard Forces based in the United States and they are 
doing a truly remarkable job in their rotation. As they depart, 
they will be replaced by another such force.
    So in sum, Mr. Chairman, the relationship between the U.S. 
European Command and NATO is as strong as it ever was. We will 
reevaluate our footprints. We will reevaluate how we do things. 
We will take advantage of the transformational aspects that 
have been so successfully implemented over the past few years 
to provide this Nation with the reassurance and the security 
that it deserves and the guidance and the help and, if needed, 
the leadership in the alliance that we are privileged to enjoy 
in what is in my opinion the most important military alliance 
the world has ever seen.
    It is a great honor for me to be here representing the men 
and women of the U.S. European Command and also to be appearing 
before you as the Allied Commander, Europe. Thank you, sir.
    [The prepared statement of General Jones follows:]

         Prepared Statement by Gen. James. L. Jones, Jr., USMC

                              INTRODUCTION

    Chairman Warner, Senator Levin, distinguished members of the 
committee, it is my privilege to appear before you as Commander, United 
States European Command (USEUCOM), to discuss our operational missions, 
the viability and importance of the NATO alliance, and to chart a way 
ahead for the future. On behalf of all the men and women in USEUCOM who 
proudly serve this Nation, as well as their families, I want to thank 
the committee members and staff for your unwavering support over this 
past year. Your determined commitment to improving the joint 
warfighting and crisis response capabilities of our Nation's Armed 
Forces, and to improving the quality of life of our men and women in 
uniform, underwrites our efforts to shape the international environment 
in order to bring about a more secure and stable world. Your efforts 
have provided us with the resources to be successful, and have enabled 
us to do our part to protect our democracy and to contribute to the 
security of our Nation. Your dedication to improving the welfare of our 
families and that of our men and women in uniform is both recognized 
and greatly appreciated.
    During my brief time as Commander of United States European 
Command, I have been struck by six defining characteristics of our area 
of responsibility: (1) its expansiveness and diversity; (2) the 
inherent responsibilities and challenges of a region of this size; (3) 
the continuing importance of the NATO alliance, and the critical role 
of the U.S. within the alliance; (4) the contribution of our allies to 
meeting the emerging security requirements in the early days of the new 
century; (5) the nuances of the geo-strategic environment and its 
impact on our operational capabilities; and last, but not least, (6) 
the overarching realization that our current force posture requires a 
fuller adaptation to the requirements of a changing region and to the 
emerging realities of a challenging 21st century.
    With the committee's indulgence, I would like to discuss these 
characteristics in a manner that illustrates the scope of USEUCOM's 
responsibilities, the depth of our involvement to meet those 
responsibilities through current operations, the level of cooperation 
with our European partners to enhance security, and the key theater 
investment needs to both maintain and employ our forces in a manner 
that reflects the intent of our National Security Strategy. More 
importantly, I want to underscore the need for continuing 
transformation, and to help articulate a strategic vision that will 
enable us to better meet our strategic goals, and the challenges and 
threats that will be omni-present in the 21st century.

                         HISTORICAL PERSPECTIVE

    Since my predecessor, General Joe Ralston, last testified, USEUCOM 
has continued to operate at full capacity. We are a supporting command 
to the Central Command's effort in Operations Enduring Freedom and 
Iraqi Freedom. We are fully engaged in prosecuting the war on 
terrorism, executing ongoing operations, forging unprecedented 
organizational and operational changes within the NATO alliance, and 
adjusting to the significant expansion of our area of responsibility, 
to include the addition of Russia, Iceland, Greenland, and the Azores. 
We are simultaneously implementing a mandated 15 percent headquarters 
manning reduction in our major theater headquarters.
    The USEUCOM area of responsibility encompasses a vast geographic 
region covering over 46 million square miles of land and water (Figure 
1).
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The new Unified Command Plan, effective 1 October 2002, directs 
that our area of responsibility includes 93 sovereign nations, 
stretching from the northern tip of Norway to the southern tip of South 
Africa, and from Greenland in the west to Russia's eastern coastline. 
The very title ``U.S. European Command'' is a misnomer and no longer 
representative of the vastness of our area of operations. The 
astonishing diversity of our area of responsibility encompasses the 
full range of human conditions: some nations in our region are among 
the wealthiest of the world, while others exist in a state of abject 
poverty; some are open democracies with long histories of respect for 
human liberties, while others are struggling with basic concepts of 
representative governments and personal freedoms.
    Our missions are complex. The men and women of the command operate 
throughout Europe, Africa, the Levant, Eurasia, and the Middle East, 
more specifically in Iraq. In addition to many bilateral and multi-
national operations, we also serve in the Balkans in support of the 
North Atlantic Treaty Organization (NATO) stability operations and 
prosecute the war on terrorism on land and at sea, throughout the 
theater.
    To fully appreciate where USEUCOM is today, and more importantly 
where we are going, given the scope of responsibilities and challenges 
of a region this large and diverse, it is important to reflect briefly 
on our extremely successful history. U.S. Forces in Europe, in concert 
with our NATO allies, played a pivotal role in bringing about the 
demise of the Soviet Union and Warsaw Pact. Since the fall of the 
Berlin wall in October 1989, USEUCOM has undergone a reduction in 
forces of approximately 66 percent, from 248,000 in 1989 to 109,000 in 
2002. In addition, we have closed 566 installations over the past 
decade, along with over 356 sites and training areas. This reduction 
equates to a 70 percent shift in personnel and facilities as compared 
to the Cold War era peaks. At the same time, EUCOM's 21st century area 
of responsibility has expanded by 16 percent on land and 28 percent on 
the seas.
    My predecessors each recognized that a change in the strategic 
environment was occurring and instituted measures that were both 
appropriate and prudent. The dramatic decline of installations and 
accompanying reduction and realignment of our force structure in-
theater, in the Post Cold War era, was accomplished without a 
corresponding reduction in the scope of our mission. In effect, we were 
tasked to do much more with considerably less.
    As our Nation emerged from the Cold War era, we discovered that the 
security landscape was changing in many ways, and we were increasingly 
confronted by new and challenging asymmetries. We now better understand 
that our world has changed dramatically--from being a bi-polar and 
symmetrical, to being multi-polar and asymmetrical. Our theater has 
become an absolutely unpredictable environment replete with new and 
diverse challenges. It must be said that ours is a world in which 
Americans, perhaps for the first time, feel threatened inside their 
national borders; in their own homeland. Today, the developed world 
faces threats that are sub-national and supra-national; threats which 
are based on ideological, theological, cultural, ethnic, and political 
factors. Our new adversaries do not recognize international law, 
sovereignty or accepted international norms of behavior. As such they 
are able to exploit the seams of international order. This realization, 
and our understanding of the challenges of new world ``disorder'', 
brings with it unique challenges that require new and different 
approaches, and different metrics by which we allocate resources and 
develop strategies to protect our national interests and shape our 
environment. The dynamics of a new and challenging security environment 
and the need to embrace a different approach to deal more effectively 
with varied and emerging threats is not lost on our allies. Adaptation 
is the engine of survival and the NATO alliance is embarking upon a 
path that will ensure its future existence.
    We, and our allies, require a strategy that matches our resources 
in a manner that optimizes our ability to meet the challenges and 
threats of the 21st century. As we look at the map of our AOR, and the 
current location of our bases in-theater, some might be struck by the 
fact that the current disposition of our forces reflects a positioning 
in keeping with the symmetrical threats of the last century. Present 
day strategic interests reveal those areas where our interests will be 
threatened in the future, suggesting new realities, which will affect 
the requirements of a more appropriate construct of forces and basing 
plans that are more apt to achieve the goals laid out in our National 
Security Strategy. In doing so, we will move from the incremental 
process of transition towards the more dynamic promising process of 
transformation in depth.

                            STRATEGIC VISION

Transformation
    Although many think of transformation uniquely in terms of the new 
technology and new weapons systems, transformation in depth results 
from the synthesis of new technologies and revolutionary 21st century 
operational concepts, which are enabled by agile, adaptive 
organizations. Transformation is accomplished through in depth reforms 
within four areas; technological innovation, new operational concepts, 
institutional reforms, and dramatic reform in our business and 
acquisition methods.
    Today, we find ourselves at a veritable crossroads between two 
centuries. The new century will allow us to escape the limitations of 
the former; and we can and must evolve from the doctrine of 
``attrition'' to ``maneuver'' warfare, from symmetrical to asymmetrical 
options, from reliance on mass effect to reliance on precision effect, 
from large logistical stockpiles to a revolutionary integrated 
logistics concept, and we must change from antiquated terrain-based 
military criteria to that of effects-based operations.
    As the United States emerged on the scene as a world power after 
World War II, our Nation's role on the face of the earth was forever 
changed. We recognized, indeed we embraced, our new responsibilities, 
and for 50 years we faced the competition. We are proud of the fact 
that we prevailed. We did so for a variety of reasons, but none more 
important that the realization that our future depended on more than 
pure military might to succeed; it depended on a free market economy, 
an expanding cultural base, and a passionate belief in a system of 
government that enables its citizens to rise to their full potential in 
a free society. The realization that those pillars, of which the 
investment in the military capability became an enabler for the other 
three, ensured that our position as a nation of influence, on all 
matters, became the defining factor of our identity for the balance of 
the 20th century. For that we should rejoice, and from that we should 
draw upon the hard learned lessons as we enter the fractured world of 
the 21st century. More than any other nation, we have shown that we 
understand that we have a military capability that can and should be 
used to the betterment of world conditions, and only in the instances 
of last resort, applied to the conflicts for which there is no other 
solution, do we commit our men and women in uniform to the field of 
battle. In short, American military power is not simply a tool to be 
used only in a time of crisis. It is an instrument of peacetime 
engagement and reassurance to our friends and allies. Security provides 
stability, and within that stability the seeds of democracy can and 
will flourish.
    ``Sovereignty'' will be our Nation's challenge as we respond to the 
realities of the new century. Our 20th century basing models have 
served their purpose and it is now time to apply transformational 
options to provide our Nation with forces that are more agile, capable, 
sustainable, and credible in relation to our goals and aspirations as a 
nation. The world has changed in many ways; among them is the fact that 
it is ``smaller'' in terms of being able to project influence. The 
``tyranny of distance'' is no longer as daunting. There are different 
ways to achieve our goals. Many of our 20th century facilities in 
USEUCOM are in dire need of repairs. Current estimates project a 
significant investment will be needed over the next 6 years in order to 
provide adequate housing for our service members and their families 
currently assigned to USEUCOM. Contemporary issues pertaining to 
sovereignty, encroachment, and environmental constraints at many of our 
bases marginalizes training, impedes operations and erodes readiness.
    The ability of USEUCOM forces to attain and sustain required levels 
of readiness to meet current and future challenges depends on the 
quality, accessibility, affordability and the realism of our training. 
Joint training ranges of adequate size, capability, and instrumentation 
are vital. The training ranges we have used historically--mostly in 
Western Europe--have diminished utility due to increasing restrictions 
on operating hours, costs, limitations on the weapons that are 
authorized to be employed, and the size of forces that can maneuver on 
these ranges. Urbanization and environmental restrictions affect our 
ability to train in many ways.
    As a result, we have identified new training opportunities, 
primarily in Central and Eastern Europe and Northern Africa, where a 
number of countries have expressed interest in providing suitable 
training ranges, at less expense, with considerably less restrictions, 
and which are much more available than those we are historically tied 
to. These same potential host nations have also indicated an interest 
in establishing a new form of basing relationship for our forces. As we 
contemplate the imminent eastward expansion of NATO itself, it is clear 
that our traditional allies are also committed to ``out of area 
operations'' for NATO as well.
    USEUCOM and NATO are engaged in parallel actions, which are truly 
transformational in mutually supportive directions. NATO is adding 
seven new members from Central and Eastern Europe to the alliance, and 
USEUCOM is examining how it can best support the alliance with an 
appropriate force and new basing concepts. In order to do this, I 
recommend we consider the following:
    To offer a way ahead, I would suggest three areas for renewed 
focus:
    First, we need to critically evaluate every facet of our 
organization. Central to our conceptual transformation is the continued 
reduction/realignment of a ``legacy'' infrastructure that, in large 
measure, remains arrayed to support the Cold War posture of the 20th 
century. We should re-orient our forces towards the southeast and 
south, in a manner that reflects our expanding strategic 
responsibilities and the unquestioned emergence of new regional and 
global realities.
    Second, we must need to reassess how we deploy and assign forces to 
our theater. We need to have forces that are joint, agile, flexible, 
sustainable, and highly mobile. The combination of permanent and 
rotational forces deployed for 6 months, accompanied by an 
expeditionary component construct is better suited to meet the demands 
of our fluid, complex, and multi-faceted security environment. We must 
recognize that the landscape of today may not be the landscape of 
tomorrow. Truly expeditionary forces, by their nature can better and 
more readily adjust to the geo-political shifts and the emergence of 
unanticipated threats, than can traditional forces without a genuine 
mobility or true expeditionary capability.
    Third, we will need to adopt operational concepts that capitalize 
on innovation, experimentation, and technology in order to assert 
ourselves in a manner that achieves the greatest effect. We are 
witnessing a sudden shift in our past century reliance from the 
quantitative characteristics of warfare, mass and volume to a 
realization that qualitative factors (speed, stealth, precision, 
timeliness, sustainability, and interoperability) are predominant in 
understanding modern warfare. The lethality of the modern battlefield 
calls for forces to be lighter, less constrained, and more mobile, 
without diminution of capability. The principle of maneuver, attained 
by leveraging technologies, reduces a unit's vulnerability while 
increasing its lethality and survivability. High speed troop lift, 
precision logistics, in-stride sustainment, and intuitive C2 
architectures are enablers that translate into power projection.
    By capitalizing on the gains we achieved through the consolidation 
and restructuring of our bases over the past decade we are now ready to 
apply the more revolutionary concept of transformation. Re-orienting 
our forces, forging multiple and newer, basing options composed of task 
organized, often rotational formations, strategically arrayed, and 
capable of leveraging our technological advancements, is necessary to 
support our strategy which seeks to ``assure, dissuade, deter and 
defeat any adversary''.
    An example of how we might attain our strategic objectives is to 
build more forward operating bases such as ``Camp Bondsteel'' in 
Kosovo. From such semi-permanent expeditionary bases we can more 
effectively engage and influence the stability of a region. Such bases 
have proven the merit of this approach and demonstrate a visible 
presence at a fraction of the cost of a ``small American city'' base, 
more emblematic of the past. Africa, an example of an area long 
neglected, but whose transnational threats and abject poverty are the 
future breeding grounds for networked non-state adversaries, terrorism, 
narco-trafficking, crime, and unspeakable human conditions, is 
essential to our strategic plans for the future. It lends itself 
perfectly to the flexible basing options of the future.
    The utilization of a rotational basing model, more flexible and 
along the lines of an expeditionary construct, will complement our 
forward-basing strategy and enable us to reverse the current adverse 
proportions of the ``tooth to tail'' ratio. Rotational forces requires 
less infrastructure in-theater and provide the agility to respond to 
changing environments at significantly lower costs than that generally 
associated with closing and moving bases. It is much easier to relocate 
or close a Camp ``Bondsteel'' than it is a Camp ``Baumholder.'' In this 
regard, rather than enabling our operations, some of our ``legacy'' 
bases (those that are not strategic enablers), can become modern day 
liabilities as we strive to deal with the security challenges of the 
new century. While this may represent a dramatic shift in how USEUCOM 
operates, it is not a foreign concept to our the Service Chiefs. The 
Navy-Marine Corps team, for example, has been a predominantly 
expeditionary force since its inception. The Air Force has already 
created and implemented the Air Expeditionary Force model. The Army is 
in the process of creating lighter and more agile forces. We will need 
to continue to develop this capability in order to achieve our goals. 
Our global presence, of both sea-based and land-based units, 
redistributed more strategically, will achieve the desired result of 
our National Military Strategy.
    United States Special Operations Command (USSOCOM) and the Marine 
Corps are already working to leverage joint capabilities by 
invigorating Theater Special Operations Capable (SOC) and Amphibious 
Ready Group (ARG)/Marine Expeditionary Unit SOC integration. USSOCOM 
announced in January 2003 that it will seek to emphasize 
interoperability, working relationships, capabilities briefings, pre-
deployment training, and integrated exercises. Concurrently, U.S. 
Marine Corps Forces, Europe and SOCEUR are developing the framework for 
regular training, theater engagement and operational relationships. 
These relationships will bring USEUCOM SOF and U.S. Marine Corps 
(specifically the Marine Expeditionary Units) together in a way that 
will allow a force multiplication that is long overdue. This new 
teamwork will provide the momentum necessary to leverage the 
significant capabilities of both organizations to support USEUCOM at a 
level not previously achieved.
    This approach to transformation is not intended to undermine the 
consolidation and revitalization process related to the ``enduring'' 
infrastructure of our vital strategic bases. Rather, it is a 
continuation of our effort to increase efficiencies and provide greater 
effectiveness for our forces. We have several bases in Europe, which 
are key strategic enablers of our national strategy. They will continue 
to enable our theater throughput requirements, enhance the capabilities 
of our theater rapid reaction forces, and facilitate our concept of 
precision logistics. Through the proper blending of forward-basing with 
new and more agile expeditionary components, we will achieve the 
desired capability and the right balance necessary to ensure our 
relevance, and continued influence, in the 21st century European 
theater and the NATO alliance.
    The issue of transformation is not lost on our NATO allies. They 
fully realize the benefits of this concept and its link to military 
relevancy and modern capability. The recent NATO summit in Prague 
ushered in perhaps the most potentially profound change and re-
commitment to the alliance since the signing of the Washington Treaty 
in 1949. The themes of ``New Capabilities, New Members, and New 
Relationships'' were seeds planted at the summit, which could yield 
transformational capabilities in a short period of time.
    Several initiatives were launched that will help achieve NATO's 
transformation from an alliance equipped for a defensive war on the 
homeland to a flexible, deployable, and sustainable force equipped for 
a full range of operations and capabilities, both inside and outside 
NATO's boundaries.
    One initiative, the Prague Capabilities Commitment (PCC), furthers 
such a transformation by committing nations to fund specific capability 
shortfalls within the alliance. As part of the continuing effort to 
improve and develop new military capabilities for modern warfare in a 
high threat environment, individual allies have made firm and specific 
political commitments to improve their capabilities in the areas of 
enemy air defenses; strategic lift; air-to-air refueling; sea-lift; 
precision-guided munitions; UAVs and other key areas necessary for the 
alliance to be able to fulfill range of new missions. While there 
remain some significant shortfalls, this initiative is a giant step 
forward in recognizing that alliance capabilities must be improved.
    The establishment of the Allied Command for Transformation, 
replacing the old SACLANT, highlights NATO's commitment to transforming 
its military structures and concepts. The current headquarters 
structures are, quite appropriately, undergoing a critical review and 
evaluation to meet NATO's needs of the 21st century. This new structure 
will include one strategic operational command headquartered in Europe 
and one strategic functional command for transformation and training 
headquartered in Norfolk, VA. One will focus on transformation and the 
other on operations. This newly emergent relationship between SACLANT 
and SACEUR will be extremely important to the alliance. It helps bridge 
the existing high-tech gap between European and U.S. Forces, while 
establishing a continuity of dialogue that will enhance effectiveness 
and reduce friction. The implementation of this command structure will 
likely have a very positive impact on the current resource strategy, 
which is ``over capacity'' in low tech and ``under capacity'' in high 
tech investment. The task at hand is converting one into the other. 
Additionally, it will give us more efficient and effective control of 
the training and employment of forces while maintaining the fundamental 
ties of the transatlantic link. NATO nations' commitment to the Prague 
capabilities and interest to change their command structure, 
demonstrates member nations' willingness to embrace the transformation 
pillars of institutional reforms and technological innovation.
    NATO's commitment to transformation is best illustrated by its 
enthusiasm to embrace the concept of the NATO Response Force (NRF). The 
NRF allows us to SHAPE, working to establish an initial element of the 
NATO Very High Readiness Force-Element in the not too distant future. 
The new element we are proposing is expeditionary in nature and 
complements the deployable and follow-on forces currently articulated 
in the work-in-progress on a military concept for the NATO Response 
Force. The intent is to announce the establishment of this Very High 
Readiness Force-Element (VHRF-E) of the NATO Response Force by the 
Defense Ministerial later this year, and to establish an initial 
operating capability in the near term.
    The exact composition of the standing force and mission 
capabilities are currently subject to an ongoing SHAPE mission 
analysis. The initial concept is that the range of missions could 
include direct action; strategic and operational reconnaissance; 
deterrent presence; non-combatant evacuation operations; humanitarian 
assistance/disaster relief; and a wide range of peacekeeping 
operations.
    The intent is the creation of an NRF consisting of a 
technologically advanced, flexible, deployable, interoperable and 
sustainable force with land, sea, and air elements, which will be 
capable of deploying rapidly (regionally or globally), as decided by 
the North Atlantic Council or Defense Planning Committee. The NATO 
Response Force should be built around a ``tiered'' level of readiness 
construct. The first tier would be a very agile, task-organized element 
that will be formed from land forces that nations already possess, an 
aviation component, and a very capable maritime component. Drawing on 
existing forces precludes the requirement to create or generate new 
forces. The Very High Readiness Force-Element of the NRF, combined with 
a headquarters realigned from an existing headquarters, will create a 
necessary NATO capability in the near term a more conventional 
deployable force (2nd tier), with elements compatible to the first 
tier, would follow within a reasonable timeframe. The third tier would 
be the large follow-on force capable of responding to a major conflict. 
This tiered response provides a seamless, ``effects-based,'' scalable 
capability that can help shape the international security environment 
across the full spectrum of crisis and conflict.
    This expeditionary element of the NATO Response Force will not 
necessarily be U.S. led, and, in fact, will be largely manned by 
European members of NATO. To date, Secretary General Lord Robertson, 
the Chairman of the Military Committee General Harald Kujat, the 
Permanent Representatives, Chiefs of Defense, the National Military 
Representatives at SHAPE, and the staff have all embraced this concept 
and endorse its rapid establishment. With the NRF, NATO will have a 
visible, credible capability to show legitimate progress in meeting 
modern security challenges and attaining a level of relevancy that will 
have far reaching implications for the future of the alliance.

Transformation
    This will be a difficult process, but it is very necessary. To 
achieve our goals we must be willing to embrace institutional change 
and a shift from our previously understood paradigms. The current 
direction taken by the Service Chiefs coupled with the adaptation of 
the principles inherent to successful transformation, reinforces our 
efforts in this regard.
    The importance of moving this process along quickly is heightened 
in light of the current disposition of our facilities and 
installations. The average age of USEUCOM's 36,435 facilities in our 
499 installations is 32 years. It is worse in the family housing area 
where the average age of family housing in U.S. Army Europe is 48 
years, in U.S. Air Forces Europe, it is 43 years, and in U.S. Navy 
Europe, it is 35 years. Inadequate resources provided for the paucity 
of funds committed to infrastructure, since 1989, has resulted in 
19,090 of our 32,100 government quarters being defined as being 
``inadequate.''
    Rather than invest significant sums of money into facilities, some 
of which may not be necessary to meet our future basing needs, nor to 
our force requirements, we can seize the moment to apply newer metrics 
of transformation to determine how best to spend, and where best to 
spend, our resources intended for our installations in the new century.
    It is possible to achieve significant reductions in our old and 
costly infrastructure in the near future. Our current infrastructure 
evaluation program, coupled with improved technologies leveraged by the 
Services, will lead to further reductions. We have come a long way 
since the days of the Cold War, yet there is much to do. As we review 
our current infrastructure inventory and assess its merit through the 
lens of transformation we can shape our forces and develop a better 
basing strategy for our contemporary needs.
    We must remember the Cold War was not merely a U.S. victory, but a 
NATO victory that demonstrated the tremendous strength, which can only 
be achieved through the solidarity of like-minded nations. I firmly 
believe that NATO remains the most important alliance in the world. Our 
strength is enhanced through transformational concepts that are 
integrated with, and complement the efforts of our allies. The 
development of the NATO Response Force, in concert with our effort to 
establish a more robust expeditionary component, using a rotational 
model, strategically deployed in-theater, will enable us to achieve the 
desired effect--security and prosperity for the next 50 years.

                           CURRENT OPERATIONS

    The nation continues to call upon USEUCOM to conduct a wide range 
of operations, many of which are still ongoing today. We do all of this 
with a reduced force presence, of almost 40 percent since the end of 
the Gulf War in 1992, and with only 8.4 percent of our Nation's active 
duty military force. Many of these operations have been augmented 
through a myriad of cooperative measures with our European allies and 
this has bolstered our relationship with them.

War on Terrorism
    USEUCOM has contributed significantly to, and continues to play a 
major role in, Operation Enduring Freedom (OEF). To support U.S. 
Central Command, U.S. Army Europe soldiers deployed to Headquarters 
U.S. Central Command, Kuwait, Uzbekistan, Turkey, Italy, and the 
Republic of Georgia. U.S. Army Europe airborne riggers built and 
configured the 2.4 million daily rations delivered to Afghanistan 
during the air campaign. Wounded U.S. and allied soldiers were 
transported for treatment to Incirlik Air Base, Turkey, and the 
Landstuhl Regional Medical Center in Germany. U.S. Army Europe 
intelligence specialists worked to provide timely, accurate information 
to our commanders and national leaders. Army Europe soldiers provided 
linguistic support for Maritime Intercept Operations (MIO) in the 
Mediterranean Sea. The Air Force's C-17 aircraft deployed to Ramstein 
Air Base, Germany, flew 197 humanitarian assistance airdrop sorties 
delivering 2,439,740 humanitarian daily rations, 1,200 tons of wheat, 
78,160 blankets, 5,896 sets of cold weather gear, and 58,560 pounds of 
dates. MC-130 aircraft based at Incirlik Air Base, Turkey, flew 129 
airdrop sorties and 6 airland sorties, delivering over 1,809,000 pounds 
of lethal and non-lethal supplies. Our KC-135 tankers provided 
refueling support to these missions. Additionally, we provided advanced 
basing support to U.S. Central Command and U.S. Transportation Command 
at Incirlik, Turkey; Burgas, Bulgaria; Ramstein and Rhein Main, 
Germany; and Souda Bay, Greece. We also assisted in the transfer of 
more than 600 detainees from the U.S. Central Command area of 
responsibility to Guantanamo Bay, Cuba. In addition to humanitarian and 
re-supply missions, USEUCOM continues to deploy personnel and equipment 
to support U.S. Central Command missions. USEUCOM personnel provided 
support to base operations, helicopter airlift, distinguished visitor 
air operations, Joint Surveillance Target Attack Radar System missions, 
medical facilities and mortuary affairs. USEUCOM personnel also 
contributed to patriot air defense expertise and augmented a 
contingency response team establishing airfield operations.
    Beyond Operation Enduring Freedom, USEUCOM has focused significant 
efforts to the fight against terrorism. In the Balkans, intelligence 
cooperation established within the contexts of Stabilization Force 
(SFOR) and Kosovo Force (KFOR) continues to yield substantial leads for 
identifying and disrupting terrorists and their supporters. In October 
2001, USEUCOM formed a dedicated Joint Planning Group (JPG) to conduct 
operational level planning for counter-terrorism operations. Since 
November 2001, we have invited seven countries to join the USEUCOM 
Counter Terrorism Force coalition. These countries have provided senior 
level planners to the JPG, integrating their national plans and 
capabilities into our counter-terrorism planning efforts.
    USEUCOM formed a Joint Interagency Coordination Group (JIACG) a 
little over a year ago to strengthen the relationship with critical 
U.S. Government agencies on terrorist activities. The JIACG exploits 
internal and external governmental agency capabilities for the command, 
assisting with the overall synchronization of non-military efforts with 
our military capabilities against terrorism. The JIACG has successfully 
supported KFOR, SFOR, and maritime intercept operations through 
streamlined inter-agency and coalition coordination.
    We created USEUCOM's Joint Force Maritime Component Command, made 
up of USNAVEUR's Sixth Fleet and allied NATO units, in December 2001 to 
conduct Maritime Intercept Operations (MIO) in the Mediterranean. 
Operation Active Endeavor is the NATO response to the U.S. request for 
support in this effort. To date, the command has hailed over 20,000 
ships and boarded and searched 14 merchant vessels suspected of 
providing transportation, logistics, or financial support to designated 
terrorist groups. NATO allies and other partner nations, working 
alongside U.S. naval units, have contributed significantly to this 
effort. NATO's Standing Naval Force Atlantic and Standing Naval Force 
Mediterranean have tracked and monitored suspect vessels. Turkey, 
Italy, Algeria, Malta, and Croatia have conducted boardings of suspect 
vessels within their territorial waters at U.S. request in support of 
the war on terrorism. These boardings resulted in numerous arrests and, 
in at least one case, seizure of illegal arms and weapons components. 
Operations have recently been expanded to include escorting allied non-
combatant vessels through the Strait of Gibraltar.
    Finally, USEUCOM's Security Cooperation program with allies and 
friends has produced tangible results since the tragic events of 
September 11. Years of cooperative activity--small unit training and 
interoperability exercises; equipment sales and transfers; staff 
exchange visits; and humanitarian projects--have laid the foundation 
for significant support for the war on terrorism from a majority of the 
countries in USEUCOM's area of responsibility. International Military 
Education and Training (IMET) in particular has been an invaluable tool 
in our efforts to encourage and support fledgling democracies in this 
AOR. Your continued support of this program through the current budget 
is greatly appreciated. Increased intelligence sharing and improved 
staff coordination and planning are paying dividends as allied and 
friendly nations help protect U.S. forces and facilities, as well as 
identify and apprehend terrorist suspects.

Operation Iraqi Freedom (OIF)
    USEUCOM has contributed significantly to, and continues to play a 
major role in, Operation Iraqi Freedom. Over 16,000 U.S. Army Europe 
soldiers have deployed to the U.S. Central Command area of 
responsibility (AOR) and are currently participating in or supporting 
combat operations there. Most recently the 173rd Airborne Brigade from 
the U.S. Army Southern Europe Airborne Task Force (SETAF) traveled 
2,200 miles to successfully complete a ``combat jump'' into northern 
Iraq. European-based U.S. Patriot Air Defense systems have been 
deployed to Turkey and Israel reassuring these key allies of the United 
States' reliability and concern for their defense. Wounded and injured 
U.S. and allied soldiers from the Iraqi Theater of Operations (ITO) are 
transported to the Landstuhl Regional Medical Center in Germany for 
treatment. European-based intelligence specialists from every branch of 
the U.S. Armed Services are providing timely, accurate, and actionable 
intelligence to U.S. Forces engaged in combat in Iraq, our commanders 
and national leaders. U.S. Air Force European-based C-130 aircraft are 
moving supplies and equipment bound for the ITO through Europe. 
Additionally, we are providing advanced basing support to U.S. Central 
Command and U.S. Transportation Command at Burgas, Bulgaria; Constanta, 
Romania; Ramstein and Rhein Main Air Bases, Germany; Souda Bay, Greece; 
Akrotiri, Crete; Aviano, Italy; Rota, Spain; and RAF Fairford, and RAF 
Mildenhall in the United Kingdom. U.S. Naval Forces in the European 
theater are flying combat sorties into Iraq from two U.S. Navy aircraft 
carriers stationed in the eastern Mediterranean. Surface and sub-
surface units have launched Tomahawk Land Attack Missiles (TLAM) 
against targets in the ITO. Other U.S. Naval units on station in the 
eastern Mediterranean are providing early warning against potential 
missile attacks launched against Israel and U.S. Marine Forces Europe 
are providing the command element for the Joint Task Force to assemble 
and marshal free Iraqi forces and their subsequent deployment.
    USEUCOM enjoys a robust and secure transportation network in 
Germany that provides a tremendous power projection capability. There 
exists no better combination of rail, road, inland river, and air 
infrastructure system from which to deploy combat forces. This superb 
network leads to the largest and most mature seaports in the world. For 
Operation Iraqi Freedom, this mature infrastructure was instrumental, 
and used substantially, in the deployment of 32,000 soldiers and their 
equipment to Kuwait, Turkey, Israel, Hungary, Romania and many other 
countries. The deployments continue as we speak. Additionally, the 
German government provides large numbers of soldiers, police and border 
guard forces to help secure our installations, housing areas and 
communities. Given the multiplicity of deployment infrastructure and 
nodes, Germany provides a more rapid deployment infrastructure than 
many of our best platforms in CONUS and also has the advantage of being 
an ``Ocean Closer.''
    Our global reach capability is maintained by five USAFE-supported 
European enroute infrastructure bases, enabling the U.S. to project 
power in both USEUCOM and USCENTCOM. With our forward presence, these 
bases provided a springboard from which U.S. forces could rapidly 
transition to support USCENTCOM efforts for Operation Iraqi Freedom. So 
far, this airlift bridge has moved over 26,165 passengers and 45,188 
short tons of equipment and provided a departure point for special 
operations aircraft, bombers, as well as tankers to support a myriad of 
coalition forces. In addition to our six main operating bases, four 
forward operating bases were established to support coalition 
operations. Most significantly, our forward presence enabled our B-52s 
operating from RAF Fairford to strike targets in Iraq with half the 
number of air refuelings and two-thirds the quantity of fuel. 
Ultimately, this presence enabled us to double our sortie generation 
rates by turning bombers and crews in 18 hours or less versus 48 hours 
from locations in the U.S. This was crucial not only to strike assets 
such as B-52s but also for C-17s operating out of Aviano AB, Italy, 
which dropped over 1,000 Army airborne troops into Northern Iraq, 
opening up the northern front. Reduced timelines mitigate strains on 
PERSTEMPO, lessen impact on operational assets (wear and tear), and 
provide commanders greater flexibility on the battlefield.
    USEUCOM's contribution to Operation Iraqi Freedom cannot be 
measured merely in terms of its supporting role during the war; it must 
also be viewed within the context of strategic initiatives that provide 
the foundation from which operational successes can be generated. 
Theater capabilities are the derivative of operational concepts that 
have been validated through combined and joint exercises. The Marine 
Corps' strategic agility and operational reach capability was 
demonstrated during the Dynamic Mix exercise conducted in Spain last 
year by the 2nd Marine Expeditionary Brigade. The derivative of this 
exercise is Task Force Tarawa, which has played a vital role in the war 
in Iraq. Exercising strategic enablers in theater, such as the Maritime 
Positioning Squadron (MPS) assets of the 2nd Marine Expeditionary 
Brigade, provides valuable lessons, increases efficiencies, and leads 
to operational success.

Operation Northern Watch (ONW)
    The Combined Joint Task Force Operation Northern Watch, consisting 
of forces from the U.S., Turkey, and the United Kingdom, continued, 
until recently, to enforce the Northern No-Fly Zone over Iraq and 
monitor Iraqi compliance with applicable U.N. Security Council 
Resolutions. These missions were dangerous; last year Iraqi air defense 
forces fired at coalition aircraft over 250 times. We responded 16 
percent of the time, generally against those targets that were of the 
greatest threat. This mission has been terminated with the start of 
offensive operations in Iraq.

Balkan Operations
    Operation Joint Forge continues to enforce the General Framework 
Agreement for Peace by providing a military presence in Bosnia-
Herzegovina to deter hostilities, promote a stable environment, and 
support a transition to civil authority. Force numbers have been 
reduced from 60,000 (20,000 U.S. troops) when the mission began to just 
over 12,000 (1,800 U.S. troops) today. Europe as a whole has endeavored 
to live up to its personnel and financial support commitments to Balkan 
operations. Currently, 35 nations contribute forces to SFOR, with 28 
European nations comprising 75 percent of the combined force.
    The way ahead in Bosnia remains contingent upon the international 
community's ability to help its citizens build viable civil 
institutions and promote the rule of law. Our focus in SFOR, among 
other things, should be to assist in developing a single unified 
military, out of the ethnically separate entity armed forces that exist 
today. I regret to report that such an effort is still in its infancy, 
and that, despite the great efforts of the senior representative, we 
still have much to do. Bosnia remains an open door to the west for the 
exportation of radical fundamentalism, crime, and lawlessness.
    U.S. Operation Joint Guardian remains the linchpin of NATO military 
operations in Kosovo. KFOR has just over 27,000 (3,000 U.S. troops), 
7,000 less than last year. This force is drawn from 37 nations, 
including Russia. The Europeans have stepped up to the KFOR commitment 
with 31 European countries now deploying over 80 percent of the total 
force.
    Substantial progress returning the rule of law to Kosovo is 
allowing significant reduction of international forces. The 
Organization for Security and Cooperation in Europe's Kosovo Police 
Service School has graduated over 5,200 multi-ethnic officers since its 
inception in September 1999. The U.N. policing plan is on target and 
continues to put officer graduates alongside U.N. Mission in Kosovo 
(UNMIK) veteran international officers. The ultimate goal of this 
endeavor is to replace the U.N. police force entirely, turning law 
enforcement responsibilities over to the Kosovars. While encouraging, 
it is too early to claim success at this time.
    Both SFOR and KFOR have been active in supporting the International 
Criminal Tribunal for the Former Yugoslavia (ICTY). In Bosnia-
Herzegovina, ICTY issued 105 indictments within SFOR's area of 
responsibility. Of these indictments, 82 have been detained or died 
leaving 23 that we are still seeking. The two most wanted war criminals 
of the period, Radovan Karadzic and Ratko Mladic have not yet been 
brought to justice for alleged war crimes in Bosnia. In February of 
this year, KFOR forces arrested three Kosovar Albanians inside Kosovo 
and police in Slovenia arrested a fourth. This marked the first time 
ICTY indictments were issued for alleged war crimes associated with the 
Kosovo conflict. One detainee was erroneously indicted by the ICTY, but 
this does not detract from the success of the operation.
    Macedonia has successfully met extraordinary challenges in its 
security environment. Peace and stability have returned with only 
isolated incidents of violence. Borders were secured and the forces 
assigned to Operation Amber Fox successfully supported European 
monitors during national elections in September 2002. The elections 
were free and fair, and they have resulted in the peaceful transition 
of power to a new government, which is determined to make a fresh start 
domestically and in full cooperation with NATO. Operation Amber Fox 
ended in December 2002, and was replaced with the NATO led Operation 
Allied Harmony. As a result of reduced U.S. requirements and manning 
levels in Macedonia, U.S. Army Europe has withdrawn all military 
personnel from Camp Able Sentry after 9 years of use as a U.S. 
operating base. The European Union assumed operational responsibility 
of this mission on 31 March. It has been renamed Operation Concordia.

Georgia Train and Equip Mission (GTEP)
    USEUCOM, in coordination with the Departments of Defense and State, 
developed GTEP in an effort to help Georgia provide better security and 
deal with transnational terrorists that may be operating in areas such 
as the Pankisi Gorge. The program is designed to enhance the capability 
of selected Georgian military units through a flexible, tailored 
program, to include both classroom and tactical instruction. Up to 150 
U.S. military personnel will be involved during the course of this 
program and our European allies have offered to contribute equipment to 
the Georgians. On 15 Dec 2002, Marine Forces Europe assumed the GTEP 
mission from the Special Operations Command Europe in order to release 
Special Forces for potential operations in support of the war on 
terrorism. GTEP will train approximately 2,600 Georgian soldiers when 
the mission is completed in May 2004. GTEP and other security 
cooperation activities are examples of tactical programs that produce 
strategic dividends.

                      THEATER SECURITY COOPERATION

    The value of security cooperation cannot be overstated. Since 
September 11, 2001, nearly every nation in the USEUCOM AOR has offered 
or provided intelligence, basing access, and over-flight rights, 
forces, and equipment as well as other forms of key support in our 
efforts to combat terrorism. The degree of support we have received is 
directly related to the effort and attention we have given to the 
security cooperation program that was in place well in advance of the 
current conflict.
    Our strategic vision is best achieved in concert with allies, 
partners, and friends, and USEUCOM aggressively pursues a number of 
programs that create conditions for coordinated, combined military 
action. Other security cooperation efforts in theater include working 
with our friends throughout Africa to improve their peacekeeping 
capabilities and overall regional stability, increasing military 
cooperation with Russia, and developing new relationships with 
countries of the Caucasus and Caspian regions. These efforts have 
protected and strengthened important U.S. economic and security 
interests, while assuring our European friends that the U.S. remains 
committed to European security.
    Defense Cooperation and Security Assistance programs are vital to 
attaining foreign policy and national security objectives. They promote 
interoperability with U.S. forces and help to build professional, 
capable militaries in friendly and allied nations. We support military 
security cooperation in partnership with 43 Offices of Defense 
Cooperation, 25 Defense Attach Offices, and for countries that do not 
have those offices, directly with 24 U.S. embassy country teams.

        <bullet> Foreign Military Financing (FMF) provides critical 
        resources for modernizing the military forces of our friends 
        and allies and remains an essential instrument of U.S. 
        influence during the dynamic transformation of Central and 
        Eastern Europe and key African partners. FMF assists nations 
        without the means to acquire U.S. military goods, services, and 
        training and provides access to U.S. expertise in defense 
        restructuring and management.
        <bullet> Likewise, Foreign Military Sales (FMS) of $2.86 
        billion for fiscal year 2002 demonstrate the continued primacy 
        of Trans-Atlantic defense relationships to U.S. security 
        interests.
          FMS encourages interoperability between forces within 
        USEUCOM's area of responsibility, helps modernize the 
        militaries of new friends and partners, and maintains a strong 
        U.S. presence in the development and implementation of the 
        Prague Capabilities Commitment (PCC). USEUCOM, the Defense 
        Security Cooperation Agency, and the military Services have 
        ensured that the fiscal year 2004 President's budget request 
        reflects USEUCOM's priorities.
        <bullet> International Military Education and Training (IMET) 
        is one of our best tools for promoting long-term beneficial 
        change in foreign militaries, because it allows foreign 
        military and civilian leaders to encounter firsthand the 
        American civil-military culture. It focuses on professional 
        development, the role of the military in a democratic society 
        and English language training. In fiscal year 2002, the program 
        trained approximately 1,700 military and civilian students both 
        in the U.S. and by Mobile Education Teams in the host country. 
        In Sub-Saharan Africa, IMET is particularly important. It 
        provides educational opportunities that emphasize and reinforce 
        civilian control of the military and promote domestic stability 
        in a region where armies are often the principal organizing 
        factor in society. The increase in funding for fiscal year 2004 
        is absolutely the right course of action, providing an 
        invaluable return for a relatively small investment.

    The George C. Marshall European Center for Security Studies is at 
the forefront of our regional security cooperation efforts in Europe as 
well as Eurasia. Jointly funded by the United States and Germany, the 
Marshall Center strengthens security cooperation among European and 
Eurasian nations and serves as an indispensable institution for 
bilateral, regional, and multilateral activities with military and 
civilian leaders throughout the theater. The Marshall Center is also an 
important part of our interaction with Russia, the largest 
participating nation with 717 graduates, followed by Romania (662), 
Bulgaria (615), and Ukraine (308). The Marshall Center's 2,400 course 
graduates and 7,700 conference participants across 49 countries is one 
prime reason the U.S. has succeeded in building coalitions against 
terrorism. Marshall Center resident course graduates boast an excellent 
record of moving into positions of increasing influence in their 
militaries and governments. Alumni now include over 137 Ministers/
Deputy Ministers of Defense, Chiefs/Deputy Chiefs of Services, cabinet 
officials, parliamentarians, ambassadors, and flag officers.
    The NATO School (SHAPE) is a USEUCOM supported activity under the 
operational control of Supreme Headquarters Allied Powers Europe. Its 
primary mission is to conduct courses, training and seminars in support 
of NATO strategy and policy, to include cooperation with non-NATO 
countries. During 2002, the NATO School educated nearly 8,000 students 
from 50 nations and conducted 144 iterations of 57 different courses, 
16 conferences, and 9 mobile training events, including missions to 
Uzbekistan, Tunisia, Algeria, Azerbaijan, Croatia, and Slovenia. In 
2003, the school will respond to NATO enlargement by deploying up to 12 
mobile training and education teams. The NATO school responded 
aggressively to the terrorist attacks on the U.S. and the alliance's 
invocation of Article V by adapting or developing courses in 
counterproliferation, counterterrorism, special operations, civil 
emergency planning, civil-military cooperation, weapons of mass 
destruction, and force planning. NATO has committed to expand the 
facilities, infrastructure, and manning under the NATO Security 
Investment Program.
    USEUCOM and the National Defense University established the Africa 
Center for Strategic Studies in December 1999. The Africa Center 
continues to provide a series of seminars, symposia, conferences, and 
outreach programs designed to promote stable governance and democratic 
values in the African defense and security sectors. Supporting the war 
on terrorism, the Africa Center is developing an agenda that encourages 
regional cooperation. It visibly confirms America's long-term 
commitment to work with our partners in Africa, while enhancing our 
national strategy through relatively low cost, high-impact security 
cooperation opportunities. Africa will be of increasing concern and 
importance in the region in the near future.
    The program formerly known as the Africa Crisis Response Initiative 
has evolved into a more focused, tailored program, the Africa 
Contingency Operations Training and Assistance program. Various African 
partners have agreed upon the program as the appropriate next step in 
preparing African militaries to deal with the full range of peace 
support operation challenges. It has two primary objectives: (1) to 
enable Sub-Saharan African militaries to develop and improve 
sustainable capacities to deploy and conduct peace support and 
humanitarian relief operations and (2) to improve African militaries 
interoperability in order to facilitate sub-regional and regional 
operations. USEUCOM supports the addition of new partner nations such 
as Botswana, South Africa, Nigeria, Tanzania, Zambia, Namibia, Niger, 
Cameroon, and Gabon and continues to assist current partners in 
sustaining proficiency.
    The mission of the Near East South Asia Center for Strategic 
Studies (NESA CSS) is to enhance stability of the region by providing a 
professional academic environment to address regional issues, develop 
mutual understanding, strengthen regional partnerships, and foster 
regional cooperation. Like the Africa and Marshall Centers, the NESA 
CSS provides a low-cost, high-return engagement opportunity that 
solidifies America's commitment to work with Near East and South Asian 
partners in a way that supports our national strategy and objectives. 
Although OSD provides oversight of NESA and the Africa Center, USEUCOM 
provides input on topics to ensure the course of study supports our 
regional objectives.
    The State Partnership Program is an important security cooperation 
program carried out by the National Guard. This program matches 
emerging democracies in the AOR with partner states in the U.S. It 
assists partner nations in making the transition from authoritarian to 
democratic governments. Currently, there are 20 states partnered with 
18 foreign nations in the AOR and this past year's program was, again, 
an unqualified success. National Guard soldiers and airmen conducted 
over 250 events with partner nations contributing to USEUCOM's security 
cooperation efforts. New partnerships were established between 
Azerbaijan and Oklahoma, Armenia and Kansas, and Bosnia-Herzegovina and 
Maryland. The establishment of these new partnerships, and the 
continued success of previous partnerships, will greatly assist USEUCOM 
in achieving security cooperation goals.
    Partnerships that began as focused military-to-military contacts 
within the partnerships have blossomed into associations encompassing 
nearly all levels of society--unit partnerships, sister cities 
programs, student exchanges, scientific collaborations, medical 
exchanges and economic initiatives. The ability of the National Guard 
to orchestrate the pairing of State or local governments, organizations 
and associations from a respective U.S. State with corresponding 
entities in the partner nation is the key strength of the State 
Partnership Program.
    The program has been so successful in the Central and Eastern 
European regions that USEUCOM is working to expand the program to 
Africa. Although the challenges faced by African nations differ from 
those of Central or Eastern Europe, many nations are ready for the 
opportunity that the State Partnership Program provides. For a modest 
investment, we can provide candidate nations access to the expertise of 
the National Guard military organization in a State plus an entire 
State government infrastructure ranging from public health to wildlife 
management. The program will serve as a tremendous complement to our 
traditional African security cooperation activities. The State 
Partnership Program affords USEUCOM continued access to emerging 
nations and enables us to shape the conditions for future successes.

North Atlantic Treaty Organization
    NATO will remain the preeminent European security institution. 
NATO's demonstrated willingness to embrace transformation will have far 
reaching implications that will enable us to attain a much higher 
degree of interoperability while providing an impressive number of 
capable and relevant partners able to respond and meet security 
challenges in the 21st century.

New Members
    Seven nations--Bulgaria, Estonia, Latvia, Lithuania, Romania, 
Slovakia, and Slovenia--received invitations to join the alliance 
during the Prague summit. The ratification process for membership is 
expected to be finalized at the next NATO summit in May 2004. These 
invitees are already contributors to NATO operations in the Balkans, 
Afghanistan, and the war on terrorism and are expected to augment 
NATO's future capabilities.

New Relationships
    NATO is forging productive ties with Russia, Ukraine, the Caucasus, 
Central Asia, non-aligned nations, the Mediterranean Dialogue 
Countries, and the European Union.
    Developing security cooperation architectures with Russia and 
Ukraine promises to diffuse tensions and provides an effective means of 
pooling resources in the war against terrorism as well as in other 
areas of common interest and mutual benefit. NATO has engaged with the 
Russian military and political leadership and has routinely conducted 
high-level consultations on a wide range of security issues with the 
Russian Foreign Ministry, Defense Ministry and General Staff. This 
effort became even more robust with the creation of the NATO-Russia 
Council last May. This council discusses such issues as counter-
terrorism; controlling the spread of nuclear, chemical and biological 
weapons; missile defense; peacekeeping and management of regional 
crises; civil defense; search-and-rescue at sea; military reforms; and 
arms control. NATO also established Military Liaison Missions in Moscow 
and Kiev to improve communications and facilitate day-to-day 
coordination of activities. NATO is working to develop and implement a 
robust mil-mil program with Russia built around key interoperability 
objectives. This will be a key effort and focus of attention for the 
NATO military in 2003.
    USEUCOM's support for NATO's Partnership for Peace (PfP) Program 
continues to be an integral component of the changing European security 
architecture. Such substantive relationships have enabled cooperation 
in responding to the new security challenges, including terrorism. In 
addition, the Presidential waiver on restrictions under Section 907 of 
the Freedom Support Act has allowed assistance to Azerbaijan and 
Armenia. Partnership countries in Europe, the Caucasus, and Central 
Asia seek closer cooperation with NATO and familiarity with NATO 
procedures. PfP's significant role is illustrated by the substantial 
contribution of partner countries to the alliance's peace support 
operations in Bosnia and Kosovo, which in turn, reduces the requirement 
for U.S. troops.

                      KEY THEATER INVESTMENT NEEDS

Antiterrorism/Force Protection
    We continue to enhance our security posture both through physical 
site improvements at our installations and by improved intelligence 
gathering, analysis, and sharing with our coalition partners and law 
enforcement agencies. Our programs and posture have increased 
dramatically in recent years in the areas of public awareness, 
training, physical security upgrades and formal agreements with U.S. 
ambassadors that clearly delineate force protection responsibilities 
for DOD personnel throughout the theater. We have established a USEUCOM 
Antiterrorism/Force Protection Technology Working Group to coordinate 
component actions, and we actively seek technologies that can enhance 
our force protection efforts to reduce, where possible, our extensive 
manpower requirements. USAREUR, in partnership with the Defense Data 
Management Center, began development of an integrated Installation 
Access Control System that will be operationally tested in the spring 
of 2003 at two installations before initial fielding begins throughout 
Germany. USAREUR has also fielded four Consequence Management 
Assessment Teams capable of providing on-scene assessments of chemical, 
biological, radiological, nuclear, and high-yield explosive hazards. 
Each team, under the operational control of the on-scene commander, 
provides a technical assessment to establish situational awareness and 
identifies requirements for follow-on forces. The team advises Host 
Nation ``first responders'' regarding immediate appropriate actions and 
facilitates requests for additional assistance.
    During the last year, our military service components greatly 
benefited from the Defense Emergency Response Fund and fiscal year 2002 
supplemental funds, and they were able to complete several needed 
security site improvements. In addition, we received $2.2 million from 
the fiscal year 2003 CJCS Combating Terrorism Readiness Initiatives 
Fund. As we execute the war on terrorism, it is imperative that we 
continue to adequately resource our critical force protection manpower 
and security requirements to allow us to meet the many challenges of 
the future and protect our personnel and facilities.
    We will invest wisely in defense intelligence transformation 
efforts, and address programmatic shortfalls in intelligence core 
mission capabilities. Sustaining the $9 million intelligence 
supplemental funds required in fiscal year 2003 for additional analytic 
manpower and data base enhancements is critical to our success in the 
war on terrorism. Our highest intelligence priority remains having 
sufficient numbers of well-trained personnel.

Theater Command, Control, Communications and Computers (C4) 
        Modernization
    Theater C4 infrastructure is one of our most critical concerns. The 
ability to command and control sets us apart from every other military 
but we must continue to improve information superiority and dominance. 
USEUCOM looks forward to advancements in C4 capabilities from 
Department of Defense-sponsored programs like Teleport, Global 
Information Grid Bandwidth Expansion, and the Mobile User Objective 
System. Focused attention upon our own tactical networks, the Defense 
Information Infrastructure, and the transmission systems supporting our 
fixed and deployed installations will enable us to harness the 
increased bandwidth capacity, improve interoperability, guarantee 
network assurance, and enable information management capabilities 
required by the warfighter.

Intelligence, Surveillance, and Reconnaissance
    The imperatives of the war on terrorism, coupled with the dearth of 
intelligence, surveillance, and reconnaissance assets due to global 
reallocation, provide clear requirements to maximize the efficiency of 
the remaining assets and develop flexibility. A robust and modernized 
joint command, control, communications, computers, intelligence, 
surveillance, and reconnaissance (C\4\ISR) capability is a top priority 
that supports the warfighter's need for a common operational picture 
and the commander's requirement for predictive battle-space analysis. 
Leveraging technology will allow this transformational effort to 
coordinate forces through blue, red, and gray force tracking. Joint 
C\4\ISR is a primary focus in USEUCOM's Integrated Priorities List and 
Joint Quarterly Readiness Review reports. The architecture linking our 
C\4\ISR assets must become fully interoperable, connecting key sensors 
command and control nodes and shooters through a global grid. C\4\ISR 
infrastructure must provide deployable data, voice, video, and web 
access to support designated joint force component commanders.
    DOD initiatives to provide unified commanders with organic, multi-
discipline intelligence collection capabilities--to include airborne 
collectors such as unmanned aerial vehicles and measurement and 
signature intelligence capabilities--coupled with flexible, deployable 
exploitation architectures are particularly helpful. We appreciate your 
support for these and similar initiatives that enhance our 
intelligence, surveillance, and reconnaissance architecture.

Theater Training Requirements
    Components' fund support, not only their Service and Joint training 
requirements, but also fund the training requirements of the Combatant 
Commander's operational headquarters. Previously, the cost to the 
Components supporting this headquarters was minimal. However, with the 
establishment of a permanent crisis action team, joint planning group, 
joint interagency coordination group and, with the pending formation of 
the standing joint force headquarters, the costs of supporting HQ 
USEUCOM's own training have become very significant. Service joint 
training operations and maintenance incremental funding has not 
traditionally been structured to accommodate these costs. The 
continuing use of Service Component funds to support higher 
headquarters overburdens already stressed budgets and leaves little 
near-term flexibility to accommodate shifting priorities during 
execution.

Infrastructure
    In a memorandum dated 1 August 2001 to the Chairman of the Joint 
Chief of Staff, the Secretary of Defense requested that Combatant 
Commanders review their overseas basing requirements and study 
opportunities for joint use of land and facilities by the Services. 
This Overseas Basing Requirements Study was completed in March 2002 and 
it included the development of a Real Property Inventory, an evaluation 
tool the command was previously without. Analysis of the Real Property 
Inventory determined that 80 percent or 402 of the existing 499 
installations in theater were ``enduring'' (Tier I)--that is to say, 
vital to the execution of U.S. strategies, and worthy of regular 
funding/improvement, without which U.S. missions could risk failure. It 
was established that future MILCON expenditures were both appropriate 
and necessary for these installations. Our fiscal year 2004 military 
construction program focuses on these enduring installations and 
provides vast improvement for 80 percent of the infrastructure deemed 
necessary by our basing studies. The study found there were 14 percent 
(68 installations) that were ``important'' to theater operations (Tier 
II) and the command would not voluntarily choose to live without; 
however, they could be returned to host nations should circumstances 
dictate. What is important to glean from this study is that 6 percent 
(29 installations) were judged to be not ``enduring'' (Tier III), or of 
``non vital'' importance to the accomplishment of our missions. All but 
four of the Tier III installations are in the closure process. The 
component commanders are conducting their final review on the four 
remaining installations and a decision to move on these closures will 
be made shortly. Tier III installations only receive minimal 
sustainment (operations and maintenance) funding to keep them useful 
and safe until they are closed. They do not receive any MILCON funding. 
All of USEUCOM's projects in the fiscal year 2004 President's budget 
are for Tier I installations. USEUCOM is using the Overseas Basing 
Requirement Study as a benchmark, which will enable us to align our 
infrastructure with our new strategy.
    It is important to understand the criteria used to evaluate U.S. 
strategies. The March 2002 study met the strategy requirements set 
forth for that study which was primarily for fixed forces. A fixed 
force strategy is very different from a strategy using rotational 
forces working and training out of semi-permanent expeditionary bases. 
We have begun a new evaluation of our basing requirements, using 
different criteria, with an operational premise of employing some 
rotational units in-theater. I have asked Deputy Commander of USEUCOM 
and our Component Commanders to vigorously review and evaluate our 
current infrastructure program to ensure that funds requested for 
European infrastructure will be for ``strategically enduring'' 
facilities which support a strategic vision of blending our strategic 
bases with an array of semi-permanent forward operating bases in order 
to achieve a greater strategic effect, covering our new requirements, 
at reduced expense.
    As important as they are, the pressing requirements associated with 
infrastructure and maintenance must not distract us from our greatest 
challenge--that of adapting our strategic posture to the demands of the 
complex international security landscape that confronts us.

                               CONCLUSION

    The United States European Command is engaged fully in representing 
our national interests in 93 sovereign nations, and in fulfilling our 
responsibilities within the NATO Alliance. That we are engaged in a 
dynamic, challenging, and vitally important theater, comprised of 
roughly one half of the nations on Earth, is beyond question. Yet, 
despite the energy and vitality of our many and diverse missions, we 
find ourselves at an important crossroads, literally between two 
centuries. The NATO Alliance is changing and we perceive that the 
nature of our own American presence in this most important theater must 
also evolve in order to shape the conditions under which we can 
continue to be a nation of great influence in an uncertain world.
    We look forward to working with the members of this committee as we 
further define the nature and extent of the evolution of the European 
Command. We will also look forward to the advice and assistance of each 
of the Services in determining our course for the future, and we will 
reach out to our allies to reaffirm our solidarity with our oldest 
friends, all the while reaching out to new members of the alliance and 
beyond.
    Thank you for the opportunity to appear before you today. I look 
forward to responding to your questions.

    Chairman Warner. Thank you, General Jones. It is an 
excellent statement.
    I know your profound respect for your predecessor, General 
Ralston, but I wish to commend you on some initiatives that you 
have said in this statement today and other times about how you 
wish to leave your own imprimatur on this important post to 
which the President has assigned you.
    General Jones. Thank you, sir.
    Chairman Warner. This hearing today as we open it, we have 
very much in mind the families who have lost their loved ones 
in this conflict, the families who must care for the wounded, 
the sick, and most particularly those families who are still 
concerned about those that could be prisoners of war. The 
Senate expressed its sentiments yesterday with regard to the 
prisoners of war, Mr. Secretary, and I take note of that.
    Furthermore, as we are conducting this hearing on post-
conflict Iraq, by no means do we not take into consideration 
the messages that have been sent by not only the President, but 
Secretary Rumsfeld and yourself, as well as the CENTCOM 
Commander, that this fight is still under way. As we are 
holding this hearing members of the coalition forces are 
enduring risk as they bravely carry out the mission.
    Now, Mr. Secretary, we learned here shortly, in the last 
few hours, that the heads of state from Russia, France, and 
Germany are going to meet. Did you have any consultation with 
regard to this meeting taking place? What can you tell us about 
that meeting?
    Thus far it has been my observation, I think a correct one, 
that our President and the Prime Minister of Great Britain have 
not made any references of recrimination for those nations that 
did not join us at the time when we were hopeful that the 
Security Council could have taken an action that could have 
avoided the use of force. But that did not take place, for 
reasons we all know, and also the very tragic chapter in the 
history of NATO when members objected to NATO providing the 
security that a member nation, Turkey, felt was necessary.
    So with that background, what can you tell us about this 
meeting?
    Secretary Wolfowitz. First, just to make the record clear, 
ultimately it was only one member that objected. We went to a 
mechanism that we had used a great deal in the 1980s and early 
1990s, I think, of the decision at 18, and we did get the 
assistance to Turkey.
    I think the discussions with those countries about whatever 
their plans are in Moscow obviously are being conducted by the 
State Department and I think the only comment I would like to 
make is I hope that they will think about how they can 
contribute to helping the Iraqi people get on their feet and 
build a better country; there is a great deal that they can do.
    I hope, for example, they will think about the very large 
debts that come from money that was lent to the dictator to buy 
weapons and to build palaces and to build instruments of 
repression. I think they ought to consider whether it might not 
be appropriate to forgive some or all of that debt so the new 
Iraqi government is not burdened with it.
    There is a great deal that they can do and I know we would 
welcome their help and I imagine the Iraqi people would welcome 
their help. This is a time to think about the future.
    Chairman Warner. I looked over your written statement and 
listened carefully to your oral delivery with respect to the 
United Nations, and you say the precise role of the U.N. will 
be determined through coordination with the Iraqi people 
themselves, coalition members, and U.N. officials. The 
Secretary of State said that they would be a partner. But it 
would be my hope, just speaking for myself, that the partners 
that would manage the early stages post-conflict would be those 
of the coalition nations, primarily the United States and Great 
Britain. Am I not correct in that?
    Secretary Wolfowitz. You are absolutely correct in that, 
and I think what we are trying to avoid is a situation that we 
have seen in other places in the world where Iraq might become 
a sort of permanent ward of the international community. There 
is no reason for that to happen. This is a country that has 
every capability of administering itself and handling basic 
functions, and I believe creating a viable government.
    The more quickly that happens, the better; and in the early 
stages when things like food and water and medicine and basic 
services have to be delivered, the coalition has a 
responsibility to make sure that that happens efficiently. So 
your description is exactly right, but we see the U.N. as a 
very important partner in that exercise.
    Chairman Warner. It is the coalition that will have to 
provide the basic security, indeed for a period of time the 
essential of a police force, in small towns as well as large 
cities. That could not be provided by the U.N. in any way.
    Secretary Wolfowitz. Certainly, it cannot be overseen by 
the U.N., I would say if the U.N. can help in places where it 
might be useful.
    Chairman Warner. You have stated those places very clearly 
where they can.
    Secretary Wolfowitz. Right.
    Chairman Warner. They will be a partner in that context.
    Secretary Wolfowitz. I would note, Mr. Chairman, we are 
hearing from the British that already some of the police are 
coming back to work in Basra and seem to be acceptable to the 
local populace. If that were to prove true, for example, that 
is the best kind of way to proceed.
    Chairman Warner. I think the employment of the clerics, the 
religious establishment, to help us has been an interesting 
chapter.
    Turning to the NATO, speaking again for myself, I had some 
misgivings about the last round. This time I am very 
supportive. One of the reasons that I have become a supporter 
is the doctrine, the niche doctrine, whereby these new nations 
each have some recognized capability that is needed by NATO 
right now. They cannot be expected to provide, and I have heard 
it described as, a 360-degree military, that is air, land, and 
sea forces; rather, that they should take and draw upon such 
expertise as they now have and have an interest in developing 
to contribute to NATO.
    Could you expound on that?
    Secretary Wolfowitz. Absolutely. I think General Jones 
alluded to the fact that we are no longer dealing in a world 
where the main requirement is for the large tank formations in 
the central plains of Europe to counter massive Soviet 
invasion. We are talking about generally much more agile and 
flexible and deployable forces.
    I was interested to learn that not only do the Romanians, 
for example, have some very capable Special Forces who deployed 
to Afghanistan, but apparently the Romanians were able to 
deploy them themselves, which was an interesting point.
    We see a great need for, unfortunately, chemical-biological 
protection capabilities. The Czechs are one of the countries 
that have a very real capability in that regard. I would note 
that the Czech Republic is one of our coalition partners that 
is actually participating in Operation Iraqi Freedom. So there 
are specific capabilities where small countries can make a big 
difference.
    Chairman Warner. Good. I thank you.
    General Jones, you and I have talked privately on this 
subject, and it is quite clear that the concept that NATO could 
provide, should we say, some security forces in the Iraq 
situation post-conflict is one that deserves consideration. 
There would have to be extensive political consultations 
between the NATO member countries.
    But in the event that the political consultations resulted 
in an expression of interest, you as the overall commander, 
could you give us today your opinion as to the capability of 
NATO to undertake such a mission if called upon by the North 
Atlantic Council (NAC)?
    General Jones. If tasked with the proper political 
guidance, as the Allied Commander my immediate challenge would 
be to respond very quickly with a number, a range of options, 
which is a traditional way of the modalities of NATO. Clearly, 
one of the advantages in the geographical context is the 
location of the conflict on the borders of NATO itself. 
Presuming the willing partnership of all of the nations, to 
include that of Turkey, you certainly have an appropriate route 
of advance into the region that we are talking about.
    NATO has a lot of capability that it can bring to bear, 
ranging from peacekeeping to humanitarian relief operations to 
stability operations. There could be any number of things that, 
given the proper legal and international support of the 
alliance, we could do militarily. I have submitted, in response 
to political guidance, a range of options for the possible 
employment of NATO forces in Afghanistan, as an example.
    So clearly the membership of the alliance is thinking in 
regional goals, in regional terms, and in global terms as well.
    Chairman Warner. I thank you, General. I think 
internationalism in both the Afghanistan AOR as well as the 
post-conflict Iraq is a very worthy goal to achieve and I 
think, should NATO decide to do it, it would provide a very 
valuable addition to internationalize that situation.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    General Jones, can you tell us whether or not the strains 
that exist at the civilian leadership level of NATO are felt at 
all in the military leadership?
    General Jones. Generally not, Senator Levin. The 
relationships among the member nations' militaries have been 
extraordinarily strong and consistent throughout, certainly 
throughout my brief period there. In consultation with General 
Ralston in my turnover with him he also expressed the fact 
that, even in difficult times where diplomatically or 
politically there is disagreement, the communications and 
dialogue between the member nations of NATO at the military 
level remain very strong.
    Senator Levin. Secretary Wolfowitz, President Bush and 
Prime Minister Blair have made a statement now twice that they 
plan to seek United Nations Security Council support of a post-
conflict administration for Iraq. I think there is great wisdom 
in that commitment, both in terms of creating worldwide 
confidence in such an interim government and also in sharing 
the burdens that the post-conflict reconstruction will place on 
all of us.
    Yet we continue to hear reports that the Department of 
Defense is somehow or other more reluctant than the State 
Department to provide that central role for the United Nations. 
Is there any accuracy in those reports?
    Secretary Wolfowitz. I would add that to a large pile of 
inaccurate reports, Senator. We agree very strongly that we 
need the U.N. We need the U.N. functional agencies that have 
historically played a very large role in things like refugee 
assistance and humanitarian relief. In fact, the World Food 
Program has already engaged what you alluded to as one of the 
most important functions, which is helping to mobilize 
international support for the Iraqi people. There are a great 
many countries that have indicated a willingness and desire to 
contribute, and of that a number have said it will either be 
necessary or at least desirable if it is part of a U.N. effort.
    The World Bank and the International Monetary Fund (IMF) 
can play important roles and, again, for them it is important 
that it have a U.N. endorsement.
    Senator Levin. Do you include in your comments U.N. 
endorsement of the interim government? Would you include that?
    Secretary Wolfowitz. Certainly that would be a desirable 
thing, yes.
    Senator Levin. Mr. Secretary, can you tell us how the 
Office of Reconstruction and Humanitarian Assistance is 
structured and how it will include Iraqi leaders?
    Secretary Wolfowitz. It is structured really in parallel 
with the various Iraqi ministries and it is set up to provide 
coalition advisers, and not just Americans. We are talking to 
the British, the Australians, and the Poles about contributing 
advisers as well, who would help in the initial oversight of 
the ministries, to figure out what changes need to be made.
    Our hope is that in some of the more basic ministries, like 
health or electricity, that the issue of Baathist influence is 
not going to be a major issue. Hopefully, they can be treated 
in a fairly technical way and be allowed to function and 
continue providing basic services to the Iraqi people. Our goal 
is to have as much of an Iraqi administration continue to 
function as is consistent with creating an atmosphere that is 
free and where people clearly understand that the terror 
apparatus of the old regime is gone. Obviously, there are 
certain ministries that have to be dismantled completely, but 
that is going to be the exception.
    Senator Levin. On each parallel office that we have, will 
any of those offices that are parallel to an Iraqi ministry be 
headed by an Iraqi?
    Secretary Wolfowitz. It might be headed by an Iraqi-
American, but our notion is that over time as it develops 
increasing competence and increasing legitimacy the Iraqi 
Interim Authority could have Iraqis appointed to head 
ministries, and that over time eventually you would have all of 
the ministries reporting directly to the Iraqi Interim 
Authority and run by Iraqis. But I think it is going to be a 
handoff kind of procedure.
    Senator Levin. General Jones.
    Secretary Wolfowitz. I guess I should emphasize, that is 
our notion at the moment. When we get on the ground, it will 
probably change.
    Senator Levin. General Jones, I noted something in my 
opening statement, and you and I have talked about this on a 
number of occasions. Namely, I have been concerned for a long 
time about the lack of a mechanism to suspend the membership of 
a NATO nation that somehow or other turns bad and no longer is 
committed to fundamental principles or values in the NATO 
Alliance--democracy, individual liberty, and the rule of law. 
We hope that will never happen and this in no way relates to 
the particular candidates for accession at the moment. But as 
the alliance gets larger and larger and grows to 26 nations, 
which we hope it will, the possibility that could some day 
happen increases just statistically.
    So the question is whether or not there should not at least 
be consideration for suspension of that member so that we avoid 
such a member having a veto over NATO operations. This question 
also relates to the question of consensus. We saw that problem 
relative to the defense of Turkey in recent months. Assuming we 
approve the enlargement, which again I think is likely and 
desirable, that consensus is going to be more and more 
difficult to achieve with the larger number of nations in NATO.
    Can you comment on whether or not it might be desirable to 
have some discussion about that increasing statistical 
probability?
    General Jones. The decision to embark on that kind of 
dialogue, of course, will be a political decision made by the 
leadership of the member nations. As the Allied Commander, it 
would be probably inappropriate for me to make a recommendation 
on that score, except to say that obviously as memberships 
expand and historical times change, it is useful, like the 
military is trying to do in support of NATO, to reexamine the 
basic foundations of the ingoing agreements to the way the 
alliance works.
    We are transforming the military capability of NATO. There 
is no question about the fact that it has to be done and there 
is a certain eagerness to do that. At the political level, our 
leaders will have to come to those kinds of decisions on their 
own for their own reasons in order to make sure that a very 
important institution has a functioning framework necessary to 
be successful in the 21st century.
    The penalty for any institution, military or civilian, not 
taking into account its relevance to the environment and the 
time that it is in is that it is subjected to the possibility 
of new alliances and new coalitions circumventing the framework 
for which the original institution was created, and that would 
be regrettable.
    Senator Levin. Thank you, Mr. Chairman.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Warner. Before you proceed, Senator. Mr. 
Secretary, this committee will require considerably more 
detailed explanations of, for example, the concepts that you 
currently have for the interim government, the responsibilities 
of General Garner and what the organization will be, and the 
overall management by the coalition partners for the time being 
of the post-war situation. We just need some documents.
    Secretary Wolfowitz. We can give you that for the record.
    [The information referred to follows:]

                Concepts for Interim Government of Iraq

    At present, there are several options for governing Iraq. There is 
much uncertainty regarding what will be left of Saddam Hussein's 
government by the time ORHA reaches Baghdad. The conditions that will 
evolve in the country following the arrival of ORHA are also very 
unclear. Due to this uncertainty, no single option for interim 
government has been settled upon.
    What is clear right now is that two initial steps must be taken, 
regardless of the ultimate choice. The first is to provide for the 
immediate needs of the populace: water, food, shelter, and medical 
attention. The second is to prepare the government ministries to resume 
operation. The latter step is necessary because, we believe, no one 
knows better how to run Iraq than the Iraqis, so it is the most likely 
path to success in the effort to establish a working government. It is 
also the most likely path to success in the first phase mission (the 
ORHA mission) which is to prevent the immediate post-war disintegration 
of Iraq as a state.
    Therefore, it is inevitable that the first step toward establishing 
any interim government will be the reconstitution of as many of Iraq's 
24 ministries as necessary. Each of these reconstitution efforts will 
have to be largely self-contained, reporting to ORHA leadership only as 
needed. Some mechanism will be required to ensure that reconstitution 
efforts do not inadvertently also reconstitute the Baath party's means 
of observation and control within each ministry. High level or 
important Baathi will have to be identified and replaced.
    Reconstruction efforts other than the reconstitution of ministries 
will largely concern the restoration of public services. At some point, 
those will have to be reconciled with the ministries that would 
normally oversee such services. However, that will not be necessary 
until the ministries are well on their way to full operation.
    The interim government, then, will be of at least two kinds. First, 
there will be an initial period in which the people are being cared for 
while the parts and pieces of a government are assembled. Then there 
will be a second period, in which the assembled parts are brought 
together under executive direction of some sort, and assume the 
functions of caring for the people. This executive body will have to be 
almost totally manned by coalition personnel, rather than by Iraqis, 
and it will not be representative of the Iraqi population at all. 
However, it might take advice from elders, clerics, and other popular 
or traditional leaders.
    Inevitably, an Iraqi executive will have to be designed by Iraqis, 
with coalition assistance. This might be done in the context of a 
national constitution. Any such executive design or constitution would 
have to be ratified in some manner before it could be implemented. This 
activity might take place during the second period.
    It is foreseeable that a third period of interim government might 
be required in order for the Iraqi executive to assume control from the 
coalition. Such a hand-off will likely require an impartial ``umpire,'' 
which might be some as yet unnamed multinational organization. The 
chief concern during this period will be validation of the checks and 
balances which will be needed to keep one Iraqi party or another from 
co-opting the government by obtaining control of important posts or 
resources.
    The duration of the first period is not entirely predictable, since 
it depends upon the progress in the ministries, and the rate at which 
the coalition can assemble the staff and equipment needed for the 
second period. However, the first period cannot be allowed to run on 
indefinitely, because there are important governmental functions that 
are not provided for in ORHA. For example, ORHA does not have any means 
of controlling entries into and exits from the country. Nor does it 
have any assets for establishing law and order. It cannot open (or 
close) Iraq's embassies and consulates around the world. Most 
importantly, it does not have a ``legal personality'' enabling it to 
enter into contracts on Iraq's behalf, which would be necessary for 
such things as selling gate times at Saddam International to commercial 
airlines. For these and other reasons, an indefinite stay in the ORHA 
phase is impractical. Even if little progress is made on other fronts, 
Iraq will soon require a real, if interim, government--probably within 
3 or 4 months.
    For the first period, ORHA will have a ``matrixed'' structure 
similar to large aerospace manufacturers. It will have three ``project 
managers'' who will draw support for their projects from three 
``resource pools.'' Specifically, the project managers will be 
directors in charge of all reconstruction activities in three 
geographical zones--north, south, and central. The resource pools, 
referred to in ORHA as ``pillars,'' are groups of experts assembled 
from all participating U.S. departments and agencies. There will be 
three pillars, differentiated by expertise between humanitarian 
assistance, civil administration, and reconstruction. The operations of 
this matrixed organization, and of the top ORHA management, will be 
supported by a team composed mainly of uniformed military specialists 
in deployments and overseas operations.
    The top ORHA management will be directed by Mr. Jay Garner, as the 
Interim Transitional Coalition Administrator. Mr. Garner's job will be 
to construct a strategy for the reconstruction and reconstitution 
effort across the entire country, in order to achieve the objectives 
set for him by the President. To construct this strategy, Mr. Garner 
will be obliged to synthesize the positions and plans of the various 
U.S. departments and agencies at work in Iraq, because ORHA was created 
to ``co-ordinate,'' rather than ``direct,'' those disparate positions 
and plans. As a result, he will be dependent upon the advice of the 
senior representative of each department or agency, and upon the advice 
of the heads of each of ORHA's ``pillars,'' and also upon the reports 
of the actual conditions encountered in the country by his three zone 
directors. If disputes develop between departments or agencies 
regarding the overall objective or a particular course of action, Mr. 
Garner is not empowered to resolve these by fiat. Instead, resolution 
will be achieved through the inter-agency process, under National 
Security Council guidance.
    Mr. Garner will interface directly with ORHA participants seconded 
from other coalition countries. These coalition partners most likely 
will be seconded for specific purposes, and so Mr. Garner will not have 
to decide where or how to employ them. The choice to accept or decline 
partner participation will not rest with Mr. Garner, since it is not an 
ORHA issue but rather a coalition issue, related to the whole of U.S. 
foreign policy. Likewise, if a difference of opinion develops between 
Mr. Garner and a partner representative to ORHA, Mr. Garner will refer 
it to the inter-agency process for resolution. This is the way that 
CENTCOM presently handles relations with partners on the military side 
of the coalition, which is longstanding. The result is that operational 
matters are discussed and handled at the coalition headquarters in 
Tampa, Florida, while disputes over coalition management are handled 
through diplomatic channels in Washington. ORHA will operate as a 
coalition instrumentality in much the same way.
    Mr. Garner will represent the ORHA mission to the Iraqi people and 
to the world at large, but he will not be a functioning head-of-state. 
He will not assume control of coalition troops in Iraq and he will not 
have any of the other powers normally associated with a head-of-state. 
(He will not be able to enter into treaties or international agreements 
on Iraq's behalf, for example.) Coalition troops will remain under the 
control of U.S. Central Command, and ORHA will remain subordinate to 
Central Command, for security and safety purposes. Reconstruction and 
reconstitution issues will not fall under the purview of Central 
Command. They will be dealt with within the ORHA structure, or raised 
to the inter-agency process. The two areas of operational overlap 
between Central Command and ORHA will be the deployment and operation 
of ``security forces'' such as Military Police, and those of ``Civil 
Affairs'' units. ORHA and Central Command will have to reach agreement 
regarding the optimal sharing of these resources.
    When it is clear that Iraq, as a state, will not disintegrate, and 
when the ministries are reconstituted, or nearly so, ORHA will be 
modified into a larger organization that can address functions that are 
characteristic of a true government. This follow-on organization should 
be a multi-national effort, possibly along coalition lines. Its 
headquarters must be far more robust than that of ORHA, since it will 
have to address the full spectrum of international relations and 
internal operations.
    While the exact design of this interim governmental authority are 
not yet clear, it will likely have to oversee the rebuilding of an 
Army, Air Force, and Coast Guard capable of deterring aggression 
against Iraq. (Security for Iraq during this interim will remain 
CENTCOM's responsibility.) It will also have to impose control over 
ports, airports, border crossings, and the border areas, generally, by 
rebuilding an immigration and border patrol service. International 
postal, telephone, and telegraph service will have to be restored. 
Another part of the ``authority's'' effort will have to be directed 
toward issuing passports and visas, and reopening Iraqi consulates for 
that purpose. It will also have to continue reconstruction and 
reconstitution efforts started by ORHA, and broaden them in some cases. 
The ``top down'' government structure used by Saddam to impose control 
at the provincial and municipal levels will probably have to be 
replaced. The economy and fiscal design of the country will also 
require overhaul.
    The ``authority'' will most likely not have a matrixed shape like 
ORHA, but will attempt to carry out most of the above-mentioned reforms 
through the ministries. Therefore it can be expected to feature a very 
robust top management section, and a structure to apply close 
supervision and assistance to the pertinent ministries.
    As mentioned above, during this phase an effort might be made to 
encourage the Iraqis to design their own executive ``authority,''--or 
perhaps even to design their entire government, in the form of a 
national constitution. If this is undertaken at this point, the top 
management section will require an office to facilitate meetings of the 
Iraqis who will be involved in the design, and a separate office to 
present to the Iraqi members of the design team a coalition point of 
view. The facilitation office will have to be much more than a simple 
secretariat, since it can be expected that long-standing anti-
democratic parties will put themselves forward as candidates to 
participate in this discussion. The process of selecting thoughtful, 
democratically-minded, pragmatic participants who are not motivated by 
self-interest will be very challenging, and is likely to require many 
man-hours of research, travel, and discussion. The selection, since it 
would not be done by Iraqis, would also require a great deal of 
explanation to the Iraqi public if it is not to be seen as self-
contradictory. This explanation will, of necessity, rest on the nation-
wide ratification process, which the coalition ``authority'' must 
underwrite.
    The actual hand-off of government from the coalition to Iraqis can 
be done in a graduated way--ministry by ministry--or it can be done all 
at once. If it is graduated, the last ministry to be handed off will 
likely be defense. The Iraqi armed forces would be place under the 
operational control of CENTCOM from the time they first returned to 
operational readiness to the last moment of hand-off. That will permit 
CENTCOM to establish their dispositions and support arrangements to 
adequately defend the country while the defense ministry concentrates 
on its transition to Iraqi control. The graduated hand-off provides an 
opportunity for coalition tutelage while the Iraqis actually begin to 
operate their government themselves.
    If the hand-off is done all at once, certain conditions will have 
to be met before that can occur, and a third party will be required, in 
order to avoid misunderstandings or charges of ``foot-dragging'' or 
abandonment on the coalition's part. Most importantly, there must be a 
ratified constitution that describes how Iraqis will govern themselves 
at the national level. As a minimum, the defense, justice, foreign 
affairs, finance, and oil ministries must be fully competent. The Post 
Office must work reliably. There must be a transparent government 
budget and a transparent budgeting system in place. A system of 
tariffs, taxes, or other revenues to make up the budget must be in 
place. The financial and aid arrangements with foreign countries and 
institutions, which are needed to keep the budget working, must be 
fully worked out. A national banking system and adequate currency must 
be in place. All border disputes with neighboring countries must be 
resolved. The governments of each province and each city must be in 
place and have a means of collecting sufficient revenue to operate. A 
head-of-state must be ready to assume office. A list of these and 
similar requirements would be submitted to the third party, negotiated 
with Iraqi representatives, and then used as indicators for when the 
coalition should be prepared to disengage.
    For an all-at-once disengagement, the third party should be agreed 
upon by both the coalition and the Iraqis. It could be a single 
country, a multi-national organization such as the OSCE, or one of the 
non-governmental organizations that specialize in elections or 
bilateral arbitration.

    Chairman Warner. Your testimony is a very helpful start, 
but we will aid you in exactly the information we need.
    Secretary Wolfowitz. Okay.
    Chairman Warner. I thank the Senator for allowing me to 
make that comment.
    Senator Inhofe. Thank you, Mr. Chairman.
    I thought it was very appropriate, the George Washington 
metaphor, Mr. Secretary. Senator Allen's brother pointed out 
another one that I think is worthwhile putting at this time; it 
is Isaiah 21, verse 9: ``The Lord said, Babylon is fallen, is 
fallen, and all the carved images of her gods he has broken to 
the ground.``
    I have three questions real quick for rather brief answers, 
and anyone can respond. This is the one I always do ask, and 
that is the end strength problem that we are facing right now, 
with some 35,000 troops in Korea, with of course Kosovo, 
Bosnia, Afghanistan, and then more will be committed here. What 
does that look like in terms of what you would look for in the 
future for a future force structure and maybe a realignment? 
Any comments on that? How does the Guard and Reserve figure 
into this?
    Secretary Wolfowitz. I think Secretary Rumsfeld has been 
pushing all of us to look in a fundamental way at whether the 
footprint that we have, which is in many ways a legacy from 
what we had 20 or 30 or 50 years ago in some cases, is the 
right footprint for where we should be even before we had 
Operation Iraqi Freedom, and now of course in the post-Saddam 
world it has changed considerably.
    There are a lot of questions that arise in the case of the 
European theater. General Jones is looking at a number of 
ideas. The new Korean government has actually spoken openly 
about the desire to look at how we are structured in Korea and 
there are a number of ideas that we are discussing with them.
    I think one of the things that we have just finished 
demonstrating in Afghanistan and now again in Iraq is that the 
kinds of forces you need in the 21st century are structured 
very differently from the relatively heavy, relatively 
manpower-intensive forces that we have had in the past. So I 
think the first place we are going to look is to how we can 
accomplish our goals and meet our security commitments without 
as much use of personnel, because clearly the current posture 
is straining our people a great deal. It is making heavy use of 
the Guard and Reserve--very heavy use.
    Senator Inhofe. That is my point, Mr. Secretary and General 
Pace. Would you have any thoughts along those lines? You guys 
are real close to the Guard and Reserve in all of the 
deployments we have had.
    Secretary Wolfowitz. They have been magnificent, by the 
way.
    Senator Inhofe. I know they have been great, but can you 
continue that? Can the employers continue? Any comments on 
that, General Pace?
    General Pace. Sir, thanks. The Guard and Reserve have been 
magnificent and we are relying very heavily on them. As you 
would expect, the Joint Staff has been doing some long-range 
planning and assessments of the size of the force and whether 
or not all the missions that we currently are conducting around 
the world plus Iraq were doable. We assessed to the Secretary 
that they were.
    I would repeat very quickly that obviously there is still a 
great deal of work left to do in Iraq. But yesterday, 3 weeks 
into the battle, when Baghdad for the most part had fallen, the 
total ground force on the ground was 100,000, give or take, 
U.S. and about 20,000 coalition. The reason I say that is 
because all of that was well within the planning estimates that 
we used.
    So we do believe that current missions and projected future 
missions are well within the scope of what we have. However, we 
do need to take a very hard look at the Reserve-active mix and 
how much we are going to rely on Reserves in the future, 
because Reserves should be just that, Reserves. They are great 
Americans and they are willing to do what we need them to do, 
but we need to not continually go to that well if we can design 
ourselves better for the future.
    Senator Inhofe. That is exactly the point. General Jones, I 
think you have probably been more outspoken in the 
restructuring of the European forces and facilities. Any 
comments there on how creative and active we are going to be in 
trying to do something there?
    General Jones. Senator, thank you for that question. I 
think there is great optimism in this moment in time to not 
only do some transformational thinking with regard to how our 
forces are based and utilized, but to also reshape the force so 
that it is of greater utility and draws from a fuller plate of 
available assets that are not only located in our forward bases 
in Europe, which are critically important. In support of 
Operation Iraqi Freedom, the European Command is the supporting 
command and without those interim bases for throughput and 
being able to deploy the forces that we have, we would have 
been hard pressed to do as well as we have in as short a time.
    Having said that, I think that the post-conflict period 
will see our European basing evolve into a series of bases that 
are the main operating bases, which are strategically relevant 
to what we need in the 21st century that currently exist.
    Senator Inhofe. I will actually ask these questions, the 
first one of Secretary Wolfowitz. You can answer for the 
record. Would it be advisable, if this restructuring is going 
along, to delay the realignment and all the things we are 
talking about doing in the United States until we find out what 
this is going to look like overseas?
    [The information referred to follows:]

    Yes. A review of global footprint is intimately tied to an 
assessment of post-war strategy and capabilities, and the Department is 
currently examining its overseas basing in light of new circumstances. 
The Department also continually updates its force posture and 
activities so that they align with the Defense Strategy. An increasing 
reliance on the Guard and Reserve for certain elements of the strategy 
is an acknowledged part of that.

    Senator Inhofe. The second question I would like to ask to 
be responded--you can respond for the record if you would 
like--is, all the dancing in the streets and the things we went 
through, and I am so proud of all of our troops and of the 
Brits and what they have done. It is just, just really 
remarkable. Since we are the ones mostly responsible for it, I 
think that Senator Levin brought up a very good question and 
there are a lot of things in the press about who would be most 
responsible for the reconstruction of the post-war Iraq.
    I might suggest that we can satisfy both sides. It can be 
done, supervised, and performed by the United States and Great 
Britain and have the cost of it deducted from our United 
Nations dues. You can respond for the record on that.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

    We will pursue the reconstruction issue in several ways. We will 
appropriate funds for our own bilateral effort in support of a wide 
range of programs. We will also launch a major international effort, 
involving many countries. A number of countries have already expressed 
interest in supporting such an effort.

    Chairman Warner. Thank you, Senator.
    Senator Byrd.
    Senator Byrd. Secretary Wolfowitz, both you and Secretary 
Rumsfeld have issued stern warnings to Syria in recent days to 
stop sending military supplies to Iraq. You said on a Sunday 
talk show that, ``Syria will be held accountable for actions it 
is taking to support the regime of Saddam Hussein'' and that 
there has to be a change in Syria as well. Just yesterday, I 
believe, Secretary Rumsfeld said that Syria is continuing to 
send supplies to Iraq and senior Iraq officials are fleeing to 
Syria.
    What are you implying by these comments? I ask the same 
with respect to Secretary Rumsfeld.
    Secretary Wolfowitz. Senator Byrd, only that there is a 
problem there. The Syrians are behaving badly. They need to be 
reminded of that. If they continue then we need to think about 
what our policy is with respect to a country that harbors 
terrorists or harbors war criminals or was in recent times 
shipping things to Iraq. It is very dubious behavior and by 
calling attention to it we hope that in fact that may be enough 
to get them to stop.
    Senator Byrd. What discussions are under way in the event 
that that is not enough?
    Secretary Wolfowitz. I would say so far we are just keeping 
an eye on them, hoping their behavior will change.
    Senator Byrd. Does the Defense Department intend to take 
any action against Syria to stop the movement of goods and 
people across the border with Iraq?
    Secretary Wolfowitz. Senator, that is not a decision the 
Defense Department makes. That is obviously, if we are talking 
about action against Syria, would be a decision for the 
President and Congress. We are taking action inside Iraq to 
stop both the exit and the entry of dangerous people and 
dangerous goods.
    Senator Byrd. Are there any plans to send any U.S. forces 
into Syria?
    Secretary Wolfowitz. None that I know of, sir.
    Senator Byrd. I wish to expand on some of Senator Levin's 
earlier questions about the role of the U.N. It is increasingly 
clear that rehabilitating Iraq will be an arduous and expensive 
endeavor. It would seem to be in our best interests to share 
this burden with those who are willing to assist us. The United 
Nations seems to be clamoring for a role in post-war Iraq. So 
far the administration has only made vague assurances that 
there will be a role for the U.N.
    Once the military action is complete and if we do not have 
broad international assistance, the United States will find 
itself thrust into the position of undertaking the most radical 
and ambitious reconstruction of a country since the occupation 
of Germany and Japan after World War II. It will be costly, 
both in terms of financing and of manpower. It will mean a 
significant sacrifice by the American people, a sacrifice that 
will be even larger if we turn away offers of assistance from 
the U.N.
    Should we not jump at the chance, Mr. Secretary, to include 
the U.N. with all of its nation-building experience in our 
coalition of the willing for a post-war Iraq?
    Secretary Wolfowitz. Senator, we would jump at the chance, 
we do jump at the chance to have the U.N. participate and 
assist. Let me say one thing, too. When we use words like 
``reconstruction'' and ``rehabilitation,'' we think of it as a 
post-war phenomenon. I think we are already discovering that 
most of the rehabilitation that is needed in Iraq is needed 
from 30 years of a tyrant who spent the country's money on 
other things.
    Senator Byrd. I understand that.
    Secretary Wolfowitz. But it is a big job, and our goal, our 
desire, is to have that job taken over as quickly as possible 
by the Iraqi people, with as much international assistance as 
possible. Clearly, the U.N. is a very important vehicle for 
mobilizing that assistance and we hope the U.N. will play that 
role.
    I do not think we want to see a situation like we do in 
Bosnia, for example, where 8 years after the Dayton Agreement 
and the U.N. is still running Bosnia. We want to see a 
situation where power and responsibility is transferred as 
quickly as possible to the Iraqis themselves.
    Senator Byrd. Why is the United States being so coy with 
respect to U.N. entreaties for a substantial role in 
rehabilitating Iraq beyond just providing food and medicine?
    Secretary Wolfowitz. Senator, we are not clamoring for an 
American role and we are not being coy about a U.N. role. We 
are talking with the U.N. about what its role can be. As I have 
said repeatedly, we think it has an important role. We would 
like it to be playing that role as quickly as possible.
    In fact, we welcome the fact that the U.N. has already 
passed one resolution to extend the Oil for Food Program for 45 
days to continue its functioning in Iraq. It has a very 
important role to play and we are talking with them actively 
about how to do that.
    Senator Byrd. Do we have a coalition of the willing to 
contribute to our Iraqi reconstruction or just a coalition of 
the willing to let the United States handle reconstruction 
virtually alone?
    Secretary Wolfowitz. I think we actually have a larger 
coalition of the willing to participate in reconstruction than 
we did in the actual combat. That is hardly surprising. There 
are a number of countries that have already stepped forward and 
said they want to contribute, some with stability forces, some 
with money, some with both. There are a great many things that 
countries can do. As I noted earlier, there is an enormous 
amount that those three countries who are meeting in Moscow can 
do in the financial area.
    Senator Byrd. What have our friends and allies pledged to 
contribute to the reconstruction of Iraq?
    Secretary Wolfowitz. So far we are still in the early 
stages of that. I think some people were, frankly, a bit taken 
by surprise by the images they saw on television yesterday. I 
think it is already changing the way people think about this 
issue.
    We are going to be pressing all of our friends and allies 
to contribute as much as they can, and I think when they 
realize what the Iraqi people need and deserve I think they 
will be very generous.
    Senator Byrd. I see my time is up, but let me urge you to 
pursue this course, Mr. Secretary.
    Secretary Wolfowitz. Senator Byrd, I agree emphatically. I 
will claim, a little bit on a personal level, that in 1990 it 
was my office that said we ought to be going to allies to get 
contributions to Operation Desert Shield and what later became 
Operation Desert Storm, and that was a spectacularly successful 
effort in raising international support. It was a lot harder 
this time because of the political controversy.
    I think as people realize what is taking shape in Iraq, 
realize what is at stake in Iraq, and realize what the Iraqi 
people need we will be able to do much more than we could in 
the last 6 months.
    Senator Byrd. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Warner. We thank you, Senator Byrd, particularly 
for that inquiry regarding Syria. I think that is extremely 
important.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    The problem with the United Nations, as I see it in a post-
Iraq situation, is they have had it wrong from the beginning. 
We had to push them, push them, push them when their own 
resolutions were in violation. During this whole 12 years or so 
after the first Gulf War, we have had an embargo that has hurt 
the people of Iraq every year, but yet the United Nations and 
none of us have been able to figure out a way to break that 
cycle that would continue indefinitely, it seemed.
    So they are not able to make good, quick decisions. It 
tends to be a lowest common denominator organization. I 
certainly hope we can work with them. I hope the United Nations 
can learn from this process, but direction or approval or 
endorsement of what we do now to try to liberate, improve, and 
help this country become a great nation again is something that 
I am dubious about, Mr. Secretary. So we have some disagreement 
around here about that.
    I do not know if you would like to comment.
    Secretary Wolfowitz. I think the Chairman captured it 
correctly. The U.N. can be an important partner and I think it 
is in fact a chance to demonstrate that it can play a much more 
positive role in the future than, as I think you have correctly 
noted, it played in the past. I hope it will and I think there 
is reason to think that it can and will. But it cannot be the 
managing partner. It cannot be in charge. We need to make sure 
that certain functions are working smoothly from day one, and I 
think the goal should be to pass that responsibility as quickly 
as possible to the Iraqis.
    As I noted earlier in talking about Jay Garner--General 
Jones can speak personally to this--one of the most successful 
examples I know of of transferring responsibility directly to 
the people involved was in northern Iraq in 1991, and that was 
entirely a coalition of the willing working with indigenous 
Iraqis.
    Senator Sessions. If we were to give a leadership role to 
the U.N., would not that action be subject to a veto by France 
or Germany or any other Security Council Member, China or 
Russia perhaps, at least the fundamental plan?
    Secretary Wolfowitz. I think we would have to come to an 
understanding with the U.N., including obviously the members of 
the Security Council, on what that U.N. role will be. I hope 
again that we can get some of the past behind us in this regard 
and focus on what needs to be done, and I hope France will see 
it that way also.
    Senator Sessions. I hope so, too, although in terms of the 
situation with France I think their actions have been so 
egregious and so serious, subjecting American soldiers and 
Iraqi people to more risk than would otherwise have been the 
case, that we cannot just lightly walk away from that. There is 
going to have to be some serious long-term discussions about 
fundamental issues. Just to meet together next week and shake 
hands and act like it did not happen, I do not think you would 
agree that that is possible, for great nations to act in that 
way.
    Secretary Wolfowitz. I agree the French have behaved in 
ways, particularly since we are here to talk about NATO, that 
have been very damaging to NATO. I think France is going to pay 
some consequences, not just with us but with other countries 
who view it that way. But I do not think we want to make the 
Iraqi people the victims of that particular quarrel.
    Senator Sessions. Well said.
    With regard to the NATO expansion and the unanimity rule, 
Senator Levin and I back in 2000 asked Secretaries Feith and 
Grossman about this and what was going to happen. I asked, as 
we expand NATO does not that add to a limitation on our ability 
to put together a coalition that fits the mission? Secretary 
Grossman said: ``But NATO would have to decide as a group, yes, 
we are going to take on that mission, and then it would fall to 
General Ralston to carry out that mission with a group of 
countries that would be interested in doing so.'' A coalition 
of the willing, I assume he meant.
    Then Secretary Grossman said: ``We believe that if the 
countries are in NATO that they signed up to these values, that 
they will in the end do the right thing. As I say, that has 
been our practice, it has been our experience, really for 50 
years.'' He said: ``You and Senator Levin might be right and we 
may all be here 5 or 6 years from now with a big problem on our 
hands.''
    So it looks like we do have a problem. First of all, 
General Jones, could you tell us--maybe General Ralston--what 
is this unanimity or consensus rule that we have in NATO? Could 
one nation block anything that is done? Do we not have to 
confront that? If we leave any one of 20-some odd nations with 
the ability to say ``no'' to any action, does that not really 
require us to go around NATO and have other operations, thereby 
undermining NATO?
    Secretary Wolfowitz. If I could say a couple things. With 
all respect, I do not think it is a statistical problem. If we 
had added seven new countries, we would have found ourselves in 
a situation, instead of 18 to 1, it would have been 25 to 1. 
There is a special problem in NATO. We have had work-arounds 
for it in the past. It was called the Defense Planning 
Committee to meet at 18, or I guess it was 15 originally. We 
have revived that mechanism. There are mechanisms for dealing 
with the absence of consensus.
    This is a very legitimate question that we need to think 
about and talk about and confront. But there are some virtues 
in the consensus principle before we throw it out. It is not 
the small countries generally that have raised problems. I 
think the consensus principle is important because it gives 
them a feeling that they have a voice. But most of them 
understand that their voice is not a dominant voice, and at the 
end of the day I think when NATO has needed to act it has been 
able to achieve that consensus.
    When it has not achieved that consensus, it has 
nevertheless provided a very important mechanism for members to 
achieve things. I do not believe that we would be operating as 
smoothly with our British allies in Iraq today if it were not 
for all the mechanisms that are worked on a daily basis through 
NATO.
    One has to stop and think whether if you give up the 
consensus principle, are you ultimately going to have a lot of 
countries saying, ``Well, wait a minute, NATO has just made six 
decisions, I was in the minority on every one, why am I still a 
member of this organization that purports to act in my name?''
    So it is not simple. The French have created a big problem 
and we need to think about how we deal with it. But as I said 
in my opening statement, we have had problems in this 
organization over decades and yet it is correctly described as 
the most successful alliance in history.
    Senator Sessions. General Jones?
    General Jones. The Secretary said it all and said it 
correctly, sir, in my view. Thank you.
    Senator Sessions. It is a wonderful alliance. It has done 
great things. We certainly need to strengthen it, not undermine 
it. But if nations go off on their own as we have seen here, it 
does jeopardize the trust that is essential for its success.
    Chairman Warner. Thank you, Senator.
    Secretary Wolfowitz. You are right about that, Senator.
    Chairman Warner. Thank you very much.
    Senator Bayh.
    Senator Bayh. Let me begin by thanking the Generals for 
your service to our country. I hope you will convey our 
appreciation to the men and women in the Marine Corps for the 
valor that they have demonstrated these last several weeks. We 
have, unfortunately, lost a couple members of the Corps who are 
from Indiana and we honor their service. I hope you will convey 
our sentiments to everyone.
    Having said that to the Generals, I hope you will not feel 
slighted if I direct my questions to the Secretary. Mr. 
Secretary, I hope you will not feel slighted, either. I have 
four or five questions and I have only 5 minutes, so I am going 
to try and be succinct, and I appreciate your efforts in that 
regard as well.
    We have had a lot of discussion, Mr. Secretary, about the 
role of the United Nations. We have had some experience with 
the U.N. in other jurisdictions on activities somewhat similar 
to this, in Haiti, for example, in Bosnia, and some other 
places. Could you give us your opinion about the experience 
that the United Nations has had in some of these other 
jurisdictions and to the extent that that experience reflects 
upon their competence and, therefore, the credibility that they 
will have or not have in undertaking similar functions in Iraq? 
The reason I raise this question is I am told that their past 
experience has not been terribly confidence-instilling.
    Secretary Wolfowitz. Some of those are extremely hard 
cases, on the other hand. I think every case is different. 
Kosovo remains indefinitely under a U.N. administration that 
people are not enormously happy about, but we do not know what 
the solution is because no one is willing to--and I am not 
saying I am either--face up to what is the political future of 
Kosovo.
    The U.N. took on an impossible task in Cambodia. I would 
not blame the U.N. for failing. The U.N. has a very difficult 
chore in East Timor. I think it is doing that reasonably well.
    Senator Bayh. There is the headline from this hearing, Mr. 
Chairman. There is the headline: ``Wolfowitz Defends U.N.''
    Secretary Wolfowitz. No, I am trying to defend the Iraqis. 
I keep coming back to this example of northern Iraq because it 
was spectacularly successful. The Iraqis have demonstrated in 
very difficult circumstances some ability to manage their own 
affairs. It is a sophisticated country with organized 
ministries for delivering things that did not even exist and 
may never exist in Bosnia.
    So we do not want to reproduce a Bosnia model or a Kosovo 
model or an East Timor model. We want to go on a model that 
moves as quickly as possible from efficient delivery of 
services by the coalition to a government that is Iraqi.
    Senator Bayh. So just as circumstances in Iraq are unique, 
so too the role of the U.N. in Iraq should be specific to the 
conditions there?
    Secretary Wolfowitz. I think so, and it can be huge, but it 
is not to manage the place.
    Senator Bayh. My second is not really a question. It is 
just an observation or a suggestion. If I were in your shoes, I 
would be giving a lot of thought, as we transition in this 
process and include others in it, to how to incorporate as 
quickly as possible some security forces from another Islamic 
nation that shares our approach with regard to Iraq. I think 
that would send a very powerful signal, whether they are from 
Morocco or Jordan or another country. That would send a very 
powerful signal to the Iraqis that this is not a clash of 
cultures, that we are there truly for the reasons that we have 
espoused. That is just an observation I would make.
    Secretary Wolfowitz. Actually we have two Muslim majority 
countries already in the coalition, Albania and Azerbaijan.
    I would not jump to conclusions right away about how the 
Iraqis feel about other Arab countries. We are going to have to 
see how that sorts out. But I think from our own purposes, our 
own image internationally, and our image in the Arab world, 
your point is very important and we would like to see as much 
participation from Muslim majority countries as possible.
    Senator Bayh. Mr. Secretary, you have fielded some 
questions about Syria. I would like to follow up on that with 
regard to both Syria and Iran. It is possible that neither one 
of those two nations will want us in the neighborhood for very 
long. Syria, as has been discussed, has had material coming 
from it into Iraq, perhaps some Iraqi individuals going into 
Syria. People have transited through Syria into Iraq for 
purposes of fighting our forces.
    Iran, there have been suggestions that they have supported 
the Ansar Al-Islam group in northeastern Iraq. They have been 
long-time supporters of Hezbollah and so forth.
    I would like to ask about your concern that either the 
regime in Syria or Iran might be supportive of either 
indigenous or outside groups with links to terrorist 
organizations that might perpetrate acts such as in Lebanon for 
the purpose of driving us out of the country. Is that a 
significant concern of yours?
    Secretary Wolfowitz. It is a concern. In fact, the concern 
we are raising about Syria is that in recent days the Syrians 
have been shipping killers into Iraq to try to kill Americans. 
We do not welcome that. We have stopped it when we found those 
people. So it is a problem.
    I think it is important that Iraq's neighbors not meddle 
with Iraq. We have had very clear discussions with Turkey, 
which has very legitimate concerns about northern Iraq, and the 
Turks have behaved themselves very well. But Secretary Powell 
was just on the phone this morning with Foreign Minister Gul to 
assure the Foreign Minister that there was no need for a 
Turkish intervention because we were looking after the proper 
conduct of people in the city of Kirkuk, for example.
    I think it is important for Iraq not to become a threat to 
its neighbors, as Turkey is concerned. It is even more 
important or equally important that its neighbors not try to 
undermine Iraq and destabilize it.
    Senator Bayh. It is troubling when there are public 
statements from the Islamic Jihad organization, headquartered 
in Damascus, that they have individuals in Baghdad willing to 
commit acts of terror. Some reports that some at least loosely 
affiliated with Hezbollah have come into Iraq, with the 
longstanding ties of both Iran and Syria to that organization. 
So I am glad you are keeping your eye on this.
    The one final thing I would mention, Mr. Secretary, is that 
as Islamic charities become involved in trying to provide 
assistance to the people of Iraq, as you are probably aware, 
there are some of those entities that have at least funding 
ties or have been used, wittingly or unwittingly, to fund 
terrorist organizations. That probably is something we should 
keep our eye on as well, which charities come in, how they are 
involved, that sort of thing.
    Secretary Wolfowitz. You are absolutely right about that. I 
think we all have a tendency to think that ``NGO'' means good, 
and the truth is there are some NGOs like this World Assembly 
of Muslim Youth or Al-Haramein which have very disturbing ties 
to al Qaeda and terrorist organizations. We cannot just say 
anybody who is willing to come and spend money inside Iraq is 
welcome. I think they have to be people who are committed to 
supporting a peaceful and free and democratic country.
    Senator Bayh. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator, for your 
very good questions.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. Before I start my 
questions, I had a delegation from Bulgaria yesterday visit 
with me. There was the ambassador and representatives from the 
four major parties in Bulgaria. I just wanted to thank them in 
a public way for their support, as well as support from other 
Eastern European nations, during our standoff at the United 
Nations in regard to the Iraq issue.
    I am trying to understand more fully some of the 
motivations between France and the position that they have 
taken. They are only a member of the alliance with NATO and 
they are not a part of the military structure. What advantage 
does this give France? I wondered if maybe you, Secretary 
Wolfowitz and perhaps General Jones, could give us some insight 
on that.
    Secretary Wolfowitz. Let me ask the General to address the 
details of it, if he might.
    General Jones. I think a little history might be in order. 
Back in 1996-1997 timeframe, there was some active discussion 
going on where, if I recall correctly, France was actively 
considering military integration into NATO. This did not 
materialize because of the fact that there was no agreement 
reached on the regional command that France wished to obtain. 
So the consummation of that reintegration was not achieved.
    But the French military has been occupying a number of 
positions at Supreme Headquarters Allied Powers Europe (SHAPE) 
since those days and is actively involved in virtually all 
aspects of military planning that SHAPE headquarters responds 
to to the senior headquarters at NATO in Brussels.
    So the answer to your question in general is that France 
plays roughly the same role in formulating military positions 
in response to taskings from the North Atlantic Council as does 
any other member nation.
    Senator Allard. Secretary Wolfowitz.
    Secretary Wolfowitz. I think we need to look very carefully 
at where France is benefiting from a one-way street where they 
benefit and do not contribute. It was called to my attention 
the other day that the French were making great claims for what 
the EU was doing in Macedonia and did not bother pointing out 
that the EU would not be able to act in Macedonia without NATO 
support.
    We have supported the idea of strengthening this European 
defensive entity, which is one of the favorite projects of 
France, on the idea that doing so would strengthen NATO and not 
undermine NATO. I think we need to have a look at that and make 
sure that that is still the case if that is the way the French 
want to treat the alliance.
    Senator Allard. General, would you want to elaborate on 
what ways France's unique role complicates NATO's military 
planning?
    General Jones. I do not think it complicates our planning. 
I should probably emphasize that in the case of both France and 
Germany throughout Operation Iraqi Freedom we have enjoyed 
access to the air space of France on a continual basis and all 
of the basing and basing requirements that are required for 
throughput in Germany. In Germany's case, German armed forces 
have contributed significantly and very capably to the force 
protection measures at our bases. It is perhaps an example of 
how military to military cooperation continues in most 
circumstances.
    But I am not aware of any, other than the fact that all 
nations at SHAPE headquarters are represented appropriately in 
accordance with the wishes of the North Atlantic Council. There 
is great value in having all different views come to the 
military table in planning an operation. So the construct of 
what countries are represented and how they are represented is 
one that is handed down to us, not one that we shape.
    Senator Allard. Secretary Wolfowitz, the media was 
reporting about a month ago that Lord Robertson, NATO Secretary 
General, would support that the NATO alliance be given a role 
in Afghanistan and that the administration was supportive of 
that suggestion. Sharing the responsibility seems to make 
sense, given the mission our military is currently undertaking.
    Has the administration decided whether to hand NATO this 
new responsibility in Afghanistan?
    Secretary Wolfowitz. It is not a matter of handing NATO the 
responsibility, but looking to NATO to play a supportive role. 
NATO is--and I ask General Jones to elaborate on it--
contributing in the planning mechanism to helping the Germans 
and the Dutch manage their leadership of the International 
Security Assistance Force (ISAF) peacekeeping force in Kabul, 
which is a crucial role.
    I think it is possible, although I guess I am leaping ahead 
here, as we look at expanding the notion of provincial 
reconstruction teams, which is a way of trying to extend the 
reconstruction-civil affairs presence out into key cities, that 
we are looking for coalition participation and that might be 
another opportunity for NATO, or at least NATO members 
individually, to play a role.
    Senator Allard. France and Germany have been supportive of 
the NATO mission in Afghanistan?
    Secretary Wolfowitz. France has actually made some 
significant contributions in Afghanistan and I think that we 
should note that. The French on a bilateral basis frequently do 
things with us that they then do not support in NATO. I think 
General Jones has referred to this earlier. If we just looked 
at our military relationship, you would get a reasonably 
healthy view of things. It is the politicians I guess that we 
have an issue.
    Senator Allard. Mr. Chairman, I see my time has expired. 
Thank you.
    Chairman Warner. Thank you for your contribution, Senator, 
very much.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    At this point in time, no matter how many times the 
question has been answered, I have not asked it. Mr. Secretary, 
I am very intrigued by the idea of a new relationship that 
would develop a coalition to where the United Nations can have 
a role in Iraq, but also NATO and other supportive nations 
could have a role, too, in the reconstruction of Iraq.
    I am intrigued by that because I think that probably is the 
new model that for this particular situation will work to 
establish, if you will, credibility in the area, but world 
credibility as well, which I think is important, nearly as 
important but not as important as the success, because success 
will also help that credibility.
    France may see a new world geopolitical order and they 
could very well be right. It may or may not involve them, but I 
hope that we do not try to exaggerate the quarrel that we have 
with France at the moment. But they may be seeking a new world 
order and they may be less a part of it than they might 
imagine.
    That being the case, as we move forward I really hope that 
the role of NATO can be a significant part of the effort to 
reconstruct Iraq. The former Soviet satellite nations that will 
be part of NATO as it is expanded have some experience in 
rebuilding civil society from a change in their government 
direction not that long ago. I think they could provide a great 
deal of support in that effort.
    Do you think that this model that is being talked about, 
although it may turn out to be different once we are on the 
ground will be the precursor for a new world order of 
relationships down the road, or is that too futuristic a 
question at the moment?
    Secretary Wolfowitz. I guess I do not like that phrase and 
I tend to think each case has such unique qualities to it. I do 
think that what you are talking about is a possible model that 
can work and that can have some application, I would agree with 
very strongly. I think you alluded to the idea, which I think 
is, if I am not putting words into your mouth, that France has 
been isolating itself and hopefully it will decide to stop 
doing that.
    Senator Ben Nelson. That is exactly my point.
    Secretary Wolfowitz. Certainly we would welcome them not 
doing that.
    You mention the Central and East Europeans and you are 
absolutely right. We are already actively engaged in 
discussions with them about how to draw on their experience. 
There is a wonderful Iraqi joke which I will not bother you 
with now, but it refers specifically to Romania as an example 
that Saddam Hussein was terrified of.
    It is not an accident that in our active forces with us in 
the Gulf, Poland is one of the four countries that has forces 
in Iraq, and the Czech Republic, Lithuania, Albania, and the 
Slovak Republic have small units there. Those countries still 
understand what it means to be under a tyrant and to be 
liberated from tyranny. They, as you mentioned, have real 
technical expertise.
    We are looking for all the help we can get. We will listen 
to all the advice that we can get. But we want to make sure 
that this process works and not have so many hands on the 
steering wheel that the vehicle goes into the ditch.
    Senator Ben Nelson. That is why I think that if you can 
establish a partnership that involves both organizations in a 
meaningful way, each doing what it can do best, because that 
very well may satisfy the credibility of the world, but also 
make it work, improving credibility significantly.
    Secretary Wolfowitz. I appreciate those comments. I agree 
with them.
    Senator Ben Nelson. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. I associate myself with your observations 
about NATO.
    Senator Ben Nelson. Thank you.
    Chairman Warner. I really do.
    General Pace, you have established a real leadership role 
in your tenure, certainly on the Joint Staff, and prior 
thereto, on jointness. I would think that it would be helpful 
in the record of today if you could say a few words and then 
amplify it about the high water mark that jointness has been 
achieved, because we hear about operations and then down in the 
second or third paragraph the force that did it, say SOF, was 
Army, Navy, Marines. Why do you not talk a little bit about it.
    General Pace. Sir, thank you for your comments.
    Chairman Warner. You and General Myers have really worked 
on this and I think you have achieved it when the history is 
written.
    General Pace. Again, I thank you. I think it goes directly 
back to Goldwater-Nichols and all that that act was designed to 
do. I will just use one small example, a very important 
example, but one example of the incredible jointness that 
happens every day on the battlefield. That is the very brave 
and successful rescue of Private First Class Jessica Lynch. 
Every single arm of the Armed Forces was working hand in glove 
in that operation to make it successful, to include CIA.
    So you had not only Special Operations Forces, soldiers 
from the Army, Marines, Air Force, and Navy, but also CIA 
involvement in getting the proper force on the ground in 
response to very exquisite intelligence. That is happening as 
we sit here right this instant. You have all the Armed Forces 
working hand in glove to do what they are doing. It is an 
incredible accomplishment, directly attributable to the impetus 
of Goldwater-Nichols.
    Chairman Warner. Thank you very much.
    Also, I am sure the Joint Staff are looking at lessons 
learned from this conflict. Perhaps there could emerge from the 
preliminary assessments some requests or concepts that could be 
integrated into the 2004 authorization bill because of the need 
of the urgency to address the problem. This is an important 
piece of legislation that is now being formulated by this 
committee. We hope to present it to the full Senate in the 
month of May. I have to say with my good friend of 25 years 
sitting next to me, I kind of thought that tanks were destined 
to go into museums, but I believe they have gotten a new 
extension of life program, would you not say?
    Senator Levin. I wish we still produced them.
    Chairman Warner. Yes, well, I know. When you came on many 
years ago, you were called ``Tank Commander.'' Well, they are 
working.
    Secretary Wolfowitz. We flew a handful of them up north and 
they were much appreciated.
    Chairman Warner. I saw that.
    General Pace. Sir, uniquely to this operation, right now 
the Joint Forces Command has already established a lessons 
learned team that is embedded with General Franks at every 
level of his command structure. So literally as we are 
executing the day-to-day missions of his command, the team is 
culling out the lessons to be learned and feeding them both to 
the commands in the field so they can take immediate action and 
then back to us so we can rearrange our training and education.
    Chairman Warner. All I say is you know full well the train 
is in motion, and I think this committee would be highly 
receptive if you and the Secretary had some views that could be 
incorporated in this legislation.
    General Pace. Yes, sir.
    Chairman Warner. General Jones, last night again we had the 
pleasure of being together when you were honored. But you spoke 
out very sincerely, and I also added a few comments when I had 
the privilege of saying some words, about the importance of the 
industrial base. We daily observe the magnificence of the 
performance of the uniformed personnel, but it is the equipment 
that the Department of Defense has conceived, researched, 
developed, and produced together with the support of Congress 
that in large measure makes possible the gains that we have 
made so far, and certainly in the example given by General Pace 
of that SOF rescue operation, the extraordinary equipment that 
was used there.
    I point out, Mr. Secretary, the briefings that we receive 
each morning here in the Senate by the senior members of your 
Department, which have been excellent, by the way. We had one 
day the modern day soldier who is on the battlefield in Iraq, 
in full equipment come up and demonstrate what he and she are 
wearing. It is in the multiple thousands of dollars. Indeed, 
the weapon itself is over $20,000 in value, and the night 
vision equipment and the armored protective vest. It is 
extraordinary.
    But again, that is the innovation of America's industrial 
base that has brought to bear a high degree of protection 
against harm for these very troops to operate in. So I want to 
thank you, General Jones, and I want this hearing record to 
reflect your thoughts on that as well as my own.
    Turning to another issue, on lessons learned, Mr. 
Secretary, you will come forward. I got a call from the 
Secretary yesterday on a matter that is near and dear to his 
heart. By the way, tell him I am going to go to work with it. I 
am going to meet with the House and see what I can do on that 
posting of a particular individual in a particular country, and 
you know of what I speak.
    Secretary Wolfowitz. I know what you mean.
    Chairman Warner. But on the Middle East, the President of 
the United States in meeting with the Prime Minister of Great 
Britain--and what a magnificent partnership those two men have 
formed and the leadership they have provided--made direct 
relationship to the need for our country to proceed to the work 
of the Quartet on the strategy for resolution of the Middle 
East situation.
    Could you have a few comments on where that stands now, 
because I think there is a direct relationship between our 
Nation joining Great Britain and others in trying as best we 
can to work with the respective governments of Israel and what 
I perceive as a potential government now with the prime 
minister of the Palestinian country towards some resolution. I 
think that ties into the post-Iraq conflict because to the 
extent we can succeed in the post-Iraq resolution of problems 
it could be influenced by hopefully a lessening of the tensions 
emanating from that tragic crisis between the peoples of those 
two nations in the Middle East.
    Secretary Wolfowitz. We need someone from the State 
Department here to comment on the details of the negotiations, 
but let me make two strategic observations.
    Chairman Warner. Do not be modest. You have spent your life 
in foreign affairs, Mr. Secretary.
    Secretary Wolfowitz. Well, I know.
    Chairman Warner. I know you try and stay on your side of 
the river.
    Secretary Wolfowitz. Exactly. Therefore, let me comment on 
it from a strategic perspective. I think, number one, you are 
absolutely right that it is going to help us enormously in our 
overall posture in the Arab world, indeed in the Muslim world, 
in the whole war on terrorism, if we can follow up what I think 
is enormous success in Iraq--although there is still a lot of 
work to do, with progress on the Arab-Israeli issue.
    It will particularly be important in how Arabs view us. 
There are negatives in what has just happened, although I think 
ultimately, hopefully, people will understand that this was the 
liberation of an Arab people. I hope they will understand, by 
the way--the Americans need to understand--this was not just an 
American or coalition fight, that thousands of Iraqis have died 
fighting this dictator. That they did not rise up immediately 
this time is partly because tens of thousands of them were 
slaughtered the last time. That we had a secure base to operate 
out of in the north was because the Iraqis in the north, 
primarily Kurds but other Muslims as well, had successfully 
liberated that part of the country.
    But it will be important to our image in the Arab world 
that we be doing more than just military action in an Arab 
country, and I think particularly that we can make some 
progress on the Arab-Israeli issue.
    The other comment I would make is I am cautiously 
optimistic that the removal of Saddam Hussein as a major 
disturber of peace and as a man who financed terrorism and 
rewarded suicide bombers will improve the atmosphere for 
negotiations between Israel and the Palestinians.
    Chairman Warner. My concluding question before turning to 
Senator Levin. Much has been said about this very interesting 
individual, yet controversial, Chalabi. Could you clarify what 
you understand his role to be, because your Department fostered 
his trip into Iraq presumably, together with several hundred 
persons, either former Iraqis or of Iraqi descent, that want to 
participate in the concluding phases of this operation. What is 
his role specifically and those that accompanied him?
    Secretary Wolfowitz. Let me put it in a broader context. 
Our Department and another agency of the government have been 
supporting all kinds of resistance groups with material 
assistance, information assistance, in some cases with weapons, 
some of it overtly, some of it through other channels.
    This is not a unique case. I find some of the press 
commentary on the subject verges on paranoia. Chalabi is one of 
a number of Iraqis who have played a significant role during 
the darker period of the 1990s in calling attention to the 
plight of the Iraqi people and trying to unify and mobilize 
them. I recall the experience in 1991 when he took the 
initiative and was able to bring together six Iraqi leaders--
the two chief Kurdish leaders, two Shia and two Sunni--to meet 
with Secretary Baker and National Security Adviser Scowcroft. 
He is not an insignificant figure.
    But we are also not trying to anoint him or anyone else as 
the future leader of Iraq. You cannot talk about democracy and 
then go around and say that we are going to pick the leaders of 
a democracy. What we hope to have is a process that will 
certainly be unique in Iraq's modern experience, but not unique 
in American experience, where people get up, speak, and debate. 
Their neighbors say, ``oh, I think that makes sense'' or they 
say, ``well, that may make sense, but that SOB was actually 
working for Saddam and killed my brother.'' You need a process 
of exposure.
    I would note--it is an interesting picture--that Chalabi 
spoke in Nasiriyah to a crowd of some 10,000 people. We did not 
assemble them. It is interesting that he can summon a crowd of 
10,000. It is useful, as reported by our people on the ground, 
that he had a calming effect in Nasiriyah.
    But we are not singling him out. I am a little puzzled at 
how much press commentary that suggests that we are singling 
him out. He is one of many Iraqis that we hope will debate and 
discuss and give the Iraqi people, who are increasingly free to 
voice their views, a chance to decide who they like and by what 
process they want to pick their leaders.
    Chairman Warner. I think that clarifies exactly the 
question that I raised and I thank you, because I have studied 
him. I have not met him, but I think I would be interested in 
meeting him some day. But he seems to be an individual of great 
courage and has a love for the history of Iraq and hopefully 
some day the restoration of that nation to its prominent and 
important role in the world scene that it once had.
    Secretary Wolfowitz. He is all of that, Senator. But his 
status as a political leader is going to have to be decided by 
Iraqis, not by Americans.
    Chairman Warner. I venture a view that I think we will live 
to see the day when Iraq becomes a very influential country in 
a positive way throughout the region. I hope that is the end 
result of the tremendous sacrifices that have gone about to 
make it possible. Thank you.
    Secretary Wolfowitz. I hope so very strongly. I remember 20 
years ago when people were saying that Marcos was the best 
leader you could find in the Philippines, saying the Koreans 
were incapable of democracy--all kinds of pessimism about what 
other people can do. We hear a lot of that pessimism now about 
Arabs. I think it is misplaced and wrong, and I hope the Iraqi 
people now have a chance to show the whole world that it is 
wrong.
    Chairman Warner. We are fortunate to have your service in 
public office today because you draw on an enormous background 
of experience and observation over many years. Thank you.
    Secretary Wolfowitz. Thank you, Mr. Chairman.
    Chairman Warner. Senator Levin.
    Senator Levin. Secretary Wolfowitz, the news this morning 
indicates that the Iraqi Kurds have apparently taken over the 
city of Kirkuk, and that is a strategic place for many reasons, 
including their oil fields. I know that we have some Special 
Forces in there and that there are more forces apparently, I 
gather, on the way. Do you see any possibility here that the 
Kurds are going to attempt to maintain control over Kirkuk? 
They now have, I gather, a large number of tanks that were 
abandoned by the Iraqi Army. Do you see any possibility of 
that?
    Secretary Wolfowitz. The numbers are growing as I speak, so 
let me not try to put a number on it. Large elements of the 
173rd Airborne Brigade have moved into Kirkuk to establish 
coalition control over the city and to reassure everyone, 
including notably the Turks, that this concern of theirs that 
somehow the city would be taken over by the Kurds and the 
Turkish population of the city, which is substantial, would be 
mistreated or even driven out. We have invited the Turks to 
have some, I guess you would call them, observers or liaison 
officers in there with us so they can have transparency into 
that.
    I alluded earlier to Secretary Powell's conversation today 
with Foreign Minister Gul in which he assured the Turks that we 
were on top of the situation and trying to manage it 
successfully. I am reasonably optimistic that that will be the 
outcome.
    We have said repeatedly to the Kurds that this is one of 
those things that cannot be allowed to happen, that Kirkuk is 
potentially explosive situation if they were to try to assert 
themselves unilaterally. I think we do need to have a process 
going forward, and it is going to take some time, to resolve 
some really tragic issues, because the Iraqis made it a 
practice of driving Kurds and, I think to some extent, Turks 
out of their homes and replacing them with Arabs. Their goal 
was to make it a city that they could control, and that is a 
process that has to be re-examined, but in a legal and peaceful 
manner.
    Senator Levin. What is the percentage of Turkmen versus 
Kurds in Kirkuk? Do you know it offhand, roughly?
    Secretary Wolfowitz. I do not think we can know it because 
a lot of the Turks, in fact a lot of people in general, were 
pressed to Arabize their names. There is no realistic census. 
There are large numbers of both.
    Senator Levin. Do you know whether we have more forces in 
there now than the numbers of Kurdish fighters at this moment?
    Secretary Wolfowitz. No, I do not know the numbers. I know 
we have more capable forces.
    Senator Levin. General Pace, in the last few days it is 
obvious that, with the destruction of Saddam's control, that 
there is a lack of law and order and that local police have 
apparently also disappeared in Baghdad and in other cities. 
Does that mean then that our military personnel, who are not 
particularly trained in law enforcement, are going to have to, 
for at least some time, be there restoring law and order?
    General Pace. Senator, I think it is true that we are going 
to need to provide stability throughout the country as we 
liberate the various sections. One of the things that we are 
trying to do is exactly what the British are doing as part of 
the coalition right now, which is to seek out the former police 
officials, check them as best they can, determine their 
acceptability to the local population to continue to provide 
law and order, and then enable them to do that.
    But either the coalition forces themselves or the police 
force reconstituted will need to provide stability in that 
nation.
    Senator Levin. Are we seeking help from other countries to 
provide police forces, gendarmerie?
    General Pace. Sir, we have given to our State Department a 
list of capabilities that we believe would be useful, to 
include police type functions, in the post-Saddam rebuilding of 
the country. Our State Department is going out to other nations 
asking them to contribute along those lines, yes, sir.
    Senator Levin. Have we had any success yet, do you know?
    General Pace. Sir, I do not know.
    Senator Levin. Then finally, Mr. Secretary, back to you 
relative to the Office of Reconstruction and Humanitarian 
Assistance. What role, if any, will that office play in the 
establishment of the Iraqi Interim Authority?
    Secretary Wolfowitz. By the way, we probably should have 
named it the Office of Construction and Humanitarian 
Assistance, because a lot of it has to just be done from 
scratch. But anyway, sorry for the side comment.
    I think the establishment of the Iraqi Interim Authority is 
going to be something that is going to have to be worked out 
really at a higher political level. We are talking about how to 
have a process that legitimizes what is admittedly nonetheless 
a kind of transitional arrangement. Clearly, that office will 
be our key bridge to the Interim Authority and our key point of 
contact with the Interim Authority, but it is not the main 
organization to set up the Interim Authority.
    Senator Levin. Actually there was one other question. 
Senator Warner is also on his way back.
    On April 8, Dr. Condi Rice said that Afghanistan might not 
be a perfect guide, but there is some experience with interim 
authorities. Is there any possibility that there might be 
something like the meeting that was held in Germany which 
selected Dr. Karzai as the Afghan interim leader and that that 
might be used as a model for the Iraqi interim administration?
    Secretary Wolfowitz. One thing that certainly would not be 
a model would be to hold it outside of Iraq. We were in unique 
circumstances in Afghanistan. We had to do it in a foreign 
country. What we are hoping to start with this meeting that is 
scheduled to take place next week is to have a kind of rolling 
dialogue where Iraqis that we can identify as notables, 
potential leaders, or those with distinguished credentials of 
one sort or another can come together and begin to debate the 
issues and, indeed, to begin to define what the issues are. I 
do not know if this is a fair way to describe it, but we would 
envision a series of town hall assemblies in different parts of 
the country, where the issues can get elevated by Iraqis, not 
by foreigners, where I think the whole world, most importantly 
Iraqis, can get some idea of who are the people that can 
articulate positions well, who seem to speak for more than just 
themselves. That out of that process we would hopefully be able 
to reach some kind of a consensus on how to set up this Interim 
Authority.
    It is a much more developed society than Afghanistan. It 
does not have the tribal structure that Afghanistan had. So the 
idea of an Interim Authority I think applies, but the 
constitution of it is very different.
    Senator Levin. Will the Office of Reconstruction and 
Humanitarian Assistance be organizing those meetings around 
Iraq, starting with the one next week?
    Secretary Wolfowitz. The main focus of that office is to 
get the food, water, and electricity flowing.
    Senator Levin. Who will be organizing the meetings?
    Secretary Wolfowitz. General Franks is going to be the host 
of the meetings. We are organizing them in partnership with the 
three coalition countries that have troops on the ground, the 
U.K., the Australians, and the Poles. We are inviting the U.N. 
and other coalition partners to come as observers.
    We are basing it on the various ways which we have had of 
identifying people as potential leaders. That includes people 
we have dealt with over many years as part of the external 
opposition. It includes people in the north who have 
established themselves as clear leaders in the north. But 
increasingly, and this is the phenomenon we are dealing with, 
it is people who are coming forward out of liberated areas in 
the south and identifying themselves as representing something 
substantial.
    Our only criterion is that to come to this you need to have 
a commitment to a free and democratic Iraq and not be a 
Baathist killer.
    Senator Levin. If you would supply to the committee for the 
record the procedures, the description of who is invited to 
these meetings, I think it would be helpful to us.
    [The information referred to follows:]

    Senator Levin's question refers to the two political meetings that 
were held in April immediately following the fall of Baghdad and the 
liberation of Iraq. The list of invitees for these meetings was drawn 
from a number of sources. Prominent Kurdish leaders were included, from 
areas which had been governed autonomously under the protection of 
Operation Northern Watch throughout the 1990s. Iraqi oppositionists who 
had been living in exile were also invited. Additionally, the coalition 
invited individuals who had been living under Saddam's rule inside Iraq 
for many years. They were known to us largely by word-of-mouth, and we 
actively solicited recommendations for prominent individuals to include 
from our friends in the external Iraqi opposition. The only criterion 
for participation in these meetings was a commitment to democratic 
principles and an eagerness to work with the coalition to effect the 
reconstruction of Iraq.

    Secretary Wolfowitz. I would emphasize that it is a process 
more than a blueprint. We will keep you posted as it rolls.
    Senator Levin. Thank you.
    Chairman Warner. Senator Levin, I think that is a very 
important line of questions. Really, I somehow wish that this 
very valuable segment of your testimony had been shared by more 
colleagues. I think you have laid it out quite well here in 
this concluding colloquy with my good friend and colleague.
    Secretary Wolfowitz. I appreciate the questions. I imagine 
the two of you understand it better than I because you have 
been in the midst of the rough and tumble of American politics. 
Democracy is a messy thing.
    Senator Levin. It does not show, though, does it?
    Secretary Wolfowitz. As Churchill said, though, it is so 
much better than the alternatives. People who said that this 
horrible dictator provided stability should ask themselves what 
kind of stability was he providing. But we should understand 
that there is a lot of uncertainty and unpredictability about a 
democratic method.
    Chairman Warner. I think Churchill said he knew of no 
better.
    Secretary Wolfowitz. Okay, thanks. I stand corrected.
    Chairman Warner. I am fascinated with that chapter in 
history.
    When we ask questions about General Garner, do not 
misconstrue. This committee wants to be supportive. We think 
this is--I think I can speak for the committee--a constructive 
step to give this distinguished officer, now retired, these 
challenges. Is there a document which gives him a mission 
statement or the parameters in which you are to operate? 
Perhaps you can provide that to the committee so we understand 
it.
    Secretary Wolfowitz. I would be happy to.
    [The information referred to follows:]

    ORHA was established by National Security Presidential Directive 24 
on Post-War Iraq Reconstruction. It was signed on January 20, 2003. The 
classification of the document is Secret.
    This information is contained in a Presidential Document (NSPD) 
which is unreleasable for the record.

    Chairman Warner. Senator Levin and I visited with the 
Secretary the other day. He said he hopes to have him 
physically, together with his organization, in country--he may 
well be there now for all I know--showing that he is to step up 
even before the final phases of this operation militarily and 
begin to undertake his task.
    He will be reporting directly to CENTCOM, is that correct? 
That is his chain of reporting?
    Secretary Wolfowitz. That is correct.
    Events have really outpaced any plans we drew, so the 
thought is to move him up here sooner, up north sooner than we 
had thought.
    Chairman Warner. I just want you to depart here with the 
feeling that the committee wants to be supportive, and to the 
extent we are informed I think better enables us to be 
supportive, because hopefully in the near future there will be 
some chain of events which will signal to the world and 
certainly the leaders of the coalition forces that their goals 
have been achieved. Now, whether that will be a dramatic event 
whereby suddenly Saddam Hussein comes out and is either 
captured or admits defeat, I do not know. He is so enigmatic 
that we cannot speculate as to what he might do if he is still 
alive.
    But nevertheless, it could well be that there will be a 
chain of events where you have to reach a conclusion that this 
operation has achieved its initial goals, albeit that the 
country will have small pockets of instability and threat both 
to the citizens and to the military forces. But then we move 
towards I think this very interesting chapter that you bring 
up, allowing the Iraqis to begin a dialogue amongst themselves, 
town forums, whatever the case may be.
    If you had an opportunity to sit down and do a time line, 
how soon do you think an interim government might be 
constituted?
    Secretary Wolfowitz. You mean as opposed to an Interim 
Authority?
    Chairman Warner. Yes. Well, the Interim Authority I think; 
that is CENTCOM and General Garner that are a part of the 
Interim Authority, is it not?
    Secretary Wolfowitz. No.
    Chairman Warner. Let us get these definitions then 
straight.
    Secretary Wolfowitz. It is important. Let me not guess at 
the term. There is a notion that you have an initial 
administration, which is the Garner operation or the Garner 
operation assisting the existing Iraqi administration.
    Chairman Warner. I look upon it as CENTCOM as the initial.
    Secretary Wolfowitz. Fine. That is coalition actually.
    Chairman Warner. Garner is an important adjunct of CENTCOM 
to get a variety of tasks achieved which are not the direct 
responsibility of a trained professional military.
    Secretary Wolfowitz. Right. Then at some point, and one 
would like it sooner rather than later, you have an Interim 
Authority. The reason you do not want to try to go and propose 
the composition of that Interim Authority right now or even its 
size or its structure is that there are an awful lot of Iraqis 
who might be good candidates to be in that who are not free to 
even speak right now or some who may be free to speak but their 
families are not. While we are going to have a big say in how 
the Interim Authority is set up, we would like our judgments to 
be based on what we can discern to be a kind of consensus of 
Iraqi views.
    Once that Interim Authority is established, then it has two 
tasks. One is to facilitate the transition of the 
administration from the coalition under General Franks' control 
to the Interim Authority. But even more important is to 
facilitate the process by which a permanent government is 
established to do the things like the organization of a 
constitutional convention and the processes by which a 
constitution would be ratified and maybe some process, starting 
with local elections, leading to national elections, but to 
begin to develop by Iraqis institutions that legitimately 
represent Iraqis.
    It is foolish to try to put a timeframe on it. I mentioned 
the other day and probably got myself in trouble that in 
northern Iraq, where it was a much simpler task and they did 
not establish a permanent government but they have done 
amazingly well. We were gone in 6 months. It is a much more 
complicated country. I do not think that is realistic.
    But what the northern Iraq experience brings out--and you 
have somebody who lived through all of it sitting on my left--
is that to some extent the faster you push people the better 
they do. It is like the problem, if you leave the training 
wheels on a bicycle too long the kid never learns to ride. So 
we want to keep it moving. We want to push it. But we want to 
make sure that when the training wheels are off the bicycle 
does not fall over.
    Chairman Warner. Let me just push a little bit on the 
definition of Interim Authority. Would that be, let us call it 
a council of, say, 12 individuals with the majority vote as the 
decision of the Interim Authority? Or will they will elect 
their own leader, say the chairman of the council?
    Can you give us some idea of the fabric of what the Interim 
Authority plans on doing?
    Secretary Wolfowitz. I could sketch a notion, but the 
problem is that would be my notion. I think one of the things 
we would like to have in these meetings, of which the first one 
will be next week, is for Iraqis to lay out their own notions 
of what they would like to see. We are going to have to try to 
discern in that a consensus on something that to us makes 
sense, because we do have a say in the Interim Authority. We do 
not have a say in the final government of the country.
    I guess to try to answer your question, I think it should 
have both representative capacity, which tends you toward large 
numbers, and some executive capacity, which tends you toward 
small ones. So I think if I were an Iraqi, I would say let us 
have a council of size 3X and a management committee of size X 
and the management committee will do the administration piece. 
But they may have a different view.
    Chairman Warner. I think somebody has to start and it seems 
to me a group of persons, call it a council for lack of a 
better term, and then they themselves elect that individual or 
decide on a decision process. We have seen enough indecision in 
groups so far. Let us structure it or hopefully structure it so 
it can reach a decision, for better or for worse, and move 
forward with that decision.
    Secretary Wolfowitz. I think when it is structured it has 
to be a group that is capable of reaching decisions. I think 
that is clear. Otherwise it is not going to function.
    Chairman Warner. We certainly agree on that.
    Senator Levin, I think we have had an excellent hearing.
    We thank you, Mr. Secretary. We thank you, General Pace. We 
welcome and thank you, our good friend, General Jones.
    General Jones. Thank you, Mr. Chairman.
    Chairman Warner. Nice to have you back, and from all 
reports you are just doing marvelously in your new assignment, 
and enjoying it with your very wonderful wife.
    General Jones. Very much so. Thank you, Senator.
    Chairman Warner. Thank you. Good day. We are adjourned.
    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Edward M. Kennedy

                         LAW AND ORDER IN IRAQ

    1. Senator Kennedy. Secretary Wolfowitz and General Pace, we see a 
continuing problem for law and order, with looting in many cities. In 
Basra, government offices, banks, shops, hotels, and homes have been 
stripped bare. Ambulances were even used to carry off looted goods. The 
British are quoted in the Washington Post as saying that looting and 
disorder are problems, but they are not there as a police force. U.S. 
Brigadier General Vincent Brooks told a news briefing at Central 
Command that there is often a ``temporary vacuum'' of control in areas 
that had just been liberated. If not the United States or Britain, who 
is there to meet the policing needs of Iraq?
    Secretary Wolfowitz. We are working to identify Iraqi national 
police officers who are not associated with the abuses of the former 
regime and can therefore resume their activities. Coalition military 
forces are working with these Iraqi police to maintain basic law and 
order, including stopping looting.
    General Pace. Coalition forces arriving in urban areas had as their 
first priority the mission of engaging the enemy, as combat operations 
were still ongoing. In many instances throughout the conflict, Iraqi 
organized military resistance collapsed and enemy troops fled very 
rapidly, often before the U.S. military even arrived on the scene. 
Although organized military resistance collapsed, our forces continued 
to face snipers, terrorists, and fighters loyal to Saddam Hussein.
    Coalition forces are responsible for providing a stable and secure 
environment to allow the Iraqi people to take charge of their own 
government and their own future. We are working closely with our 
allies, the Office of Reconstruction and Humanitarian Assistance 
(ORHA), nongovernmental organizations, the international community, and 
re-emerging elements of the Iraqi police to restore order in Iraq as 
quickly as possible. This process can be expected to take some time to 
complete.

    2. Senator Kennedy. Secretary Wolfowitz and General Pace, what is 
being done right now to deal with this growing law and order problem?
    Secretary Wolfowitz. Coalition forces are conducting joint patrols 
with Iraqi police officers not associated with the abuses of the former 
regime.
    General Pace. Coalition forces are working to restore law and order 
in Iraq as quickly as possible. Civil affairs personnel are currently 
assessing the situation on the ground and are preparing recommendations 
on needs and conditions. Coalition forces are working with local 
authorities and Iraqi police to restore law and order. Coalition forces 
have appealed to local police to return to work. Thousands have already 
responded in Baghdad alone. Initially, the returning Iraqi police will 
be unarmed and patrol jointly with coalition forces. I am confident 
that these measures will go far to restore law and order.

    3. Senator Kennedy. Secretary Wolfowitz and General Pace, how will 
it be addressed in a more permanent way over the next 6 months?
    Secretary Wolfowitz. In the medium- to long-term, ORHA will 
implement a training program to develop a cadre of police officers, 
judges, and corrections officers who are able to operate in a 
democratic system based on the rule of law. These programs will be 
similar to programs undertaken in Kosovo, Bosnia, Haiti, and other 
countries to develop professional, well-trained judicial officials.
    General Pace. Our desire is to return full responsibility for 
maintaining law and order to the Iraqis as soon as possible. In the 
interim, several of our coalition partners have volunteered 
constabulary forces and gendarmerie to help. The ORHA will assume 
oversight for reconstituting the Iraqi police force. Between the 
soldiers on the ground, the solid offers of assistance from our 
international partners, and ORHA's efforts, I am confident that Iraqis 
themselves will soon begin to assume greater responsibility for 
maintaining law and order in a post-Saddam Iraq.

                          HUMANITARIAN CRISIS

    4. Senator Kennedy. Secretary Wolfowitz, the Red Cross has been 
reporting that the humanitarian situation in Baghdad is ``extremely 
critical.'' Hospitals have been overwhelmed with wounded people--some 
with 100 new patients per day. Medical facilities have no electricity 
or water. The only significant relief agency in the country is the Red 
Cross/Red Crescent, and they've suspended humanitarian operations 
because of the chaos in Iraq. What plans are in place to work with the 
U.N. and international relief agencies waiting for the opportunity to 
help?
    Secretary Wolfowitz. In recent public remarks the President of the 
International Committee of the Red Cross Kellenberger clearly stated 
his impression, based on a recent visit to Iraq, that there is no 
current humanitarian crisis in Iraq. Through a combination of careful 
interagency planning and the skill of our combat forces, the coalition 
has averted a humanitarian crisis in Iraq.
    There have been no widespread or sustained population 
displacements, no pervasive food shortages, no significant disease 
outbreaks, no flood of civilian casualties, and no systematic ethnic 
reprisals.
    With regard to the health system, we are seeing improvements 
everyday. Hospital facilities are being refurbished and hospital 
workers are returning to work. The coalition is working with the United 
Nations to reestablish the Iraqi Ministry of Health. Most hospitals 
have adequate supplies and the medical supply distribution system is 
being restarted.
    With regard to the United Nations and other international relief 
agencies, the coalition initiated outreach to these groups well in 
advance of the conflict in order to promote and facilitate their 
activities within Iraq. The coalition, under the direction of the 
Kuwaiti government, established a Humanitarian Operations Center in 
Kuwait to facilitate and share information regarding humanitarian 
operations. The USG has also provided hundreds of millions of dollars 
to these organizations to prepare for and respond to humanitarian needs 
within Iraq. Most of the major U.N. sectoral agencies are already back 
at work in Iraq with hundreds of international and national staff on 
the ground.

    5. Senator Kennedy. Secretary Wolfowitz, how are you addressing the 
NGO communities' needs to provide aid and yet maintain independence 
from the coalition's military structure?
    Secretary Wolfowitz. Even before the conflict in Iraq, DOD, working 
with the interagency, conducted outreach with a cross-section of NGOs 
and relief agencies in order to hear their concerns and facilitate 
their humanitarian preparations and response. The coalition, under the 
direction of the civilian side of the Kuwaiti government, helped 
establish a Humanitarian Operations Center in Kuwait to promote NGO 
access to Iraq, facilitate preparations, and share information.
    NGOs have not been and will not be forced to give up their 
independence and have not and will not be controlled by the coalition. 
The coalition goal is to provide a permissive environment in which NGOs 
can operate and to facilitate these operations to the extent possible. 
The coalition military structure is also closely aligned with the USG 
Disaster Assistance Response Team and other USG civilian structures, 
which serve as the USG/coalition interface with NGOs. In addition the 
coalition is promoting and facilitating an active U.N. role in 
interfacing with NGOs.

        TUG OF WAR BETWEEN THE DEPARTMENTS OF STATE AND DEFENSE

    6. Senator Kennedy. Secretary Wolfowitz, the media have widely 
reported on the battle between the State Department and the Pentagon 
over who will have responsibility for which reconstruction issues. 
Press reports say that the Pentagon vetoed the entire team of eight 
officials, proposed by the State Department, to step in and begin to 
run a post-war Iraq. The other week Secretary Powell had to ``clarify'' 
in a letter to the Pentagon that the teams coordinating with the 
various relief agencies would report to AID--and not to General Garner. 
Can you clearly tell us which responsibilities the State Department 
will have and which the Pentagon will have?
    Secretary Wolfowitz. Ambassador Paul Bremer is the Administrator of 
the Coalition Provisional Authority. As such, he is the senior 
coalition official in Iraq. The Ambassador reports to the President 
through the Secretary of Defense.

                           ROLE FOR THE U.N.

    7. Senator Kennedy. Secretary Wolfowitz, President Bush and Prime 
Minister Blair have met to discussed post-war Iraq. Both of them spoke 
of a ``vital role'' for the U.N. in rebuilding Iraq. There seems to be 
a large difference between what President Bush means by ``vital role'' 
for the U.N. and what the British mean. Are you willing to go to the 
U.N. to ask for support by the Security Council for the reconstruction 
of Iraq?
    Secretary Wolfowitz. The U.N. will play an important role in Iraq. 
U.N. functional agencies have historically played a very large role in 
areas like refugee assistance and humanitarian relief. The World Food 
Program is already engaged in Iraq. We welcome the fact that the U.N. 
has already passed one resolution to extend the Oil-for-Food program 
for 45 days to continue it functioning in Iraq.

    8. Senator Kennedy. Secretary Wolfowitz, do you believe we can and 
should pursue the reconstruction and stabilization efforts in Iraq 
alone--troops, peacekeeping, civil administration--or do you think that 
we will need and want international help?
    Secretary Wolfowitz. There is definitely plenty of work for 
everyone. The U.N.'s World Food Program is already engaged in Iraq and 
the U.N. has already passed one resolution to extend the Oil-for-Food 
program for 45 days to continue its functioning in Iraq. The larger 
role of the U.N. will be determined in coordination with the Iraqi 
people, and with other members of the coalition. The World Bank and the 
International Monetary Fund can also play very useful roles with their 
financial resources and expertise.

    9. Senator Kennedy. Secretary Wolfowitz, what are your willing to 
do to patch things up with our allies?
    Secretary Wolfowitz. Allied participation in the Iraqi 
reconstruction has been great. To date, over 20 countries have forces 
on the ground in Iraq or are providing support within theater. As a 
more stable and permissive environment is achieved, we expect even 
broader coalition participation. We have also had a surge in offers of 
medical support to assist with humanitarian efforts and we are moving 
quickly to integrate these assets into our overall effort. Right now, 
the U.K., Australia, Denmark, Spain, and Romania have personnel who are 
part of the ORHA staff. Seventeen other countries have expressed an 
interest in sending personnel to take part in ORHA's activities. $1.7 
billion of humanitarian assistance has been pledged to date by a number 
of countries. In the longer term, we are working closely with our 
coalition partners to integrate additional forces into our stability 
and security operations.

                      WEAPONS OF MASS DESTRUCTION

    10. Senator Kennedy. Secretary Wolfowitz, a big issue is whether or 
not we are finding any weapons of mass destruction, and whether there 
are any. How long will it take to find convincing proof that Saddam 
Hussein did in fact have large quantities of these weapons?
    Secretary Wolfowitz.

        <bullet> As I have previously said, it has always been unlikely 
        that we are going to stumble upon weapons of mass destruction. 
        What is more likely is that we will find people who are willing 
        and able to provide us with detailed information concerning the 
        location of the various elements of Iraq's WMD program.
        <bullet> The coalition is actively seeking cooperation from 
        Iraqi personnel--not just scientists, but also technicians, 
        engineers, managers, and security personnel who watched over 
        them--related in any way to Saddam Hussein's WMD programs. We 
        are encouraging these individuals to come forward and cooperate 
        with the coalition.
        <bullet> Coalition forces are conducting sensitive site 
        exploitation missions at a number of sites identified as 
        possibly being linked to Iraq's WMD programs. In addition, we 
        are conducting sensitive site exploitation operations at a 
        number of ad hoc sites that have been identified through human 
        intelligence and document exploitation.

    11. Senator Kennedy. Secretary Wolfowitz, I understand the 
administration has resisted the idea of inviting the U.N. inspection 
teams back into Iraq, and that it has hired a number of these 
inspectors for our own inspections team. However, even they are 
expressing concerns about delays and approaches to the U.S. inspection 
regime. If we find weapons of mass destruction that way, how will you 
convince the rest of the world about it?
    Secretary Wolfowitz.

        <bullet> The U.S. has incorporated a number of former U.N. 
        inspectors and other foreign experts into its WMD discovery and 
        exploitation teams. These personnel bring with them an 
        invaluable amount of experience, expertise, and independence.
        <bullet> We have also engaged the media on the issue of WMD 
        discovery, and have allowed them to join our teams as we 
        conduct our investigations of suspect sites. We have been 
        forthcoming with regard to our operations and what has been 
        found at these sites.
        <bullet> Finally, as we come upon suspect materials and items, 
        we are careful to follow a very strict chain of custody 
        requirements to ensure the integrity of any samples taken. 
        These samples are then sent to U.S. labs for analysis; we are 
        also exploring arrangements with qualified foreign labs to 
        double-check and validate any findings.
        <bullet> That said, despite our efforts, our transparency, and 
        the evidence we present, there will always be some people who 
        we will be unable to convince.

    12. Senator Kennedy. Secretary Wolfowitz, why doesn't it make sense 
to let an independent team of inspectors do the job, given all the 
continuing doubts about our credibility on the issue?
    Secretary Wolfowitz.

        <bullet> The incorporation of former U.N. inspectors and 
        foreign experts into U.S.-led teams provides us with the 
        expertise, experience, and independence needed to accomplish 
        the WMD discovery mission, without jeopardizing intelligence 
        sources, operational efficiency, or the security and safety of 
        team members.
        <bullet> Iraq remains an unstable and dangerous place, not to 
        mention that these teams are searching for very hazardous items 
        and materials.
        <bullet> We are confident that our plan and organizational 
        structure, and the transparency measures that we have made part 
        of this process, will allow us to accomplish this important 
        mission in a safe, effective, and credible manner.

                      CONSULTATIONS WITH CONGRESS

    13. Senator Kennedy. Secretary Wolfowitz, there has been continuing 
speculation on whether the administration may have similar plans for 
regime change in Iran and Syria. Can you tell us if there is a plan for 
regime change in those countries?
    Secretary Wolfowitz. As President Bush stated in his 28 January 
2003 State of the Union speech, ``Different threats require different 
strategies. In Iran, we continue to see a government that represses its 
people, pursues weapons of mass destruction, and supports terror. We 
also see Iranian citizens risking intimidation and death as they speak 
out for liberty and human rights and democracy. Iranians, like all 
people, have a right to choose their own government and determine their 
own destiny--and the United States supports their aspirations to live 
in freedom.''
    We have concerns about Syrian support of terrorism and we have 
conveyed these concerns to the appropriate parties. During his early 
May visit to Damascus, Secretary Powell discussed with President Asad 
our growing frustration with Syrian behavior, in the hope that a frank 
discussion might provide the impetus for a change in Syrian policy.

    14. Senator Kennedy. Secretary Wolfowitz, will you make a 
commitment that the administration will come to Congress first, before 
taking action?
    Secretary Wolfowitz. We will continue to fulfill our obligations to 
consult with Congress in its constitutionally mandated oversight role.

                            CENTRAL COMMAND

    15. Senator Kennedy. General Jones, Secretary Rumsfeld has talked 
about reducing the number of U.S. troops deployed in Germany. You have 
been recently quoted as ``. . . looking for more flexibility'' and ``. 
. . a more modern approach to how you sustain [the] Armed Forces 
throughout the European theater.''
    In addition, there are reports circulating on changing the Cold War 
presence of our military in Europe. I am reminded of the way that 
Central Command has transformed over the years into an expeditionary 
presence in the theater with the major headquarters and supporting 
infrastructure being based within the continental United States. Your 
recent comments in the media appear to support a Central Command type 
of model for European Command. Is this a fair assessment of your vision 
for the future and if it is, do you have a target timeline for 
implementation?
    General Jones. No, we are not adopting any existing models but we 
have evaluated the unique challenges and requirements of the U.S. 
European Command Theater. While the center of gravity in EUCOM's area 
of responsibility (AOR) is aligned with Western Europe, the center of 
activity is expanding south and east; therefore, my component 
commanders and I have determined that the current footprint in EUCOM 
may not adequately support our mission in the future. Therefore, we 
have developed a strategic transformation plan for presentation to 
Secretary Rumsfeld before the end of May. This plan is based on the 
following seven assumptions, the United States:

 (1) Desires to maintain its current position as a nation of global 
        influence through leadership and efficient and effective 
        application of informational, military, economic, and 
        diplomatic power;
 (2) Remains committed to its friends and allies through commitments to 
        global and bilateral organizations and institutions, and 
        supports treaties and international agreements to which it is a 
        signatory;
 (3) Remains committed to a global strategy, a cornerstone of which is 
        forward based and forward deployed forces in key areas which 
        contribute to the first line of defense;
 (4) Supports in-depth transformation of its Armed Forces and basing 
        structure, as required in order to respond to 21st century 
        threats and challenges;
 (5) Will continue to seek ways to mitigate, or offset, obstacles posed 
        by 21st century global sovereignty realities through a re-
        orientation of its land, sea, and space presence;
 (6) Recognizes that the current concept and disposition of U.S. basing 
        within EUCOM may not adequately support either the strategic 
        changes attendant to an expanded NATO alliance, or the national 
        requirements of a rapidly changing area of responsibility; and
 (7) Will seek to preserve those assets which are of enduring value to 
        its missions, goals, and national interests so long as their 
        location measurably contributes to our global strategy, the 
        NATO Alliance, and our bilateral engagements within theater.

    The timeline for full implementation of our strategy will occur 
upon approval of our plan by the Secretary of Defense. We have already 
commenced with a partial implementation of that plan, which is 
reflected in the fiscal year 2004 military construction (MILCON) 
amended budget submission, approved by Secretary Rumsfeld. The 
revisions within this amended budget submission represented over $150 
million reductions in fiscal year 2004 MILCON projects that did not 
support our long-term basing strategy. Our revised fiscal year 2004 
requirements will only fund those projects that support our strategic 
``enduring'' bases and installations.
    U.S. European Command has downsized the force structure and the 
number of facilities in theater for over a decade. We have undergone a 
reduction in forces of approximately 66 percent, from 248,000 (in 1989) 
to 109,000 (in 2002). We have closed 566 installations along with over 
356 sites and training areas. This reduction equates to 70 percent 
shift in personnel and facilities compared to Cold War era peaks.
    To respond to the dangerous and unpredictable threats of the 21st 
century, we are developing a strategy that matches our resources to 
needed capabilities. The utilization of a rotational basing model, more 
flexible and along the lines of an expeditionary construct, will 
complement our forward-basing strategy and enable us to reverse the 
adverse proportions of our theater ``tooth-to-tail'' ratio. Rotational 
forces require less theater infrastructure and increase our agility to 
respond to changing environments at significantly lower costs. 
Compatible with our rotational forces will be a basing plan that 
establishes forward operating bases and forward operating locations to 
the south and east of our AOR. These expeditionary bases will be 
inextricably linked to our main operating bases in Western Europe. 
Changing our basing strategy to respond to the dramatically different 
challenges of the new century is a key element of our transformation 
plan.
    USEUCOM, an ``ocean closer,'' is a strategic enabler. With our 
forward presence, bases in USEUCOM provide a springboard from which 
U.S. forces are able to rapidly support efforts to the far corners of 
our theater and beyond our AOR. USEUCOM enjoys a robust and secure 
transportation network that is a tremendous power projection 
capability, which provides our Nation immense capability and 
flexibility to carry out our National Security Strategy. Nowhere is 
this better demonstrated than in the ongoing operations in Afghanistan 
and Iraq. Through the proper blend of our strategic bases with newer 
and more agile forward operating bases and forward operating locations, 
in conjunction with an expeditionary force construct, we will be 
positioned to more aptly influence the center of activity.

    16. Senator Kennedy. General Jones, what would be the requirements 
for relocating your permanent headquarters?
    General Jones. There is no compelling requirement to relocate the 
headquarters within U.S. European Command. Our NATO commitment and 
engagement strategy make Stuttgart, Germany the most effective location 
for our headquarters.

                           GENERAL JAY GARNER

    17. Senator Kennedy. Secretary Wolfowitz, on April 9, Ahmad 
Chalabi, head of the Iraqi National Congress, said on CNN:

        ``Where is General Garner now? The people need assistance here 
        in Nasiriyah. Why are they not here? Why don't they work to 
        rehabilitate the electricity and water? This area is in great 
        need of assistance now. People are hungry. Their supplies are 
        going to run out. Basic services have to be restored. This is 
        true all over the town. Where are they?''

    Now that Baghdad has fallen, when will General Garner and his team 
begin work in Iraq?
    Secretary Wolfowitz. As soon as Baghdad fell, Iraqis began working 
with the coalition to help restore basic services to their cities and 
neighborhoods--services like clean drinking water, electricity, 
security, health care, food assistance. Ambassador Bremer, the 
Coalition Provisional Authority, is now in Baghdad and has made great 
progress in improving the standard of living of the Iraqi people.

    [Whereupon, at 12:39 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
